<html>
<title> - WEST NILE VIRUS</title>
<body><pre>[Senate Hearing 106-627]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-627
 
                            WEST NILE VIRUS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

  TO CONDUCT OVERSIGHT OF THE STATE AND FEDERAL RESPONSE TO THE 1999 
      OUTBREAK OF THE WEST NILE VIRUS IN CONNECTICUT AND NEW YORK

                               __________

                    DECEMBER 14, 1999--FAIRFIELD, CT

                               __________

  Printed for the use of the Committee on Environment and Public Works



                     U.S. GOVERNMENT PRINTING OFFICE
63-231 CC                    WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                    DECEMBER 14, 1999--FAIRFIELD, CT
                           OPENING STATEMENT

Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................     1

                               WITNESSES

Andreadis, Theadore, Department of Soil and Water, Connecticut 
  Agricultural Experiment Station................................     8
    Prepared statement...........................................    32
Fish, Durland, M.D., Associate Professor of Epidemiology, Yale 
  University School of Environment and Public Health.............     4
    Prepared statement...........................................    31
McLean, Robert, Director, National Wildlife Health Center, U.S. 
  Geological Survey..............................................    13
    Prepared statement...........................................    45
Stahl, Jane, Deputy Commissioner, Connecticut Department of 
  Environmental Protection.......................................    16
    Prepared statement...........................................    47

                          ADDITIONAL MATERIAL

Letters:
    Benson, Krisann E., Fairfield, CT............................    73
    College of Agriculture and Natural Resources, University of 
      Connecticut,...............................................    52
    Department of Public Health, State of Connecticut............    51
    Fairfield County Citizens Concerned About Pesticides (FCAP)..    61
    Maranell, Donald R., First Selectman, Stonington, CT.........    53
    New York Public Interest Research Group......................    65
    Prince, Stacy, Westport, CT..................................    72
Report, Resmethrin, EXTOXNET.....................................    62
Resolution, Stamford, CT, City Council...........................    64
Statements:
    Alderman, Nancy, President, Environment and Human Health, Inc    54
    Baptist, Thomas R., National Audubon Society, Greenwich, CT..    56
    Boissevain, Andrea L., M.P.H., Health Risk Consultants, 
      Fairfield, CT..............................................    55
    Bolnick, Britt D. Pastor, Mohegan Lake, NY...................    76
    Clark, Pamela, Fairfield County Citizens Concerned About 
      Pesticides (FCAP)..........................................    60
    Diorio, Doreen, Staten Island, NY............................    76
    Eash, Connie, Cheshire, CT...................................    71
    Epstein, Paul R., Center for Health and the Global 
      Environment................................................    49
    Fenley, Susan, New York, NY..................................    75
    James, E. Allen, Executive Director, RISE (Responsible 
      Industry for a Sound Environments, Washington, DC..........    70
    Kerr, Roger, Stamford, CT....................................    70
    Maranell, Donald R., First Selectman, Stonington, CT.........    53
    New York Public Interest Research Group......................    66
    Ninivaggi, Dominick, Superintendent, Suffolk County Vector 
      Control, Yaphank, NY.......................................    69
    Opp, William R., Director, Lee County Mosquito Control 
      District, Fort Myers, FL...................................    69
    Pritchard, Lynn, Westport, CT................................    74
    Reidman, Sue, Ecological Health Organization (ECHO), Hebron, 
      CT.........................................................    59
    Rupp, Henry R., North Brunswick, NJ..........................    77
    Santacroce, Lisa, Environmental Affairs Office, Connecticut 
      Audubon Society............................................    57
    Schulwolf, Marthe, Piermont, NY..............................    75
    Worden, Diane, The Nature Center for Environmental 
      Activities, Inc., Westport, CT.............................    58


                            WEST NILE VIRUS

                              ----------                              


                       TUESDAY, DECEMBER 14, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                            Fairfield, Connecticut.
    The committee met, pursuant to notice, at 9 a.m. at the 
Fairfield University School of Business, Fairfield, 
Connecticut, Hon. Joseph I. Lieberman [acting chairman of the 
committee] presiding.
    Present: Senator Lieberman.

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks so much for joining us here today 
at Fairfield University.
    I particularly want to thank Father Kelly and the entire 
Jesuit community here at Fairfield University and all our 
friends here for welcoming us for this very--this great 
institution, which is a great citizen of Fairfield and 
Connecticut.
    Let me now call to order this field hearing of the U.S. 
Senate Committee on Environment and Public Works on the subject 
of the West Nile virus.
    As all of us are aware, earlier this fall communities in 
southwestern Connecticut and, in fact, throughout the New York 
area, experienced an alarming outbreak of the West Nile virus, 
a mosquito-borne virus never before found, as I understand it, 
in the western hemisphere.
    The emergency of the virus has had a major impact on nearby 
communities, generating widespread concern about the immediate 
health threat from the disease and also about the potential 
health impacts of the pesticides that were used to respond to 
the disease.
    There was also, I know considerable frustration that 
answers to some of the natural pressing questions that people 
had about why the outbreak occurred and whether it was likely 
to reemerge were lacking.
    We know, as fact, that there were a group of people in New 
York and its suburbs who were made ill, sickened by the 
disease, and, in fact, I gather the number that is agreed on is 
seven--seven people probably died as a result of the disease.
    Connecticut did not experience, to the best of our 
knowledge, and human cases of the virus this past fall; 
however, the disease had a visible effect on wildlife in the 
State, killing a number of crows and other birds.
    It was found--that is, the virus--in mosquitos and dead 
birds in the following towns in Connecticut: Darien, East 
Haven, Fairfield, Greenwich, New Canaan, New Haven, Norwalk, 
Orange, Reading, Stamford, Weston, Westport, and Woodbridge.
    My purpose in convening today's hearing is to continue the 
dialog and to try to engage some thoughtful responses from the 
distinguished panel of experts that have been good enough to 
come and be with us today.
    Specifically, this morning the hearing is intended to 
gather information and to help educate the public and the 
Government about the West Nile virus, a kind of post-crisis 
look at how we all performed, including the various 
governmental agencies, and then to ask the natural question 
that people have, including myself, which is: is the West Nile 
virus likely to reoccur in the future? And what can we do to 
prepare for and hopefully prevent, or at least limit, another 
outbreak?
    Now, to help us answer those questions, I am really pleased 
to have these witnesses, who were closely involved in the State 
and Federal response to the West Nile virus crisis.
    Dr. Durland Fish of Yale University School of Environmental 
and Public Health will provide us with some background about 
the disease. He is also going to point out some areas, I think, 
where more research and training is needed to better understand 
and react to infectious diseases such as the West Nile virus.
    Also, as I mentioned, with us is Dr. Ted Andreadis of the 
Connecticut Agricultural Experiment Station, a great--if I may 
say so--natural research for the State of Connecticut, let 
alone the country. Dr. Andreadis was literally on the ground 
this fall trapping mosquitos, testing them and the birds for 
the presence of the virus. He is going to give us, I think, an 
overview of the Experiment Station's efforts in response to the 
West Nile virus outbreak.
    Our third witness, Dr. Bob McLean, is director of the U.S. 
Geological Survey's National Wildlife Health Center, and he 
will describe the Center's research into the effects of the 
virus on bird populations. Dr. McLean has previously held 
positions with the Centers for Disease Control and Prevention 
and the U.S. Department of Agriculture, so he is really 
uniquely positioned to address cooperative efforts among 
experts in human health and animal health.
    I want to particularly thank Dr. McLean for traveling from 
Wisconsin to be with us today.
    And, finally, Deputy Commissioner Jane Stahl of the 
Connecticut Department of Environmental Protection will, I 
hope, describe the history of mosquito control in Connecticut, 
give us an overview, and discuss the environmental impacts 
associated with different approaches to mosquito control.
    While I realize that we are unlikely to hear definitive 
answers to some of the pressing questions that we have about 
the source of the virus and the likelihood that it will 
reappear in the spring, I am optimistic that this hearing can 
provide an opportunity for all of us to learn what already has 
been learned about the disease and to get an update on what 
steps are being taken to gather more information about the 
source of the virus and what we can do to avoid another 
outbreak in the future.
    As the witnesses present their testimony, of course, I am 
also going to be interested in hearing at this distance, 
although it is still close, but at least a couple of months 
after the crisis, what they think worked well, particularly in 
terms of the governmental response, and what did not, as local, 
State, and Federal agencies coordinated their reaction to West 
Nile virus.
    To make the most efficient use of our time here this 
morning, I am going to ask each of the witnesses to try to 
limit his or her initial testimony to about 5 minutes. We have 
brought from Washington one of these ominous time clocks with 
lights. They are timed for 5 minutes. The yellow light will go 
on when there is a minute left. If you feel you have really got 
some important things to say after the red light goes on, you 
know, I will not give you the hook, I assure you, but it is a 
guide to the time.
    The witnesses do have also, as I think you know, an 
opportunity to submit broader written testimony, which is 
included in the entirety of the printed record of this hearing 
and will be reviewed by me and my staff, and I believe by 
colleagues in the Senate. It is somewhat poignant for me to 
point out that the previous chairman of the Senate Environment 
and Public Works Committee, John Chafee, the late John Chafee 
of Rhode Island, who was a great leader in environmental 
protection and public health, passed away just several weeks 
ago.
    This was the last--his approving my holding this hearing 
was the last contact that we had just prior to his death.
    The record of this hearing will remain open, as is the 
custom, for at least 1 week for written statements by the 
witnesses and the public. Federal hearings generally are not--
we hear from expert witnesses, but if anybody in the public 
does have a point of view, I really urge you to write it down, 
submit it to us, and I will personally review it and I will 
promise you that it will be part of the written record that the 
Congress will review, as well.
    Elise Campaign is my legislative assistant, and will sit 
with me here at this table. You can see her or Cindy Lemick or 
any of the others from my staff to submit testimony or find out 
how you can do it in the next week or so.
    With that, I am going to take a seat. I give the members of 
the panel the choice of sitting or standing, as they wish, and 
I will call first, with gratitude for your appearance here, on 
Dr. Fish.
    Thank you.
    [The prepared statement of Senator Lieberman follows:]
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Ladies and gentlemen, welcome and thank you for joining us here 
today at Fairfield University. I will now call to order this field 
hearing of the United States Senate Committee on Environment and Public 
Works on the subject of the West Nile virus. All of us are aware that 
earlier this fall the communities in southwestern Connecticut and 
throughout the New York area experienced an alarming outbreak of the 
West Nile virus, a mosquito-borne virus never before found in the 
western hemisphere.
    The emergence of the virus has had a major impact on nearby 
communities, generating widespread concern over the immediate health 
threat from the disease and about the health impacts of the pesticides 
that were used to respond to the disease. There was also a frustration 
that answers to the pressing questions of why the outbreak occurred and 
whether reemergence is likely were lacking. We know that several dozen 
people in New York City and its suburbs were sickened by the disease 
and seven people died. Connecticut did not experience any human cases 
of the virus; however, the disease had a visible impact on our 
wildlife, killing a number of crows and other birds. The virus has been 
found in mosquitoes and dead birds in the towns of Darien, East Haven, 
Fairfield, Greenwich, New Canaan, New Haven, Norwalk, Orange, Redding, 
Stamford, Weston, Westport and Woodbridge.
    My purpose in convening today's hearing is to continue the dialogue 
and to provide thoughtful responses to these public concerns. 
Specifically, the hearing is intended to: 1) to gather information and 
to educate the public and the government about the West Nile virus; 2) 
to take a look ``post-crisis'' and evaluate the performance of the 
government in responding to the outbreak this fall; and 3) to ask 
whether the West Nile virus is likely to reoccur in the future and what 
we need to do to prepare for or to prevent another outbreak.
    We're honored to have with us today a number of witnesses who were 
closely involved in the state and Federal response to the West Nile 
virus. Dr. Durland Fish of the Yale University School of Environment 
and Public Health will provide us with some background about the 
disease. He will also point out some areas where more research and 
training is needed to better understand and react to infectious 
diseases such as West Nile virus. Also with us is Dr. Ted Andreadis of 
the Connecticut Agricultural Experiment Station, who was on the ground 
this fall, trapping mosquitoes and testing mosquitoes and dead birds 
for the presence of the virus. Dr. Andreadis will give us an overview 
of the Experiment Station's efforts in response to the West Nile 
outbreak.
    Our third witness, Dr. Bob McLean, Director of the U.S. Geological 
Survey's National Wildlife Health Center, will describe the Center's 
research into the effects of the virus on bird populations. Dr. McLean 
previously held positions with the Centers for Disease Control and 
Prevention (CDC) and the U.S. Department of Agriculture (USDA), so he 
is uniquely positioned to address cooperative efforts among experts in 
human health and animal health. I would like to thank Dr. McLean for 
traveling from Wisconsin to be with us today.
    And finally, Deputy Commissioner Jane Stahl of the Connecticut 
Department of Environmental Protection (DEP) will describe the history 
of mosquito control in Connecticut and discuss the environmental 
impacts associated with different approaches to mosquito control.
    While I realize that we are unlikely to hear definitive answers to 
our most pressing questions about the source of the virus and the 
likelihood that it will reappear in the spring, I hope that this 
hearing will provide an opportunity to hear what has been learned about 
the disease and to get an update on what steps are being taken to learn 
more about the source of the virus and to avoid another outbreak in the 
future. As the witnesses present their testimony, I will also be 
interested in hearing what worked well and what didn't as local, state, 
and Federal agencies coordinated their response to the West Nile virus.
    To make the most efficient use of our time here this morning, I 
will ask each of the witnesses to limit his or her oral testimony to 5 
minutes. The witnesses do have an opportunity to submit comprehensive 
written testimony to be included in its entirety in the printed record 
of this hearing. The record of this hearing will remain open for 1 week 
for written statements by the witnesses and the public. Please see a 
member of my staff if you are interested in submitting a statement. I 
will personally review the submissions and see that they are included 
appropriately.

    STATEMENT OF DURLAND FISH, M.D., ASSOCIATE PROFESSOR OF 
EPIDEMIOLOGY, YALE UNIVERSITY SCHOOL OF ENVIRONMENT AND PUBLIC 
                             HEALTH

    Dr. Fish. Since I have two microphones here, I think I will 
sit here.
    Good morning. I would like to thank Senator Lieberman and 
Senator Smith for organizing this event, and, in particular, 
for their foresight in recognizing that the threat of West Nile 
virus and insect-borne diseases are as much of an environmental 
issue as they are a public health issue.
    The impact insect-borne diseases upon human health--which 
in Connecticut includes eastern equine encephalitis, Lyme 
disease, and now West Nile virus--have their origins in the 
environment.
    Mosquitoes, ticks, and other parasites that feed upon human 
blood are products of the natural environment. The biologies 
are inextricably linked to environmental conditions and 
climatic events that regulate their abundance.
    Viruses, bacteria, and other infectious agents are also 
common elements of the natural environment and have an 
important role in regulating populations in both plants and 
animals. Such agents often play an essential role in the 
balance of nature.
    Humans become accidentally involved in the natural cycle of 
environmental disease agents when they are exposed to pathogens 
either directly, with contact with infectious wildlife, as with 
rabies, or when they are bitten by a mosquito or tick that has 
previously fed on an infected animal, as with West Nile virus 
and Lyme disease.
    Humans are innocent bystanders in these environmental 
events, but the consequence of infection can be devastating, 
and even fatal. Such is the situation we are now facing with 
the threat of West Nile virus.
    The West Nile virus has been known to cause epidemics 
there, as well as in Europe, from migrating birds from Africa 
who infect the local mosquito populations. Once established in 
the local mosquitos, the virus can be transmitted.
    We were woefully ill-prepared for this epidemic of West 
Nile virus. We were not aware of an epidemic until some 40 
suspected cases filled New York City hospitals. We did not even 
know what virus was causing the epidemic until a month after 
people had already become ill and some had died. We did not 
know where the infected mosquitoes were and, consequently, 10 
million people were exposed to pesticides in an attempt to 
control the epidemic by indiscriminate aerial spray of the 
entire New York City metropolitan area, not once but twice.
    Our lack of preparedness was obvious and costly.
    These events, as shocking as they may seem to the general 
public, were actually predicted and warned by the scientific 
community. Two reports from the National Academy of Sciences 
warned of a decaying public health infrastructure, particularly 
in reference to insect-borne diseases.
    The first report, entitled, ``Manpower Needs and Career 
Opportunities in the Field Aspects of Vector Biology,'' 
published in 1983, warned of a serious manpower shortage in the 
field of vector biology, the science of studying insects that 
transmit diseases.
    This report was totally ignored by Congress and the 
responsible Federal agencies. Consequently, there are now very 
few professionals in Government or academic institutions with 
the appropriate knowledge and training to address the threat of 
insect-borne diseases.
    The second report, entitled, ``Emerging Infections: 
Microbial Threats to Health in the United States,'' published 
in 1992, warned of the potential for the introduction of 
foreign pathogens and the degradation of public health 
infrastructure to combat such introductions. This report was 
taken more seriously by Congress and some Federal agencies, but 
the response has been neither adequate nor timely, as is 
evidenced by the recent events with West Nile virus.
    Well, what can we do to prevent a recurrence of last 
summer's events and to prevent similar events from occurring in 
the future?
    In the short term, every conceivable effort must be made to 
prevent West Nile virus from re-emerging next spring. It is 
quite likely to survive the winter months, either in infected 
wildlife or within the millions of mosquitoes hibernating in 
buildings and tunnels in the New York City metropolitan area.
    Immediate efforts should be made to find and destroy any 
infected mosquitoes that may now be overwintering. Heroic 
efforts must be made next spring to find the virus in 
mosquitoes or wildlife and to focus mosquito control efforts on 
containing the virus before humans become infected. A 
preemptive strike on certain mosquito species known to be 
capable of transmitting the virus should be initiated early in 
the spring and directed at the larval stage, where 
environmental impact of insecticide usage would be minimal. 
Every conceivable effort must be made to control the virus 
transmission early enough to prevent human infection and to 
avoid the use of widespread aerial application to control an 
epidemic in humans. A repeat of last summer's response must be 
avoided at all costs.
    In the long term, we must strengthen the public health 
infrastructure to effectively and intelligently combat the 
threat of new and reemerging diseases. If West Nile virus was a 
test of our response capabilities, we have failed miserably. 
Research is needed to better understand the human threat of 
infectious diseases that originate from the environment. This 
research should be interdisciplinary and include epidemiology, 
microbiology, entomology, and, most importantly, ecology. 
Government agencies responsible for the funding of peer-
reviewed research on vector-borne diseases must be given 
increased resources to accomplish this goal. The training of a 
new breed of scientists, blind to interdisciplinary boundaries 
and comprehensively trained in both in medical and 
environmental sciences, should begin immediately in order to 
staff the increasing demand for expertise in government and 
academic institutions. Academic research institutions and 
government agencies at all levels should form working 
partnerships to integrate resources focusing upon this specific 
problem.
    Epidemics of insect-borne diseases are preventable. We have 
eliminated the threat of epidemic malaria, yellow fever, and 
bubonic plague in this country years ago, but we have left our 
guard down against the threat of new diseases, such as West 
Nile virus.
    Armed with new knowledge from academic research and the 
will of responsible government agencies to refocus and 
integrate prevention efforts, we can regain our capacity to 
combat new disease threats from the environment and look 
forward to an improved quality of life in the next millennium.
    Thank you.
    Senator Lieberman. Thanks, Dr. Fish. That was a very 
provocative beginning, and I look forward to the response of 
others on the panel.
    You did put it in historic context, introduction of a 
foreign insect-borne virus never before seen in the western 
hemisphere is a public health threat unprecedented in modern 
times.
    Is there any evidence--you said in the two reports, which 
were early warnings if we had seen them--I want to ask you two 
questions and we will go on to the other witnesses and we will 
come back and have a general discussion.
    One is: was there any evidence of human infection prior to 
this year? And then the second is: in the best of all worlds, 
what would we all have done if we had responded to those two 
reports you site?
    Dr. Fish. Well, in response to your first question, in this 
particular virus at this point we have no evidence that it has 
occurred here before last summer.
    Senator Lieberman. So this was the first appearance.
    Dr. Fish. A new introduction.
    Senator Lieberman. Right.
    Dr. Fish. But there are other similar viruses, mosquito-
borne viruses, that we know occur in this area. I mean, in the 
beginning this epidemic was thought to have been St. Louis 
encephalitis.
    Senator Lieberman. Right.
    Dr. Fish. And it could very well have been St. Louis 
encephalitis. I mean, these things are out there, and we know 
they are out there, but they kind of surprise us. Every five or 
10 years there is an epidemic. In the meantime, nobody seems to 
care about them. It is those times that support for research 
and support for surveillance just crumbles.
    Senator Lieberman. Let me go to that second question I 
asked, which is: what might we have done if we had heeded those 
reports? Is it exactly what you believe we should be doing now?
    Dr. Fish. Well, first of all, we need to keep the training 
and the research going with these agents. We know they are out 
there. We do not always know what they are up to or how much of 
a public health threat they are going to be, but we need to 
know about them.
    Senator Lieberman. Finally, what is the source of support 
for the kind of research and training that you're talking 
about?
    Dr. Fish. Primarily NIH at this point.
    Senator Lieberman. Yes. And I presume you're saying that 
there is not adequate support coming through NIH now for----
    Dr. Fish. Well, there is kind of a problem. It's kind of a 
turf war between NIH and NSF. I mean, NSF does not fund medical 
research.
    Senator Lieberman. Right.
    Dr. Fish. NIH generally does not fund ecological research. 
These kinds of problems just----
    Senator Lieberman. Fall in between.
    Dr. Fish. They fall in between.
    Senator Lieberman. Yes.
    Dr. Fish. And not only is there not emphasis on them, there 
is almost a prohibition against working in this area because of 
the division of responsibilities by these two major funding 
agencies.
    Senator Lieberman. Well, that's an important point, and, 
because of the obvious public interest and concern about this 
virus and, you know, vector-borne diseases, generally, I'd like 
to spend some time and see if there is a way in which, perhaps 
in the coming session of Congress, we might be able to create a 
visible and identifiable source of funding for that kind of 
research and training so it doesn't fall between the 
established categories.
    Dr. Andreadis--just for the record, again, Dr. Andreadis is 
the soil and water department head of the Congress Agricultural 
Experiment Station.
    Thanks for being here.

STATEMENT OF THEADORE ANDREADIS, DEPARTMENT HEAD, DEPARTMENT OF 
  SOIL AND WATER, CONNECTICUT AGRICULTURAL EXPERIMENT STATION

    Mr. Andreadis. Thank you.
    I'd like to thank Dr. Lieberman for holding----
    Senator Lieberman. That's a promotion I do not deserve. I 
am a juris doctor, now that I think about it.
    Mr. Andreadis. Thank you.
    I am here today to report to you the research and 
surveillance activities that occurred in the State of 
Connecticut during the recent West Nile virus crisis.
    I am going to focus my comments this morning on specific 
work that was done to isolate, identify, and determine the 
distribution of virus in birds and mosquitoes in the State.
    Let me begin by stating that since 1997 the State of 
Connecticut has had in effect a comprehensive mosquito 
management program to monitor mosquito populations and 
mosquito-borne diseases that are known to cause human disease, 
most notably eastern equine encephalitis.
    This program is a cooperative effort that involves three 
State agencies: the Connecticut Agricultural Experiment 
Station, which is responsible for trapping and testing 
mosquitoes; the Department of Environmental Protection, which 
is responsible for implementing all mosquito control measures; 
and the Department of Public Health, which is responsible for 
communicating health risks and protective measures to the 
public.
    Mosquito trapping in this program is conducted daily from 
June through October at 37 permanent locations throughout the 
State, and since 1997 we have trapped and tested over 150,000 
mosquitoes and detected the eastern equine encephalitis virus 
on nine occasions from six different locations. The map behind 
me shows the locations of these 37 sites.
    Now, because we had this surveillance program in place, we 
were able to respond immediately to the West Nile crisis. On 
September 4, the New York City Health Department and the 
Centers for Disease Control announced the death of an elderly 
resident of Queens from what was originally thought to be St. 
Louis encephalitis, a mosquito-transmitted virus.
    The following day, September 5, we placed mosquito traps in 
the town of Greenwich and began a supplementary mosquito 
trapping program that was eventually extended to 15 towns 
throughout lower Fairfield and New Haven Counties. This was in 
addition to our normal trapping in other areas of the State.
    The purpose of our trapping was to determine the types of 
mosquitoes in the region, to assess their relative abundance, 
and to determine if these mosquitoes were carrying the 
potentially deadly virus, and, if they were, did this represent 
a public health threat.
    Mosquito trapping was conducted over an 8-week period 
through the end of October, during which 261 traps were placed 
in 80 different locations throughout the region, and over 3,500 
mosquitoes were trapped and tested in our laboratories.
    The other map behind me shows the location of those 
trapping sites.
    Shortly after we initiated our mosquito surveillance 
program, we began to receive reports of extraordinary numbers 
of crow deaths throughout lower Fairfield County. Similar crow 
die-offs were being observed in New York City, Long Island, and 
New Jersey, as well, and suspicion was rising that perhaps 
these crows were dying from the virus.
    However, we knew this was highly unusual, since St. Louis 
encephalitis does not typically kill birds. A plan was then put 
into place to systematically collect and test dead crows. This 
effort was coordinated by the Department of Public Health, with 
assistance from local health departments and wildlife personnel 
from the Department of Environmental Protection.
    Birds were sent to the Department of Patho-Biology at the 
University of Connecticut, where necropsies were performed by 
veterinary pathologists. Brains and other tissues from crows 
that had diagnostic symptoms consistent with viral encephalitis 
were then submitted to us for virus testing. Over 300 birds 
were assessed at the University of Connecticut from 38 towns 
from October 12, and 40 were tested in our laboratories for the 
virus.
    Now, on September 21st, we obtained our first isolations of 
this virus from two species of mosquitoes, aedes vexans, which 
is a strong mammalian feeder, and culex pipiens. These 
mosquitoes were trapped on the evening of September 14 at the 
Innis-Arden Country Club in Old Greenwich, and we had an 
additional isolation from the brain of a dead crow collected in 
the town of Westport on September 13.
    This announcement was made by Governor Rowland, who 
subsequently directed the Department of Environmental 
Protection to initiate limited ground spraying of insecticides 
against adult mosquitoes in the affected regions, only.
    The isolation of the virus from adult mosquitoes and the 
brain of a domestic crow was a critical step in the eventual 
identification of this virus. Despite the increasing number of 
human cases that were being reported in New York City, the CDC 
had yet to obtain an actual isolation of the living virus from 
a human. We believe our isolations from mosquitoes and a 
domestic crow were the first in the area.
    Following our announcement, we were immediately contacted 
by the Center for Disease Control, who requested that we submit 
our isolations to them. We complied on September 23. The 
following day, the CDC announced that the virus was not St. 
Louis encephalitis, but was a West Nile-like. Two days later, 
they informed us that the viruses that we had isolated from 
mosquitoes and the brain of this crow were identical.
    We then proceeded to obtain specific re-agents to test for 
the West Nile virus an initiated molecular studies to sequence 
a portion of the genome of the virus, with the intent of 
definitively identifying this virus, determining its possible 
origin, and assessing its virulence for birds and humans.
    Early information, which appeared in the British journal, 
``Lancet,'' on October 9, from studies conducted at the 
University of California at Irvine, had indicated that this 
virus was Kungin/West-Nile-like, which occurs in Australia; 
however, their analysis was incomplete, and our genetic 
analysis showed a much closer relationship to West Nile virus 
that has been isolated from mosquitoes and humans during a 
recent outbreak in 1996 in Romania, thus suggesting a common 
origin.
    The results of our investigations are due to be published 
in the ``Journal of Science'' later this week.
    Bird testing continued through mid-October, and, of the 40 
birds that we tested, 29 were found to be positive for the West 
Nile virus. This included 28 American crows and one Cooper's 
Hawk that were collected from 18 towns in lower Fairfield and 
New Haven Counties along a 62-mile corridor from Greenwich to 
Madison. This is shown, again, on the map behind me. No virus 
isolations were made from additional crows and a Canadian goose 
that were collected from Hartford County.
    Our isolations of the West Nile virus from birds and 
mosquitoes conclusively documented the presence of this virus 
in Connecticut during September and October 1999, and virus 
activity appeared, based on crow die-offs, to be limited to 
lower Fairfield and New Haven Counties.
    All of the work that I have described to you this morning 
was accomplished in State with no assistance from the Center 
for Disease Control or any other Federal agency. Our timely, 
coordinated response in trapping and testing mosquitoes and 
birds provided indispensable data that was effectively used to 
inform and protect the public. Fortunately, no human cases were 
reported in this State.
    The high mortality in crows and other bird species in the 
region suggests a recent introduction of the West Nile virus 
into a naive wildlife population that has never been exposed to 
this virus. The isolation of West Nile virus from a variety of 
native birds, which are likely capable of circulating this 
virus at relatively high titers over a broad geographic region, 
further suggests that this exotic virus is likely to become 
established permanently in the avian fauna of the United 
States.
    How the virus will behave is unknown, but if established in 
North America, West Nile virus likely will continue to have 
severe effects on human health, horses, and on avian 
populations such as American crows and raptors. The 
environmental, social, and economic implications of permanent 
establishment of this exotic virus are considerable.
    While many important questions need to be investigated, 
among the most urgent include: will the virus persist in this 
region? How widespread will it become? What impact will the 
virus have on native bird and horse populations? How will the 
virus affect humans? How will the virus overwinter? How will we 
monitor virus activity to protect the public? What birds will 
serve as natural reservoirs? And what mosquito species will 
serve as competent vectors?
    Additional resources and funding are urgently needed to 
address these and other research questions. This will lead to a 
better understanding of the natural ecology and epidemiology of 
this new exotic virus in North America. This information will 
provide critical fundamental knowledge that is presently 
unknown. This will be an essential component for developing 
effective virus surveillance, disease management, and mosquito 
control strategies throughout the region.
    The information obtained in these studies will further aid 
in assessing the relative risk of the West Nile virus to human 
health and help to determine its impact on wildlife and 
domestic animals.
    We would further anticipate that increasing our knowledge 
in the aforementioned areas will reduce--I repeat, reduce--the 
need for application of toxic chemical insecticides.
    We are at a very critical juncture, and we stand ready to 
act. We have the expertise and the laboratory facilities to 
undertake these investigations. We have initiated studies on 
overwintering mosquitoes and wild bird populations, and, with 
additional funding, we can increase our mosquito surveillance 
program, continue our basic research on bird populations, and 
continue molecular studies to develop a rapid procedure for 
identification of this virus.
    Thank you.
    Senator Lieberman. Thanks, Dr. Andreadis. Very interesting, 
helpful testimony.
    I congratulate you and your colleagues on the fact that 
your work in this area is resulting in an article that will be 
published in the very respected ``Journal of Science.''
    I am fascinated by the conclusion you reached that this 
West Nile virus is similar to a strain of virus found in 
Romania, and I am just curious as to if you'd help us 
understand what conclusions we might draw from that. Does this 
mean that the virus that we saw here in the greater New York 
area and southwestern Connecticut was somehow brought from 
Romania, or is it just a coincidence that there are similar 
strains of a virus?
    Mr. Andreadis. We cannot conclude that this virus came from 
Romania. In fact, the Center for Disease Control and 
laboratories at Irvine, California, have also identified the 
virus and found a very close match with an isolate that was 
made from a dead goose in Israel.
    Our two papers are consistent with one another and suggest 
that the virus that we have here in the northeast United States 
probably had its origin from the Mediterranean region.
    Now, we do not know how the virus was introduced. I think 
the highest likelihood that it was probably brought in with an 
infected bird; however, we cannot rule out an infected mosquito 
or an infected human. We simply do not know, and we may not 
ever know.
    But I think the evidence that has accumulated from various 
laboratories that have worked on this would suggest a recent 
origin of the virus.
    This virus is very widespread, and there are over 40 
different strains that have been identified. It occurs in Asia. 
It occurs in Europe, as Dr. Fisher has indicated, and 
throughout Africa. It is probably the most widespread of these 
types of viruses anywhere in the world.
    Senator Lieberman. And, of course, one of the things, just 
to state for the record--and I'd invite a response if you 
want--we are traveling so much, people are traveling so much, 
goods are traveling so much that presumably it is not just 
insects or birds that will carry viruses, but that people or 
planes, for instance, will carry them. And so it is--I presume 
you said that it might have been brought here, this virus might 
have been brought here by a bird. Does that mean a bird really 
flying on its own.
    Mr. Andreadis. It could have been.
    Senator Lieberman. Yes.
    Mr. Andreadis. Probably not a bird that flew on its own; a 
bird that was accidentally brought in.
    Senator Lieberman. Brought in. Right.
    Mr. Andreadis. Right.
    Senator Lieberman. Or that something brought in might have 
had a mosquito, or a person might have----
    Mr. Andreadis. That's also another possibility. Yes.
    Senator Lieberman. Yes. I wonder, just to put it in 
context, whether you want to react to Dr. Fisher's statement 
that this is a public health threat unprecedented in modern 
times and may be reminiscent of the introduction of Yellow 
Fever, or even Bubonic Plague in past centuries.
    Mr. Andreadis. Well, I would reiterate what I said before--
that we do not know how this virus is going to behave.
    Senator Lieberman. Yes.
    Mr. Andreadis. Outbreaks that periodically occur in Europe 
are introduced with migrating birds that come up from North 
Africa. When a virus is then introduced into a region of 
Europe, you can have human cases, an outbreak that may last a 
couple of years, and then they disappear and then recur several 
years later.
    But we simply do not know how the virus is going to 
respond.
    Senator Lieberman. OK.
    Mr. Andreadis. That's why it is so important to have a 
really comprehensive surveillance program in effect to detect 
the virus early on.
    Senator Lieberman. Just take a moment, and then I want to 
go on to Dr. McLean. What do you mean by a comprehensive 
surveillance program?
    Mr. Andreadis. We need a comprehensive surveillance program 
that includes trapping and testing of mosquitoes----
    Senator Lieberman. Right.
    Mr. Andreadis.--and monitoring bird populations throughout 
the region so that we can detect the virus in either mosquitoes 
and/or birds early enough to provide warning.
    Senator Lieberman. Right.
    Mr. Andreadis. And so appropriate measures can be taken to 
protect the public.
    Senator Lieberman. Now, you and your colleagues at the 
Experiment Station do that. Who else might be involved in that?
    Mr. Andreadis. Well, in the State of Connecticut, there are 
three agencies involved--the Department of Environmental 
Protection, the Department of Public Health, our agency, and 
then the University of Connecticut is also assisting with the 
bird work. In fact, we met yesterday in a 1-day session to 
formulate plans for increasing our surveillance over the next 
year.
    Senator Lieberman. And do you have adequate funding for 
that?
    Mr. Andreadis. No, we do not, presently. We are putting 
together a package that we would present, and hopefully that 
would be approved.
    Senator Lieberman. OK. I saw Representative Nopsham, and 
there must be other members of the State Legislature, so you're 
putting them on notice.
    Are there Federal agencies involved, as well, in the 
surveillance program?
    Mr. Andreadis. Not in the State of Connecticut. No. We have 
been pretty much doing all of this ourselves, in concert with 
CDC. We're in communications with them. This is generally 
through our Department of Public Health.
    Senator Lieberman. Right. You made an interesting point, 
just for the record, that there is an active kind of mosquito 
surveillance monitoring program in the State that results from 
an earlier outbreak, but not of the West Nile virus.
    Mr. Andreadis. Right. The impetus for the development of 
the program that we now have in place occurred in 1996.
    Senator Lieberman. Right.
    Mr. Andreadis. We had a real scare, where we were finding 
large numbers of mosquitoes carrying the eastern equine 
encephalitis virus, which is far more virulent than the West 
Nile virus.
    Senator Lieberman. Yes.
    Mr. Andreadis. That was over in the southeastern corner of 
the State. And, because of our finding, the Legislature and the 
Governor did provide funding for us to develop this program.
    Without this program in place, we could not have responded 
in the manner that we did, so that----
    Senator Lieberman. As quickly or as fully as you did.
    Mr. Andreadis.--was really critical. Correct.
    Senator Lieberman. OK. Great. Thanks.
    Now we go to Dr. McLean. Again, thanks so much for coming 
from Wisconsin, director of the U.S. Geological Survey's 
National Wildlife Health Center.
    Good morning.

STATEMENT OF ROBERT MC LEAN, DIRECTOR, UNITED STATES GEOLOGICAL 
            SURVEY'S NATIONAL WILDLIFE HEALTH CENTER

    Mr. McLean. Good morning.
    Thank you, Senator Lieberman, for inviting me to 
participate in this hearing.
    I request permission to attach my written testimony with 
some attachments, some background information on National 
Wildlife health alerts we disseminated during the outbreak and 
some information we provided to keep the public informed of 
what we were doing.
    Senator Lieberman. Thank you. That will be included in the 
record without objection.
    Mr. McLean. I will summarize my testimony to provide 
information on the involvement of wildlife species and the 
impact of wildlife populations related to the emergence of West 
Nile virus in the United States.
    As you mentioned, I am the director of the USGS National 
Wildlife Health Center in Madison, Wisconsin, and our center 
provides direct technical support, knowledgeable guidance, and 
timely intervention to Federal and State wildlife managers who 
are regularly faced with sick and dead wild animals, frequently 
on a large scale.
    Due to the mobility of wildlife and the potential spread of 
disease, timely and accurate determination of the causes of 
wildlife illness and death is a prerequisite to achieving the 
effective disease control and prevention.
    The expertise and resources of our disease diagnostic 
laboratory are crucial in providing this rapid response to 
wildlife mortality events, and it was due to this national 
diagnostic wildlife system that we had in place that we became 
early involved in this epidemic in receiving dead crows from 
New York State during the first week in September.
    Other people have mentioned the background information on 
the virus. I will present a little bit of that, go over it very 
briefly.
    As mentioned, it is a mosquito-transmitted virus, very 
closely related to St. Louis encephalitis that occurs regularly 
in the United States. It was first isolated in Africa and 
Uganda in 1937, so it is a long history of this virus, and 
until recently it was only found in Africa, the Middle East, 
Europe, and Western Asia. Human epidemics were first reported 
in Israel in the 1950's, and later in Africa, Europe, and Asia. 
The latest epidemic there occurred in southern Russia this 
summer in 1999.
    This virus infects a wide variety of vertebrate animals, 
and birds are the primary host. Resident and migratory bird 
species are involved in the natural transmission cycles.
    West Nile virus seems to cause none or mild disease in 
birds in Africa and Israel, and there was one exception, an 
experimental infection study where there was high fatality in 
crows and house sparrows.
    The virus that occurs in the United States, St. Louis 
encephalitis, causes little or no disease in animals; 
therefore, the high mortality that was observed in crows with 
this introduced virus was very unusual, and this suggests that 
it was a higher virulence for our naive native species or this 
was a much more virulent and deadly strain of virus for our 
native birds.
    To give a little bit of the current status of the virus as 
we know it, obviously, human cases occurred only in New York 
City area, with one exception of a case that was exported to 
Canada. Infected mosquitoes were found in New York, New Jersey, 
and Connecticut, and virus-infected birds were found in New 
York, New Jersey, Connecticut, and Maryland. All but a few of 
these positive birds were found within about a 50-mile radius 
of New York City.
    Some exceptions of that were one bird found 100 miles north 
in New York and a bird found positive in Baltimore, Maryland. 
This was an American crow we found dead in Baltimore. This crow 
certainly extends the infection area much farther south in 
U.S., about 250 miles south to Baltimore.
    Senator Lieberman. Doctor, can I interrupt you--just a 
curiosity. What conclusions can we draw about the location of 
that crow, infected crow in the Baltimore area? Can we assume 
that it flew from the New York area, or that there is a 
separate occurrence of the virus, or neither?
    Mr. McLean. That's what we're trying to investigate. we are 
doing surveillance in the Maryland area, intensive surveillance 
with the State, and both possibilities exist. Certainly, crows 
could fly south that far. There are migratory portions of the 
crow population.
    The other question is if it picked it up locally from 
mosquitoes, and that's one of the surveillance questions that 
is continuing at this time.
    Senator Lieberman. OK. Thanks.
    Mr. McLean. All the birds tested for West Nile virus coming 
from at least three of the States--as Connecticut mentioned, 
they tested their own. CDC tested 392 birds, and 192 of those 
were positive for West Nile virus. There were at least 18 
species of birds positive, including some exotic and native 
birds in zoos, and there also was one mammal positive, a cat in 
New Jersey.
    The National Wildlife Health Center conducted extensive 
field investigation for 3 weeks in New York and New Jersey 
during October and sampled more than 1,000 birds of 70 species 
at 21 sites, and their laboratory results of these are still 
pending.
    At the same time, we established surveillance of bird 
mortality in a multi-State, mid-Atlantic region, and have and 
continue to receive wildlife specimens for necropsy and testing 
at our center.
    We recently broadened this wildlife surveillance using crow 
mortality as an indicator of virus presence by expanding 
collaboration with Center for Disease Control and State 
agencies in 20 eastern States. The Center also established 
further surveillance efforts with USDA to sample bird 
populations in Atlantic and Gulf Coast States for early 
detection of any virus expansion farther south.
    This combined, cooperative effort of three Federal agencies 
I think was unique in this investigation and was facilitated by 
USGS.
    The question was addressed earlier: how, when, and where 
was this virus introduced? Certainly, importation, either 
legally or illegally, of infected animals, whether they were 
birds or domestic animals, which is a possibility, as well; 
humans or mosquitoes, which could hitch a ride on an airplane 
or in cargo are some of the possibilities.
    It has been mentioned that migratory birds could have 
introduced it by flying to this country. That's very unlikely, 
and I will mention the reason why.
    The normal infectious period in an animal is very short--
four to 5 days at the most are they infectious for mosquitoes. 
Because of that, the very rapid transport of this animal would 
be necessary to be able to get the animal here within that 
short period of time.
    There is one exception to that--if there are latent 
infections followed by a relapse in animals. If that occurs, 
that could extend the time.
    There are efforts underway using molecular techniques that 
could also provide some clues as to where this virus came from 
by comparing the isolate in New York to isolates obtained in 
other countries, as previously mentioned.
    CDC did report that the virus is very closely almost 
identical to an isolate from Israel, and I would agree that 
certainly the Middle East and that area is a likely source of 
this virus.
    Senator Lieberman. I assume it got its name for that 
geographic region.
    Mr. McLean. Yes. From West Nile region in Uganda.
    Senator Lieberman. Yes.
    Mr. McLean. It is part of the West Nile River system.
    Senator Lieberman. Right.
    Mr. McLean. There are also efforts underway to determine 
when and where it was introduced. If we assume it was 
introduced this year, you know, how do we know it wasn't here 
previously?
    Senator Lieberman. Thank you very much for your testimony, 
Dr. McLean.
    Now may we hear from Ms. Jane Stahl, Deputy Commissioner of 
the Connecticut Department of Environmental Protection.
    Ms. Stahl?

   STATEMENT OF JANE STAHL, DEPUTY COMMISSIONER, CONNECTICUT 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Good morning. My name is Jane Stahl and I am the Deputy 
Commissioner of Environmental Protection here in Connecticut. 
I'd like to thank the committee for this opportunity to discuss 
the State's mosquito management program wand its interest in 
this issue.
    Mosquitoes are not our enemies. We need to be protective of 
both our insect population, our bird population, as well as our 
human population, as we study this disease and similar diseases 
and move forward in our approaches to preventing human disease 
that is related to them.
    The cycle is, as we heard, very complex. We have mosquitoes 
biting birds, building up reservoirs of diseases, being fed on 
by more mosquitoes, and maybe transmitting disease to a human.
    My final theme, and then I will go to my written testimony, 
is that, because that cycle is so complex, I believe it is 
still fair to say that the risk of disease to humans is low. 
That's not to say that we can ignore it. We cannot afford to 
ignore it. We cannot afford to not be concerned and not go 
forward with the specific kinds of study and protective 
measures and programs that have been talked about here, but I 
also do not want people leaving the room thinking that we are 
in a crisis mode. A concern mode, absolutely. A better-informed 
mode, absolutely. But I think that, you know, we need to keep 
that in perspective, and that perspective also helps us guide 
our response so that it can be measured and that we are not, my 
final theme, responding to politics as opposed to scientific 
information and expert measures.
    I have gone way up to the yellow light already and haven't 
even gotten to my testimony.
    Let me just hit the highlights, then, which is to say that 
mosquito management, when it began in Connecticut, began with 
the ditching and the filling of our wetlands. What we now know 
as some of our most-valuable ecological areas, the areas that 
we protect as nurseries to the fish and wildlife that we seek 
to maintain, were the areas that we sought to destroy in our 
efforts to manage our mosquito populations.
    Well into really modern days, when the Department of Health 
here in Connecticut took over the mosquito management program--
and it was, even then, a response to disease threat--we were 
destroying wetlands in order to prevent the spread of mosquito-
borne disease.
    We have gotten way smarter. We have learned that wetlands 
and wetlands restoration is, in fact, one of the greatest tools 
that we have in managing mosquito populations. Some of the best 
enemies of mosquitoes and larvae are those healthy fish 
nurseries and bird populations that look to the wetlands for 
their homes and their breeding grounds.
    So we have learned a lot and we have changed our approach.
    Senator Lieberman. I had the opportunity, as I think you 
know, to visit a site at Hemanas, in which it is very 
interesting, actually, that we are trying to turn around 
something we did earlier with wetlands we filled in. We now 
have a program--some of folks here are overseeing it--which is 
basically liberating the wetlands by removing the fill that was 
put in, and it is quite remarkable to see the natural process 
of mosquito control being restored--and, of course, all the 
other positive effects of those wetlands.
    Ms. Stahl. Absolutely. And we will take you on as many site 
visits as you like, because we have wonderful examples of it 
throughout the State.
    And it is, in fact, an interesting twist of fate that 
allowed Connecticut to have the first dedicated wetlands 
restoration program, and that was the demise of the mosquito 
management program in the Department of Health. It was a 
budgetary matter back in the early 1980's, but the mosquito 
management program had evolved to the State where it was 
employing what we now call ``integrated pest management'' and 
wetland restoration techniques as our best vehicles for 
mosquito control.
    It was also the existence of that expertise that allowed 
us, as Dr. Andreadis said, to respond forcefully in 1996 when 
we had a--I will use little quotation marks here--a ``crisis'' 
in the realm of eastern equine encephalitis showing up in 
human-biting mosquitoes and the need to react to those 
findings. So we had a skeleton of a program in place. We had 
Dr. Andreadis' expertise at the Connecticut Agricultural 
Experiment Station. We had our experts in the Department of 
Public Health helping us evaluate the risk. And we had the 
formal mosquito management program, now the DEP wetland 
restoration program, able to mobilize to go out and do some 
local focused spraying for mosquito control, knocking the adult 
mosquitoes down.
    It was that emergency response that led to the development 
of Connecticut's program, where we sat back and we said--my 
folks have heard me use this term far too often recently. We 
tried to design everything from the Volkswagen to the Cadillac 
of mosquito management programs, and then light upon something 
that would be, in fact, a functional vehicle--maybe a Chevy, 
maybe a Ford.
    But what we ended up with was this cooperative, statewide 
approach, again, geared toward eastern equine encephalitis, 
that gave us our comprehensive testing and trapping program, 
our proactive placement of larvacide in the off season, and our 
ability to respond with ground spraying should test results 
prove positive.
    We developed an emergency contingency plan for eastern 
equine encephalitis that gave us levels of response, depending 
on the results of the trapping and testing that we were 
pursuing through the season.
    It was because we had that program in place, as Dr. 
Andreadis said, that we were able to respond quickly, 
remobilize some traps, and conduct some very area-specific 
testing when the word came to us that we had this new disease 
or potentially a new disease emerging in this area of the State 
and Fairfield County.
    And it was also having that program in place that allowed 
us to respond in a measured approach with very localized, focal 
ground spraying of a low-toxicity pesticide, because, again, we 
are very concerned about the collateral damage that could ensue 
from broader, more widespread pesticide application.
    Among the things that was very successful in this last 
season was daily communication with all of our municipalities 
involved. We had conference calls with the chief elected 
officials and local health directors in all of the towns in 
Fairfield, southwestern Connecticut, Fairfield County area, 
that were involved in this situation.
    Because we communicated with them, we were able to get the 
word out through them to the public as to the personal 
protective measures, the measures, the methodologies that they 
could undertake on a municipal level, and to get the word out 
as to what the State efforts were.
    It helped us, as I mentioned earlier, guard against a more 
political response, if you will. By staying together and 
keeping our experts on the phone with municipal leaders, we 
were able to guard against a more emotional reaction and to 
undertake a more measured response.
    Those are, in fact, the kinds of elements that we need to 
continue to undertake as we look toward how to address West 
Nile or West-Nile-like virus into these coming seasons. We 
cannot treat this as if it were a fluke, that it's not going to 
happen again. We have to go in assuming that we are going to be 
confronting this same situation again.
    We also cannot forget the fact that we do continue to have 
an issue with eastern equine encephalitis in the other half of 
our State--and, again, as was stated earlier, a much more 
virulent virus and one that, when it occurs in humans, is 
fatal.
    We have a lot of plates to keep on those sticks revolving 
in the air. I think we are well poised to do that. We begin--we 
have already begun. We continue today, and we will continue 
throughout the season.
    One of the challenges that we need to address--and I state 
it here--is that we are dealing with a type of mosquito 
transmitting a disease that is less focal or localized than are 
the mosquito species that we were dealing with with eastern 
equine encephalitis, and that means that we need to change our 
protocol a little bit. But, because the protocol has worked so 
well, we are not going to disband it. We are not going to 
broaden it so much that we lose the benefits of a responsive, 
responsible program.
    Why do not I stop here and allow the questions to take us 
where we want to go.
    Senator Lieberman. Thanks very much, Commissioner Stahl.
    Ms. Stahl. Thank you.
    Senator Lieberman. That was very helpful testimony. I 
appreciate it very much.
    Let me ask a few informational questions for me and others 
here and for the record, and then talk again about what we can 
now do as we go to the future.
    I was interested in the assessment of how we should react 
to this, and ask if any of the other members of the panel, 
particularly Dr. Fish, want to--in other words, we do not want 
to panic, obviously, but, in terms of the impact of this West 
Nile virus on people, you have said that the eastern equine 
virus actually is more virulent, by our experience. On the 
other hand, we do know that apparently seven--the deaths of 
seven people in the New York area were attributable to the 
virus.
    So how seriously should we take this? Dr. Fish, do you want 
to start?
    Dr. Fish. Well, being that we do not have any experience 
with this virus in the western hemisphere before, it is really 
hard to predict what the total range of possibilities might be.
    I think we should be prepared for the worst. We cannot 
afford not to be prepared for the worst. And I think many 
people--most people, I think, believe that this virus is not 
going to go away. We are going to have it in some form.
    So I think it is important to take a preemptive strike----
    Senator Lieberman. Right.
    Dr. Fish.--to control this virus and do everything we can 
this spring. In fact, there are things that we should be doing 
now. I mean, if it is overwintering in the mosquitoes, someone 
should be looking for them and doing something about it and 
trying to control some of the overwintering mosquitoes.
    Senator Lieberman. Hold that thought a minute, because I 
definitely want to come back to that.
    Anybody else want to add a perspective on--this is new, and 
it was frightening to a lot of people. No one is saying, I 
know, that we should not be concerned about it. The question is 
the level of concern. Does anyone else want to respond to that?
    Mr. McLean. Yes, I'd like to respond. I think, since we 
are--not only wildlife but the human population is naive to 
this, that if the virus does persist it could go to other 
metropolitan areas where we could have similar experiences in 
the future, and so I agree with Dr. Fish that we should be very 
vigilant, at least from the public health standpoint.
    Being from a wildlife center, we are very concerned because 
it is killing a lot of our native birds, and so we want to be 
vigilant, ourselves, to be on the alert to whether this could 
be a significant impact on bird population.
    Senator Lieberman. Sure. That's a good point.
    Mr. McLean. And it could very well be.
    Let me go to a different kind of question.
    Many of us have been concerned about the impact of weather, 
specifically, and the whole question of global climate change. 
I am interested in knowing what effect you think weather 
conditions might have had on the outbreak of West Nile virus. 
Is there a need for better weather prediction, for instance, to 
help monitor for conditions that are conducive to mosquito-
borne disease?
    Just to throw into it before I give you a chance to 
respond, I was struck, looking over--for another reason, 
recently. The report of the Intergovernmental Panel on Climate 
Change issued a 1995--this is the international group of more 
than 2,000 scientists who reached the critical conclusion that 
the planet was warming and that it is probable that it is human 
activity that is warming it.
    There is a sentence that says, ``Indirect effects of 
climate change include increases in the potential transmission 
of vector-borne infectious diseases, for instance, malaria, 
yellow fever, and some viral encephalitis, resulting from 
extensions of the geographical range and season for vector 
organisms.''
    In other words, I read it to mean that as certain parts of 
the planet and of this country get warmer, that diseases we 
haven't known here will come into the area.
    I do not want to ask you to sort of express your 
conclusions, particularly, certainly not at length about 
whether climate change is real, but to what extent are we in a 
position now to say that weather had an effect on this outbreak 
of West Nile virus?
    Dr. Fish. It depends on whether you're talking about 
weather short-term or long term.
    Senator Lieberman. Take a stab at both.
    Dr. Fish. Both. OK. Well, my specialty area of research is 
in ecology of vectors, of disease vectors. I have done it for 
about 30 years. And I have seen this report, and I have seen 
many statements concerning the impact that global warming might 
have upon insect-borne diseases.
    I, myself, am of the opinion that we know so little about 
how the environment influences these diseases and mosquito 
populations or the vector populations that we really cannot 
make those kinds of predictions.
    Certainly, these disease systems, the vector populations 
and the virus circulation, are dependent upon climatic events, 
I mean, in the short term. Over the long term, you know, it is 
anybody's guess.
    It's a nice story, but I wish there were some fact behind 
it.
    I mean, global warming probably will be good for Lyme 
disease, because these ticks are cold-adaptive ticks. They like 
northern climates.
    Senator Lieberman. Right. It will have different effects on 
different species.
    Dr. Fish. Sure.
    Senator Lieberman. And in different places.
    Dr. Fish. I think it is hard to make a global conclusion 
from that.
    On the short term, certainly there seems to be pretty good 
evidence that this summer's drought had some influence on the 
populations of this culex pipiens mosquito, which likes 
polluted water, small containers of water that have high 
organic material in them. They do well, they do best in that 
kind of situation, and when you have a lot of rain that tends 
to dilute the organic material and washes some of these 
structures out.
    So I think that might have been important, but, of course, 
we do not really have good monitoring system in the New York 
City area to go back and find out how many mosquitoes there 
were in June and July and August.
    But that's a reasonable scenario, so the weather may have 
had an influence, and if we have steady rains next summer we 
may have unnaturally low culex pipiens population and the virus 
may have a harder time getting started in the birds. Those 
things can happen.
    Senator Lieberman. Any other responses to the question?
    Mr. Andreadis. Well, I would agree with everything that Dr. 
Fish has said. I think a more important issue is the global 
movement of organisms, and I think this is a greater threat 
than global warming to the introduction of an exotic virus or 
new disease.
    I think that is a major concern, and that perhaps we need 
better quarantine facilities to examine the movement of animals 
or other carriers of disease.
    We have a global economy. We have global movement. You can 
be in Europe today and in Asia tomorrow, and I think this is 
more important.
    Another example--we have a newly introduced mosquito called 
ades japanicus that we have discovered is present throughout 
Connecticut. Its origin is somewhere in Asia, probably Japan or 
China, and it is not present throughout the State. Our best 
guess is that it was introduced with used tires imported into 
the region. It has also been detected in New Jersey, New York, 
and in Ohio now.
    So we have another mosquito here that is a human biter that 
is a potential vector for disease. It's another instance of an 
accidental introduction.
    Senator Lieberman. We do not know that it is carrying a 
disease yet.
    Mr. Andreadis. No, we do not know.
    Senator Lieberman. But it is a new species.
    Mr. Andreadis. It is a new species here in the region.
    Senator Lieberman. Dr. McLean, do you want to----
    Mr. McLean. Yes. I agree with both of the previous 
speakers. There is no question that weather in the short term 
can affect the extent and breadth of an epidemic. For example, 
if you have a warmer season or fall season that allowed virus 
transmission by mosquitoes to continue longer, which increases 
the risk--and that certainly occurred this past summer. The 
drought, as Durland mentioned, contributed probably to it. But 
then in this area you have a longer fall season, which allowed 
it to amplify more in the bird and mosquito cycle, which then 
had more spill-over to the human cycle.
    Also, I think the introduction of exotic species is a very 
important consideration. We're studying a parasite that is 
killing thousands of birds in Wisconsin, and we're not sure how 
this parasite was introduced from Europe somehow--either came 
in a snail or some other way. And so there are introductions 
that we do not think about--ticks being brought in on animals 
and get established. So there are a lot of other methods of 
introduction that we have to be more vigilant about, I believe.
    Senator Lieberman. As you remember, when the outbreak 
occurred there were some stories about the possibility that 
this might be bioterrorism. I take it that the prevailing 
expert opinion that I heard after those stories occurred is 
shared by the panel, which is that there is no evidence to lead 
you to conclude that this was bioterrorism. Am I correct?
    [No response.]
    Senator Lieberman. Let me ask, then, a question that's 
somewhat related, which is that, once those fears were 
eliminated, people began to ask: did the response to this 
outbreak of West Nile virus reveal for us any vulnerabilities, 
any weaknesses in our detection and response system in the case 
of bioterrorism.
    So I do not--I welcome some comment on it, but what I 
really want to transition to now is your evaluation of--and you 
have touched on this, each of you, as you have gone along with 
your testimony--about how we responded, how the governmental 
agencies responded, and particularly what better could be done.
    I know that CDC originally misidentified the West Nile 
virus as St. Louis encephalitis. I also understand--I have 
learned enough to know that these are not dramatically 
different, so that it was understandable that that might 
happen. And it went some period of weeks, I guess, before this 
was correctly identified.
    I am curious as to whether the initial misidentification 
had any consequences, and, just generally, to give you an 
opportunity now to reflect on how the agencies that you are 
involved in work together and whether there is a need, for 
instance, for the Federal Government, since I am here as a 
member of the U.S. Senate, to assert a more active role in 
coordinating response to a disease crisis of this kind.
    Commissioner, why do not you start?
    Ms. Stahl. Let me take a crack, because of course I am 
going to tell you that we reacted appropriately, heroically, 
brilliantly, much of which I do believe is true. Again, I think 
that, you know, in answer to--the short answer to the question 
was the misidentification or the later identification of what 
we thought was St. Louis as West Nile, that did not make a 
difference in Connecticut's case in our response. I think it 
later allowed us to ask a different series of questions as we 
went forward in our response, but as soon as we had a disease 
in human-biting mosquitoes that was causing a health risk to 
humans we established the process that we ensued, which was, 
again, to relocate traps that we had and conduct additional 
testing.
    Then, when we had the--in kind of the evolution, both in 
finding that it was, in fact, West Nile or West-Nile-like 
virus, and in making the correlation with the crow deaths that 
we were seeing, we began to broaden our response on terms of 
the trapping, the testing, our collection of birds to better 
evaluate the system or the situation that we were, in fact, 
responding to. But, again, I think the protocol was basically 
the same, regardless of the identification of the specific 
virus.
    Again, I need to emphasize the fact that a coordinated 
response within the State was one of the keys to what I believe 
was our success. Could we have done more, better? Of course. I 
mean, these are always learning experiences. Is there a method 
or a message for sister agencies in other States or for the 
Federal Government? I think yes. I think it would have been 
useful to have better coordinated information coming into the 
State from the CDC. I think their focus initially was--and, 
again, they, too, were evolving a response.
    Senator Lieberman. Right.
    Ms. Stahl. But, you know, CDC responding to the New York 
situation, trickling out to the other States, and then leaving 
it for us to more actively get involved was something that I 
think will change in future endeavors.
    Senator Lieberman. How should it change?
    Ms. Stahl. I think there needs to be a recognition of the 
region of response, as opposed to the specific area of 
response.
    Senator Lieberman. Yes.
    Ms. Stahl. I think we also need to be aware of the various 
entities in any given State that are involved in mosquito 
management, mosquito-borne disease, and the responses.
    So, for example, in Connecticut it is a matter of talking 
to and dealing with three or four different entities, all of 
whom are very good at coordinating within and among ourselves, 
but if CDC is only used to speaking to departments of health, 
we lose a quick, on-time, on-point opportunity to communicate.
    I think we resolved that as the situation wore on this 
season, but, again, it is a lesson to have learned.
    Senator Lieberman. Is CDC the right Federal agency to be 
involved here? I mean, is there a--just keeping the 
bioterrorism threat in the background, understanding that the 
appearance of such--God forbid it ever happen--would have 
somewhat similar signs, but potentially could spread more 
rapidly and more virulently.
    Did we learn anything from this experience with this virus 
and other vector-borne diseases that suggest some more active--
was something going on that the public may not know about?
    Dr. Andreadis, did you want to----
    Mr. Andreadis. I was just going to comment that the 
immediate needs--I mean, within the State we have the ability 
to extend our surveillance trap, test mosquitoes, test birds. I 
think what we're looking for from the Federal Government, in 
addition to research dollars, would be the appropriate 
agencies--and this may be the Center for Disease Control--
providing us with the technology and appropriate re-agents so 
that we can do all of our own testing so that we can implement 
our programs.
    The great advantage that the Center for Disease Control has 
and the Federal Government is they have a larger source of 
resources available to them with all of these various reagents, 
and we would look to them in the immediate year to provide us 
with these re-agents so that we can do the work here within the 
States, ourselves, and not burden them.
    Senator Lieberman. Dr. Fish, did you have a thought on 
that?
    Dr. Fish. Yes. Connecticut is in pretty good shape. I mean, 
they did a commendable job in combatting this threat because 
they were prepared. My concern is New York City.
    Senator Lieberman. Yes.
    Dr. Fish. If this virus maintains itself through the winter 
and it reappears next spring, it is going to happen in New York 
City, just because of the nature of these mosquitoes, these 
urban mosquitoes that transmit it. And New York City is the 
least prepared to do anything about these kinds of situations.
    Senator Lieberman. Focus on that. If you were the king, 
what would you have New York City doing? Or just if you were 
mayor of New York.
    Dr. Fish. Well, at this point I am not aware of a plan, of 
even a plan, a time-delineated plan of what is going to be done 
between now and next summer.
    Senator Lieberman. Because you'd say we have to all act on 
the assumption that there will be a recurrence.
    Dr. Fish. We have to.
    Senator Lieberman. You have the expertise. I assume that 
you all believe that this virus will stay alive through the 
winter.
    Dr. Fish. We cannot afford not to think that.
    Senator Lieberman. It would be a great surprise if that did 
not happen.
    Dr. Fish. That would be great.
    Senator Lieberman. Yes.
    Dr. Fish. Everyone would be quite content.
    Senator Lieberman. But it would be a surprise.
    Dr. Fish. Yes.
    Senator Lieberman. It is not what should be expected.
    Dr. Fish. We need to be prepared, and there are things that 
need to be done now. As I said before, if this virus is 
overwintering, it is most likely overwintering in the mosquito 
population. These mosquitoes overwinter in the adult stage. 
They can be found in tunnels and basements in urban areas. And 
every effort really must be made to find these mosquitoes, find 
out where the infected ones are, and try to control them in 
some way.
    Senator Lieberman. Is that doable? It sounds like a massive 
undertaking.
    Dr. Fish. Well, we ought to try. We really ought to try and 
then prepare in the spring. I mean, to go out and try to 
control a mosquito population in the larval stage really is the 
best way to control mosquitoes. If you have to kill them when 
they are adults, you lost the battle. They can be controlled in 
the larval stage, which means finding them, finding these water 
containers. Sometimes it is catch basins, abandoned swimming 
pools, and those kinds of structures. I mean, they need to be 
mapped out and located, and we need to be ready in the spring. 
When these adult mosquitoes come out and start laying eggs and 
producing larvae, we have got to be able to go in there and try 
to control the population before we have a lot of infected 
adults flying around. And that all has to be planned. I mean, 
it is going to be a big effort. You know, New York City is a 
big place, and lots of places for mosquitoes. But I think we 
ought to try.
    Senator Lieberman. Is there something we should be doing in 
this--go ahead, Dr. McLean.
    Mr. McLean. I wanted to add, obviously, in the Federal 
perspective, I might say the same thing occurred in New York 
City. They responded. Their response to St. Louis encephalitis 
was the same as if it was West Nile virus.
    Senator Lieberman. Right.
    Mr. McLean. So when they did respond, it was the 
appropriate response that they were doing.
    From the Federal perspective, like Durland, I have been 
working for 30 years in these viruses, and 10 years ago we 
would have said that everybody did a remarkable job in 
identifying this virus so quickly. The technology is just 
advanced so much we need a lot more now.
    Senator Lieberman. It is important for us to have heard 
that. I agree.
    Mr. McLean. And the other thing, I think it was, at least 
for me, a unique experience at the Federal level that--of 
course, we are all resource limited. Everyone thinks Federal 
agencies have a lot of money, and we are very resource limited, 
but I think----
    Senator Lieberman. I hear you.
    Mr. McLean. What came out of this, I think, was a very 
unique collaboration that occurred--and I think we need to 
continue that and establish it--between three major agencies--
the Center for Disease Control, USDA, and our USGS National 
Wildlife Health Center on wildlife diseases. Of course, this is 
a unique virus in that wildlife became not only important, 
because they were dying----
    Senator Lieberman. Right.
    Mr. McLean.--but wildlife mortality was being used to make 
public health decisions, which is the first time I know of any 
disease like this where that has occurred.
    As a matter of fact, it was occurring so rapidly, public 
health officials wanted daily reports of positive crows to make 
public health decisions, and that is unheard of in these 
diseases.
    So I think it has been a very good collaboration. We are 
continuing the collaboration. All three agencies are working 
together for surveillance, particularly in the Atlantic and 
Gulf Coast States to see if the virus was introduced there and 
if it has become established. That is going to be a second 
critical question related to whether it is persisting in New 
York. Did it go somewhere else? And will it be established 
there?
    That, in the long term, will be as important for the 
persistence in the virus for the country, if there are some 
transmissionsites established in the south for continuous 
reintroduction to the north in the future.
    We are doing surveillance. It is limited, obviously. We are 
doing as much as we can. A lot of State agencies are 
collaborating with us on that, so that is ongoing now. We are 
getting in bird carcasses from all over the country, currently 
testing. We do an active sampling of bird populations. I think 
those are very important.
    And I agree, too. I think the virus is probably mostly 
likely going to persist in the New York City area. There was so 
much intense virus activity that it probably filled the 
mechanisms; however, the virus survives the winter, and this is 
the area where it would most likely survive.
    We have to be very vigilant in the spring in looking for 
the virus as it first appears, and then be very proactive in 
going after these spots where--it won't occur all at once in 
the New York City area. There will be little, individual sites. 
We need to identify as many of those as we can and react to 
them quickly to prevent it from expanding further in the New 
York City area, including Connecticut. I think, obviously, 
mosquitoes were infected here, so it could persist here, as 
well.
    Senator Lieberman. That is good news about the 
collaboration between the three Federal agencies, and I assume 
that also would go over in this hopefully hypothetical case of 
bioterrorism.
    I want to pick up from what you said and ask the broader 
question that I know was on a lot of people's minds here in 
Connecticut, which is about how we respond and just state it in 
a way that may be provocative.
    I know some people felt that when the appearance of West 
Nile--the occurrence of the West Nile virus happened this fall, 
that in some sense we over-reacted, that perhaps it was a kind 
of panic reaction, we over-sprayed, and that may have been done 
to the detriment of both wildlife species and people.
    So I would like to ask you to respond somewhat 
retrospectively, but also prospectively about if we all agree, 
as you do, and I think you make a very strong case that we have 
to assume the re-emergence of this virus next year and in 
future years, and that therefore we have to develop a plan and 
a program to try to control it, control those mosquitoes, 
particularly, that spread it, how do we do it? How do we do 
that control in the safest way?
    Commissioner, do you want to respond first about what 
happened here with the use of insecticides, pesticides?
    Ms. Stahl. Sure. And, again, I think that we were, in 
large--we were well prepared, but we were also lucky. I do not 
want to underplay that notion. We did not have a human case of 
disease to which we were responding in Connecticut. We did 
have, because of our eastern equine encephalitis protocol, a 
hierarchy of responses when we made findings of disease in 
different types of mosquitoes or in reports from sister States 
or in other findings that would have been informative or 
indicative of the level of threat to which we were responding.
    So our first level of response is usually to get the word 
out for people to take personal protective measures and to 
avoid being in areas of mosquito concentration at times when 
mosquitoes are known to be actively biting.
    Now, that changes when you have different mosquitoes with 
which you are dealing, and that is one of the things that we 
needed to look at a little bit more carefully with the West 
Nile virus, because we had a mosquito that was biting more 
frequently through the day and in populated recreation areas.
    We need to be vigilant, both proactively and at the time of 
the occurrence in terms of larva siting and reducing the--I 
hope I do not use the term incorrectly with all these experts 
sitting here, but those nascent populations of mosquitoes and, 
most dramatically, when we, in fact, have disease in human-
biting mosquitoes, we evaluate the need to conduct spraying of 
pesticides.
    What we did in this past instance was to do very localized 
ground spraying of a low-toxicity pesticide to knock down the 
adult mosquito population in the areas where we had the 
positive test results. So we had very limited areas in which we 
actually sprayed.
    We were on call and are still paying the bills, actually, 
for aerial spraying of pesticides should the test results have 
increased significantly. I mean, if we had greater numbers of 
positive test results in mosquitoes and in more widespread 
areas, we would likely have done aerial spraying of pesticides.
    If we went aerial, we would have used the same pesticide 
that we used in the ground spraying, because it is a low 
toxicity, which is not to say harmless----
    Senator Lieberman. Right.
    Ms. Stahl.--but low-toxicity pesticide.
    Senator Lieberman. So you were evaluating constantly the 
risks as against the danger of spraying.
    Ms. Stahl. Absolutely.
    Senator Lieberman. What about, as I recall, New York State, 
I presume, did, in my recollection, wider aerial spraying. I 
know there was some concern about that, and, of course, we are 
just over the border and the winds move. So is that something 
for people in Connecticut to be concerned about? And is there--
I hate to suggest this, but is there any sort of Federal role 
in trying to regulate or at least to make more logical or 
limited, sensible, the use of aerial sprays in a situation like 
this?
    Ms. Stahl. 20/20 hindsight?
    Senator Lieberman. Yes.
    Ms. Stahl. I think the role really is an educational and 
communication role. New York City dealt with a more urgent 
situation with a methodology that they had at hand and without 
the benefit of having years of experience with similar 
situations. It is not unlikely or unusual in States that have 
longstanding mosquito control programs with mosquito-borne 
disease to conduct continual aerial spraying of pesticides. 
That is something that is very difficult for us to sit here in 
Connecticut and second guess, because they, too, one would 
hope, are constantly measuring and weighing the risks to their 
population, the risks to their economy in States where the 
tourist trade is----
    Senator Lieberman. Sure.
    Ms. Stahl.--important, and the risks to their ecological 
systems.
    So I think we are in a--were this to happen again next 
year--and one of the points that I would like to make is that 
there is a very active mosquito management coordination scheme 
throughout the country. I mean, there is an organization of 
experts in this field who do get together, and New York is, in 
fact, participating in those organizations, and my hope, in 
fact, my understanding, is that they have learned from this 
experience and will deal differently with the situation.
    Senator Lieberman. Good.
    Let me ask Dr. Fish, as an epidemiologist, your reaction 
briefly. Should the public not only be concerned about West 
Nile virus but about the way in which we tried to prevent its 
recurrence or limit it through the use of insecticides?
    Dr. Fish. Again, Connecticut had a rational approach. I 
mean, they were monitoring the mosquito populations, they were 
monitoring for virus activity, and they had some information to 
base a decision on as to whether to spray and where to spray 
and how much to spray.
    I know you represent Connecticut, but I keep going back to 
New York.
    Senator Lieberman. That is OK.
    Dr. Fish. It is not that far away.
    Senator Lieberman. No.
    Dr. Fish. What happens in New York influences the people in 
Connecticut.
    Senator Lieberman. I grew up in Stamford. I used to think 
that my Governor was Nelson Rockefeller. I think that has 
changed now.
    Dr. Fish. I do not think New York City had any alternative 
other than to use aerial application of insecticides in 
response to the human cases. By then it was too late to do 
anything else. And they really did not have any idea where the 
mosquitoes were or where the infection was. All they had was 
human case data, and they had some cases in the Bronx and in 
Manhattan of people who had never left and must have acquired 
it there, so they were in a trap. I mean, they really did not 
have any choice but to spray. I do not know if they needed to 
spray twice. But they are not going to have that excuse next 
year. They are not going to be able to do that, I do not think. 
I mean, they have options. If they get a program in place and 
get out there in the field and learn what is going on, they can 
avert that kind of wholesale spray.
    Senator Lieberman. You have all been very helpful. I think 
we have--you certainly have helped me understand better how 
this happened, some of the understandings about how different 
groups work together fairly well in governmental agencies to 
try to limit its outbreak.
    We were fortunate here in the State that there was no human 
effect. We have something to worry about about the reemergence.
    Let me just, as we head toward the conclusion of the 
hearing, just try to focus us on what we can do now and what 
the Federal Government, particularly, can and should be doing 
now.
    You have made, I think, a very strong point that there is a 
real public health concern here and there is not commensurate 
or certainly not focused support for research in this area that 
is adequate to the problem, and the same about monitoring of 
surveillance. Some of the this money presumably you would ask 
for from the State governments, but maybe there is some role 
there for Federal agencies, as well.
    Focus in now on what else, what are the practical next 
steps? Again, repeating, it is clear from what you said that we 
have to assume that this virus is going to reappear, and the 
question is how can we--and probably spread, and the question 
is: how can we inhibit that? How can we prevent that from 
spreading further and deeper?
    I will give you each a shot at that. What are the things we 
could----
    Mr. Andreadis. I think the immediate needs for the coming 
year are to greatly increase our surveillance activities 
throughout the region where we know we had virus activity last 
year, at the very least. This would include trapping and 
testing mosquitoes, monitoring bird populations, and, as Dr. 
Fish had indicated, doing preemptive larval control, 
identifying the sites where these mosquitoes are breeding, and 
attempting to control them early on.
    Senator Lieberman. Now, for instance?
    Mr. Andreadis. Well, in the spring time.
    Senator Lieberman. Yes.
    Mr. Andreadis. Identifying sites now, and then controlling 
them in the spring before they have emerged as adults, because 
it is only through obtaining this type of data that you are 
going to be able to make the important decisions that may be 
necessary here.
    This, hopefully, would prevent a human case from occurring, 
because we could detect the virus in either the mosquitoes or 
birds early enough to get the warnings out.
    So I see that as our immediate needs for the coming season.
    Senator Lieberman. OK. Dr. McLean?
    Mr. McLean. Yes. I agree with what he said.
    I would like to emphasize--again, this is my experience 
with St. Louis encephalitis--that the best surveillance method 
of predicting human risk is monitoring bird populations. 
Mosquitoes--it is more difficult to isolate virus in 
mosquitoes, and that occurs very close to when humans are at 
risk, where birds are involved much earlier in the 
transmission.
    With our experience with St. Louis encephalitis, monitoring 
closely the bird populations in a number of species in urban 
and suburban areas that we selected as several species, the 
whole thing is driven by information. The more information you 
have, particularly by location, and the earliest you have this 
information, the better you are prepared and the more 
preventive measures you can institute, so it is all information 
driven.
    Mosquito information is important to know where the risk 
will be as far as what species are around and their density of 
mosquitoes, so I think surveillance, early surveillance next 
year, is very crucial, both within the area and broader 
surveillance in a multi-State region.
    Senator Lieberman. Thank you. Thanks, again, for coming up 
for the hearing.
    It strikes me what you are saying about the bird 
population. It really brings to life the old metaphor about the 
canary and the coal mine, doesn't it? We have an interest here 
not only in preserving the birds for their inherent value, but 
also they are a tremendous warning to us in terms of the 
potential danger.
    Mr. McLean. I would like to add to that. I would like to 
commend, actually, the public in this whole New York area, 
because they were so concerned about the birds, it really 
helped.
    Senator Lieberman. Yes.
    Mr. McLean. They found dead birds and turned them in, and 
there was a lot of concern.
    Senator Lieberman. Right.
    Mr. McLean. I guess New York City got 150,000 phone calls, 
and more than half were about birds.
    Senator Lieberman. Yes.
    Mr. McLean. So the public was very concerned about birds. 
And in this case, it was very helpful, from a public health 
standpoint.
    Senator Lieberman. Dr. Fish?
    Dr. Fish. Senator Lieberman, yes, I think there is a really 
crucial role for the Centers for Disease Control in this. They 
are the lead Federal agency on these kinds of problems, and I 
think we need more leadership and they need more resources.
    We have kind of a patchwork of local jurisdiction and local 
responsibility here of varying qualities, Connecticut having 
probably the best program, New York City having the worst. It 
is a mosaic of capabilities, and it is a regional problem. What 
happens in one municipality is going to affect the next. 
Mosquitoes do not respect political boundaries.
    The CDC can show leadership, can put together a coordinated 
regional program to combat this virus, but they have got to do 
it now, immediately. I mean, we only have 5 months when we have 
to have a plan, an operational plan in place. Five months. And 
if you wrote a check out for CDC today, it would take them 4 
months to figure out how to spend it.
    Senator Lieberman. I want to respond to that but I am going 
to give Commissioner Stahl--I would just really ask for a 
quick--what are the one, two, three things we should be doing 
now beyond what we have talked about in support for research 
and surveillance?
    Ms. Stahl. I do apologize, by the way. I do not generally 
respond to those things, but we have--it was an issue that 
needed response.
    Senator Lieberman. Do not worry.
    Ms. Stahl. I think we are really on target here. I think we 
cannot stop. We need to better refine our approach to deal with 
not only West Nile virus but other potential diseases that 
might come our way, so I agree that we need to stay vigilant.
    I am delighted to hear about the coordination at the 
Federal level, because I think that is something that will 
serve us will, not only in this instance but in other instances 
as they may arise, and we need to always look toward the 
future.
    With regard to CDC's role, I think that it is imperative 
that they continue to be a voice in this matter. Again, many of 
our decisions, there is much that we can do in preparation, but 
when push comes to shove and that first positive mosquito shows 
up in a trap, the decision is what do we do. We need a voice 
with credibility, integrity, and expertise to help us make 
those hard decisions. How do we weigh and measure the balances 
between application of pesticides, what kind of pesticides, how 
broadly, what is the risk from the mosquitoes, what is the risk 
from the pesticides. That, as well, is something that we have a 
great deal of expertise and experience with here at the State 
level.
    It helps tremendously to have the voice of the CDC in 
making those determinations and taking those actions.
    Senator Lieberman. Thanks to all of you. For me this has 
been a very helpful informational exchange. I walk away both 
with a feeling that we ought not to panic, but that this is a 
serious problem here, and it is the kind of problem, because of 
the way in which we and goods and cargo are traveling, are 
going to continue to have for a good long time to come.
    I am, in one sense, reassured by the response of the 
agencies here in the State this year and concerned and 
heartened also by some of the collaboration that you talked 
about going on at the Federal level, but there is clearly more 
that has to be done, and I am going to think some about that, 
both in terms of trying to develop legislation or coalitions 
that will support additional resources from the Federal 
Government for the research and surveillance that you have 
talked about, and particularly to focus in on the Center for 
Disease Control and see what we can do in the immediate future 
to guarantee that the CDC is doing everything it can now in its 
role of national leadership and coordination to be taking 
preemptive steps to limit and impede the outbreak that we 
presume will happen next year and the years afterward.
    So you have been real helpful in giving me some guidance as 
to what I can do to be helpful, as well.
    I want to state again to people who are here, because I 
know there is broad public interest in this, that Elise 
Campaign--I have to run, but Elise Campaign, who is my chief 
staff person on this, will stay around. She is available to 
listen to you, but also to tell you exactly how you can file 
testimony that I promise you I will read and it will be part of 
the record as we go forward.
    Again, thanks very much. If it seems appropriate, we will 
come back and do this again next spring.
    Now I have this authority with this gavel brought 
specifically from Washington to officially adjourn the hearing.
    Thank you.
    [Whereupon, at 10:30 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
Statement of Durland Fish, Ph.D., Department of Epidemiology and Public 
                    Health, Yale School of Medicine
    I would like to thank Senator Leiberman and Senator Smith for 
organizing this event and for their foresight in recognizing that the 
threat of West Nile virus and similar insect-borne diseases is as much 
of an environmental issue as it is a public health issue. The impact of 
insect- borne diseases upon human health, which in Connecticut includes 
Eastern equine encephalitis, Lyme disease, and now West Nile virus, 
have their origin in the environment. Mosquitoes, ticks and other 
parasites that feed upon human blood are products of the natural 
environment. Their biologies are inextricably linked to environmental 
conditions and climatic events that regulate their abundance. Viruses, 
bacteria and other infectious agents are also common elements of the 
natural environment and have an important role in regulating 
populations of both plants and animals. Such agents often play an 
essential role in the balance of nature.
    Humans become involved in the natural cycle of environmental 
disease agents when they are exposed to pathogens either by direct 
contact with infected wildlife, as with rabies, or when they are bitten 
by a mosquito or tick that has previously fed upon an infected animal, 
as with West Nile virus or Lyme disease. Humans are bystanders in these 
environmental events, but the consequence of infection can be 
devastating, and even fatal. Such is the situation we are now facing 
with the threat of West Nile virus.
    The introduction of a foreign insect-borne virus, never before seen 
in the Western Hemisphere is a public health threat unprecedented in 
modern times. It is reminiscent of the introduction of yellow fever and 
bubonic plague in past centuries. This event has three possible 
consequences: It could simply disappear and represent a kind warning 
from Mother Nature that there is more to come. It could establish 
itself and repeat the events of last summer. Or, it could explode into 
a raging epidemic that spreads far beyond the confines of New York and 
Connecticut. The preponderance of evidence suggests that West Nile 
virus is not going to go away by itself and therefore we must be 
prepared for the remaining alternatives.
    We were woefully ill-prepared for this epidemic of West Nile virus. 
We were not aware of an epidemic until some 40 suspected cases filled 
New York City hospitals. We did not even know what virus was causing 
the epidemic until a month after people had already become ill and some 
had died. We did not know where the infected mosquitoes were and, 
consequently, ten million people were exposed to pesticides in an 
attempt to control the epidemic by indiscriminate aerial spraying of 
the entire New York City metropolitan area, not just once, but twice. 
Our lack of preparedness was obvious and costly.
    These events, as shocking as they may seem to the general public, 
were predicted and warned by the scientific community. Two reports from 
National Academy of Sciences warned of a decaying public health 
infrastructure, particularly in reference to insect-borne diseases. The 
first report, ``Manpower Needs and Career Opportunities in the Field 
Aspects of Vector Biology'' published in 1983, warned of a serious 
manpower shortage in the field of vector biology, the study of insects 
that transmit human diseases. This report was totally ignored by 
Congress and the responsible Federal agencies. Consequently there are 
now very few professionals in government or academic institutions with 
the appropriate knowledge and training to address the threat of insect-
borne diseases. The second report, ``Emerging Infections: Microbial 
Threats to Health in the United States'' published in 1992, warned of 
the potential for the introduction of foreign pathogens and the 
degradation of public health infrastructure to combat such 
introductions. This report was taken more seriously by Congress and 
some Federal agencies, but the response has been neither adequate nor 
timely, as is evidenced by recent events with West Nile virus.
    What must be done to prevent a recurrence of last summer's events 
and to prevent similar events from occurring in the future? In the 
short term, every conceivable effort must be made to prevent West Nile 
virus from re-emerging next spring. It is quite likely to survive the 
winter months, either in infected wildlife or within the millions of 
mosquitoes hibernating in buildings and tunnels in the New York City 
metropolitan area. Immediate efforts should be made to find and destroy 
any infected mosquitoes that may be now overwintering. Heroic efforts 
must be made next spring to find the virus in mosquitoes or wildlife 
and to focus mosquito control efforts on containing the virus before 
humans become infected. A preemptive strike on certain mosquito species 
known to be capable of transmitting the virus should initiated early in 
the spring and directed at larval stage where environmental impact of 
insecticide usage would be minimal. Every conceivable effort must be 
made to control virus transmission early enough to prevent human 
infection and avoid the use of widespread aerial insecticide 
application to control a epidemic in humans. A repeat of last season's 
response must be avoided at all costs.
    In the long term, we must strengthen the public health 
infrastructure to effectively and intelligently combat the threat of 
new and re-emerging diseases. If West Nile virus was a test of our 
response capabilities, we have failed miserably. Research is needed to 
better understand the human threat of infectious diseases that 
originate from the environment. This research should be 
interdisciplinary and include epidemiology, microbiology, entomology 
and, most importantly ecology. Government agencies responsible for the 
funding of peer-reviewed research on vector- borne diseases must be 
given increased resources to accomplish this goal. The training of a 
new breed of scientists, blind to interdisciplinary boundaries, and 
comprehensively trained both in the medical and environmental sciences 
should begin immediately in order to staff the increasing demand for 
expertise in government and academic institutions. Academic research 
institutions and government agencies at all levels should form working 
partnerships to integrate resources focusing upon this specific 
problem.
    Epidemics of insect-borne disease are preventable. We have 
eliminated the threat of epidemic malaria, yellow fever, and bubonic 
plague in this country years ago, but we have left our guard down 
against the threat of new diseases, such as West Nile virus. Armed with 
new knowledge from academic research, and the will of responsible 
government agencies to refocus and integrate prevention efforts, we can 
regain our capacity to combat new disease threats from the environment 
and look forward to an improved quality of life in the next millennium.
                               __________
    Statement of Theodore G. Andreadis, Chief Medical Entomologist, 
       Connecticut Agricultural Experiment Station, New Haven, CT
    I am here today to report you the research and surveillance 
activities that occurred in the State of Connecticut during the recent 
West Nile Virus (WNV) crisis. I will focus my comments on specific work 
that was done to isolate, identify and determine the distribution of 
the virus in birds and mosquitoes in the state. Let me begin by stating 
that since 1997, the State of Connecticut has had a comprehensive 
Mosquito Management Program to monitor mosquito populations and 
mosquito-borne viruses known to cause human disease, most notably 
eastern equine encephalitis (EEE). This program is a cooperative effort 
that involves three state agencies. The Connecticut Agricultural 
Experiment Station (CAES), which is responsible for trapping and 
testing mosquitoes; the Department of Environmental Protection (DEP) 
which is responsible for implementing all mosquito control measures; 
and the Department of Public Health (DPH) which is responsible for 
communicating health risks and protective measures to the public. 
Mosquito trapping is conducted daily from June through October at 37 
permanent locations (principally in freshwater swamps) throughout the 
state. Since 1997, we have trapped and tested over 150,000 mosquitoes 
and detected the EEE virus on 9 occasions from 6 different locations.
    Because we had this surveillance system in place we at the CAES 
were able to respond immediately to the WNV crisis. On September 4, the 
New York City Health Department and the Centers for Disease Control 
(CDC) announced the death of an elderly resident of Queens from what 
was initially thought to be St. Louis Encephalitis, a mosquito 
transmitted virus. The following day (September 5) we placed mosquito 
traps in the town of Greenwich and began a supplementary mosquito-
trapping program that was eventually extended to 15 towns throughout 
lower Fairfield and New Haven Counties. This was in addition to the 
normal trapping in other areas of the state. The purpose of this 
trapping was to determine the types of mosquitoes in the region, assess 
their relative abundance and to determine if these mosquitoes were 
carrying the potentially deadly virus and if they were did this 
represent a public health threat. Mosquito trapping was conducted over 
an 8 week period through the end of October during which 261 traps were 
placed in 80 different locations throughout the region and over 3,500 
mosquitoes were trapped and tested in our laboratories.
    Shortly after we initiated our mosquito surveillance program, we 
began to receive reports of an ``extraordinary'' number of crow deaths 
throughout lower Fairfield County. Similar crow die-offs were being 
observed in New York City, Long Island and New Jersey as well, and 
suspicion was rising that perhaps these crows were dying from the 
virus. However, this would be highly unusual, since St. Louis 
encephalitis does not typically kill birds. A plan was put into place 
to systematically collect and test dead crows. This was coordinated by 
the DPH with assistance from local health departments and wildlife 
personnel within the DEP. Birds were sent to the Department of 
Pathobiology at the University of Connecticut where necropsies were 
performed by veterinary pathologists. Brains and other tissues from 
crows that had diagnostic symptoms consistent with a viral encephalitis 
were them submitted to the CAES for testing. Over 300 birds were 
assessed from 38 towns through October 12 and 40 were tested in our 
laboratory for WNV.
    On September 21 we obtained our first isolations of this virus from 
2 different species of mosquitoes (Aedes vexans and Culex pipiens) that 
were trapped on the evening of September 14 at the Innis-Arden County 
Club in Old Greenwich, and from the brain of a dead crow collected in 
the town of Westport on September 13. This announcement was made by 
Governor Rowland who subsequently directed the DEP to initiate limited 
ground spraying of insecticides against adult mosquitoes in the 
affected areas.
    The isolation of this virus from adult mosquitoes and the brain of 
a wild domestic crow, was a critical step in the eventual 
identification of the virus. Despite the increasing number of human 
cases that were being reported in NYC, the CDC had yet to obtain an 
actual isolation of the living virus from a human. We believe our 
isolations were the first from mosquitoes and a wild domestic crow. 
Following our announcement, we were immediately contacted by CDC who 
requested that we submit our isolations to them. We complied on 
September 23. The following day the CDC announced that the virus was 
not St. Louis encephalitis but was a ``West Nile-like''. Two days later 
they informed us that the viruses that we isolated from the mosquitoes 
and crow were the same.
    We then proceeded to obtain specific reagents to test for WNV and 
initiated molecular studies to sequence a portion of the genome (RNA) 
of the virus with the intent of definitively identifying the virus, 
determining its possible origin and assessing its virulence for birds 
and humans. Early information which appeared in the British journal 
Lancet on October 9 from studies conducted at the University of 
California at Irvine had indicated that this virus was Kungin/WN-like 
virus which occurs in Australia. However, their analysis was incomplete 
and our genetic analysis showed a much closer relationship to WNV that 
had been isolated from mosquitoes and humans during a recent outbreak 
in 1996 in Romania thus suggesting a common origin. The results of our 
investigations are due to be published in the journal Science later 
this week.
    Bird testing continued through mid-October and of the 40 birds that 
we tested, 29 were found to be positive for WNV. These included 28 
American crows and one Cooper's Hawk that were collected from 18 towns 
in lower Fairfield and New Haven Counties along a 62-mile corridor from 
Greenwich to Madison, CT. No virus isolations were made from 3 crows 
and a Canadian goose collected from Hartford County.
    Our isolations of West Nile virus from birds and mosquitoes 
conclusively documented the presence of this virus in Connecticut 
during September and October 1999 and virus activity appeared to be 
limited to lower Fairfield and New Haven Counties. All of the work that 
I have described was accomplished in State with no assistance from the 
CDC or any other Federal Agency. Our timely coordinated response in 
trapping and testing mosquitoes and birds provided indispensable data 
that was effectively used to inform and protect the public and 
fortunately, no human cases were reported in Connecticut.
    The high mortality in crows and other bird species in the region 
suggest a recent introduction of WNV into a native wildlife population 
that has never been exposed to the virus. The isolation of WNV from a 
variety of native birds, which are likely capable of circulating this 
virus at relatively high titers over a broad geographic region, further 
suggests that this exotic virus is likely to become established in the 
avian fauna of the United States. How the virus will behave is unknown 
but if established in North America, WNV likely will continue to have 
severe effects on human health, horses, and on avian populations, such 
as American crows and raptors. The environmental, social and economic 
implications of permanent establishment of this exotic virus are 
considerable.
    While many important questions need to be investigated, among the 
most urgent include: Will the virus persist in the region? How 
widespread will it become? What impact will the virus have on native 
bird and horse populations? How will the virus affect humans? How will 
the virus over winter? How will we monitor virus activity to protect 
the public? What birds will serve as natural reservoir hosts? What 
mosquito species will serve as competent vectors?
    Additional resources and funding are urgently needed to address 
these and other research questions. This will lead to a better 
understanding of the natural ecology and epidemiology of this new 
exotic virus in North America. This information will provide critical 
fundamental knowledge that is presently unknown. This will be an 
essential component for developing effective virus surveillance, 
disease management and mosquito control strategies throughout the 
region. The information obtained in these studies will further aid in 
assessing the relative risk of WNV to human health and help to 
determine its impact on wildlife and domestic animals. We would further 
anticipate that increasing our knowledge in the aforementioned areas 
will reduce the need for application of toxic chemical insecticides to 
the environment.
    We are at a very critical juncture and we stand ready to act. We 
have the expertise and laboratory facilities to undertake these 
investigations. We have initiated studies on overwintering mosquitoes 
and wild bird populations and with additional funding we can increase 
our mosquito surveillance program, continue our basic research on bird 
populations and continue our molecular studies to develop a rapid 
procedure for identification of the WNV.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Mosquito Arbovirus Surveillance in Connecticut, 1998
            (By Theodore G. Andreadis and John F. Anderson)
                              introduction
    In 1997, the State of Connecticut established its first 
comprehensive arbovirus surveillance program as part of a state-wide 
Mosquito Management Program (Andreadis, 1997; Capotosto, 1997). The 
program relies on the trapping and testing of mosquitoes for eastern 
equine encephalitis (EEE) and other arboviruses at 37 locations 
throughout the State. Locations include fresh water swamp sites (mostly 
red maple/white cedar) known or suspected to support mosquito 
populations that have historically tested positive for EEE, are capable 
of supporting such populations, or are proximate to locations where 
EEE-related equine or emu deaths have occurred. The results of the 
second full year of this program are presented herein.
                         materials and methods
    Mosquito Collections. Thirty-six of the 37 permanent locations 
identified in 1997 (Andreadis, 1997) were again selected to trap 
mosquitoes for virus testing. Due to low trap catches in 1997, the 
Stamford site was eliminated. One additional site in Waterford 
(Waterford Country School), where 3 EEE-related emu deaths occurred in 
1997, was added. Trapping was conducted from June 1 through October 23 
with CO<INF>2</INF>-baited CDC miniature light traps. Traps were 
routinely set once every 10 days at each location on a regular 
rotation. One trap per site per night was used. Mosquitoes were 
transported live to the laboratory where they were immediately frozen 
on dry ice and then identified microscopically on a chill table using 
the keys of Carpenter and LaCasse (1955), Darsie and Ward (1981) and 
Means (1979, 1987). Specimens were pooled by species, site, and 
collection date. The number of mosquitoes per pool was <ls-thn-eq> 50. 
Specimens were stored at -80 degrees C.
    Virus Assays. All of the virus isolation work was conducted in a 
newly renovated laboratory at the Connecticut Agricultural Experiment 
Station using the same protocols established at the Arbovirus Research 
Laboratory at Yale University in 1997. In most cases, mosquitoes were 
processed for virus the day after collection.
    Each frozen mosquito pool was homogenized in phosphate buffered 
saline containing 0.5 percent gelatin, 30 percent rabbit serum, 
antibiotic, and antimycotic. The homogenate was centrifuged for 10 min 
at 520 g to clear the mixture of mosquito debris. A 0.1-ml aliquot of 
each supernatant then was inoculated into a 25-cm\2\ flask containing a 
monolayer of Vero cells and incubated at 37 degrees C in 5 percent 
CO<INF>2</INF> for up to 7 d (Tesh et al., 1992). One uninoculated 
flask was kept as a negative control. The remainder of the supernatant 
was stored at -70 degrees C.
    Flasks were examined daily for cytopathic effect. If cytopathic 
effect was noted, the cells were scraped from the flask and a cell 
lysate antigen was prepared (Ansari et al., 1993). Isolates were 
identified by enzyme immunoassay using reference antibodies that were 
prepared in mice and provided by the World Health Organization Center 
for Arbovirus Research and Reference, Yale Arbovirus Research Unit,
    Department of Epidemiology and Public Health, Yale University 
School of Medicine. These included: Cache Valley (CV), EEE, Highlands J 
(HJ), Jamestown Canyon (JC), La Crosse, and St. Louis encephalitis 
virus antibodies. Positive and negative control cell lysates were 
included in each test. Highlands J and eastern equine encephalitis 
antibodies crossreact in the enzyme immunoassay, but were 
distinguishable on the basis of titer.
                         results and discussion
    Mosquito Collections. A total of 66,383 female mosquitoes, 
representing 28 species and 8 genera were collected, identified and 
tested for arboviruses. This represented over 20,000 more mosquitoes 
than in 1997. The increased numbers were attributed to the excessive 
amount of rainfall the region received in June that resulted in 
increased numbers of flood-water Aedes, Anopheles and Culex spp. The 
most abundant species were Coquillettidia perturbans, Aedes canadensis 
and Culiseta melanura. Thirteen additional Aedes species were 
collected, among which, Aedes trivittatus, Aedes cinereus, and Aedes 
vexans were the most numerous. Aedes abserratus was the most frequently 
caught univoltine ``snow pool'' Aedes. Culex pipiens and Culex restuans 
were equally abundant, and relatively large numbers of Anopheles 
punctipennis and Uranotoenia sapphirina were trapped.
    Eastern Equine Encephalitis. Increased EEE virus activity was seen 
in 1998. Eight isolations from four different mosquito species in five 
locations were obtained. The first EEE isolations were made on 
September 29 from two pools of Ae. vegans and Cs. melanura mosquitoes 
trapped at Barn Island in Stonington (New London County). In response 
to this, a Phase II: Public Health Alert of the State Contingency Plan 
for Eastern Equine Encephalitis was implemented. Pesticide applications 
(truck-mounted ULV) were ordered by the Governor and subsequently 
implemented by the Department of Environmental Protection (DEP) in the 
affected region. Additional traps were set and no further EEE 
isolations were made at that specific location.
    Six more EEE isolations were obtained from mosquitoes collected on 
October 6 and 7 from four widely scattered locations in Chester 
(Middlesex County), Newtown, Ridgefield (Fairfield County) and 
Voluntown (New London County). A Phase II Public Health Alert with 
pesticide spraying by the DEP was similarly implemented at Cockaponset 
State Forest in Chester due to the isolation of the virus from two 
species of human-biting mosquitoes Be. canadensis and An. punctipennis. 
However, because the virus was limited Cs. melanura in Newtown, 
Ridgefield and Voluntown, a Phase I Public Health Notification (no 
pesticide sprays) was implemented in those regions. No further EEE 
isolations were made from mosquitoes that were collected in additional 
traps that were set in any of the four locations.
    Five equines with clinical symptoms consistent with EEE infection 
were tested. Specimens were obtained from the Connecticut Diagnostic 
Laboratory, Department of Pathobiology, University of Connecticut. EEE 
virus was isolated from the brain of a donkey that had died on October 
16 in Canterbury. The animal was housed in an open barn surrounded by a 
wetland swamp. Previous history suggests the animal contracted the 
infection at this location which was approximately 3.7 miles from the 
trap site in Plainfield. No EEE isolations were made from any other the 
other four animals.
    Results obtained in 1998 once again reinforce the highly focal 
nature of EEE which can be limited to mosquitoes and birds in a single 
swamp. The isolation of EEE from mosquitoes collected in Newtown and 
Ridgefield are particularly noteworthy as this area of the State has 
historically been considered to be at low risk for EEE. However, our 
findings now suggest that the EEE virus may be more widespread than had 
been previously thought. The isolation of EEE from mosquitoes in 
Stonington for three consecutive years (Andreadis, 1997; Andreadis et 
al., 1998) suggests that this region of the State is a focal center for 
the virus. The deaths of the donkey in 1998 and the 3 emus in 1997 
clearly indicate that the present strain of EEE in Connecticut is a 
potentially serious public health threat and further emphasize the need 
for continued trapping and testing of mosquitoes in all areas of the 
State.
    Highlands J. Twenty-three isolations of HJ virus were obtained from 
nine species of mosquitoes: Cs. melanura (10), Cs. morsitans (3), Ae. 
canadensis (3), Ae. vegans (2), Ae. stimulans, Ae. triseriatus, An. 
punctipennis, Cx. pipiens and Cx. restuans. These mosquitoes were 
collected from nine different locations in five towns (Ledyard, Lyme, 
North Stonington, Stonington and Voluntown) all of which were located 
in the southeastern corner (New London County) of the State. Both the 
number and geographic location of these isolates were similar to 
results obtained in 1997. The first isolation was made on August 5 and 
the last on October 15. Highlands J virus isolations were made in only 
two (Stonington and Voluntown) of the five locations where EEE was 
isolated, once again calling to question its usefulness as a reliable 
predictor of pending EEE activity in Connecticut.
    Cache Valley. Twenty-two isolations of CV virus were made from 
seven species of mosquitoes (An. punctipennis, An. quadrimaculatus, An. 
walker), Ae. canadensis, Ae. cinereus, Cq. perturbans and G. melanura) 
collected in 13 towns throughout all regions of the State. from August 
19 through September 17. More than half (14) of these isolations were 
obtained from An punctipennis. This represents only the second 
isolation of this virus from Connecticut mosquitoes. The first 
isolation was made in 1979 from Ae. triseriatus (Calisher et al., 
1986). This virus has been isolated from at least six genera of 
mosquitoes and is now recognized as the most widely spread Bunyamwera 
serogroup virus in North America, occurring in much of North America 
except the extreme southeastern States and southern Mexico (Calisher et 
al., 1986). Cache Valley virus has been isolated from large wild and 
domestic animals and has been associated with congenital malformations 
in sheep. In 1995, CV virus was isolated from a 28-year old male 
residing in North Carolina and presenting with severe encephalitis and 
multiorgan failure that ultimately resulted in death (Sexton et al., 
1997). The broad distribution and relatively high prevalence of CV 
virus in mosquitoes known to feed on humans in Connecticut suggest wide 
spread exposure of humans to this virus which may be an etiology of 
unknown disease.
    Jamestown Canyon. Six isolations of JC virus were obtained from 
four species of mosquitoes (Ae. canadensis, Ae. stimulans, Ae. 
trivittatus and An. punctipennis) collected in four widely distributed 
towns in four counties (Fairfield, Litchfield, Middlesex and New 
London) from June 25 through August 3. Three of the six isolations were 
made from Ae. trivittatus. These results were similar to those obtained 
in 1997 where seven isolations from five mosquito species were made 
from June 30-July 14 (Andreadis, 1997). Results obtained from this and 
other studies on mosquitoes (Andreadis et al., 1994) and white-tailed 
deer (Zamparo and Andreadis, 1997), indicate that JC virus is widely 
distributed throughout the State and appears to be mostly vectored by 
early summer Aedes mosquitoes.
                            acknowledgments
    We wish to acknowledge the assistance of John Shepard, Jodi 
Corriea, Bonnie Harnid, Colleen Scott, Susana Cantu, J.R. Dubicki, 
Ronald Ferrucci Arwen Mohr, John Russo, Kristina Steiff (The 
Connecticut Agricultural Experiment Station); Shirley Tirrell-Peck 
(Yale University); and Lt. David Florin (U.S. Navy).
                               references
    Andreadis, T. G. 1997. Mosquito arbovirus surveillance in 
Connecticut, 1997. Proc. 43d Ann. Meet. Northeastern Mosq. Control 
Assoc. pp. 10-12.
    Andreadis, T. G., J. F. Anderson, and S.J. Tirrell-Peck. 1998. 
Multiple isolations of Eastern equine encephalitis and Highlands J 
viruses from mosquitoes (Diptera: Culicidae) during a 1996 epizootic in 
southeastern Connecticut. J. Med. Entomol. 35:296-302.
    Andreadis, T. G., P. M. Capotosto, R. E. Shope, and S. J. Tirrell. 
1994. Mosquito and arbovirus surveillance in Connecticut, 1991-1992. J. 
Am. Mosq. Control Assoc. 10: 556-564.
    Ansari, M. Z., R. E. Shope, and S. Malik. 1993. Evaluation of Vero 
cell lysate antigen for ELISA of flaviviruses. J. Clin. Lab. Anal. 7: 
230-237.
    Capotosto, P. 1997. Connecticut's new mosquito management unit--
first year. Proc. 43d Ann. Meet. Northeastern Mosq. Control Assoc. pp. 
8-9.
    Carpenter, S. J., and W. J. LaCasse. 1955. Mosquitoes of North 
America (North of Mexico). University of California Press. Berkeley.
    Calisher, C. H., D. B. Francy, G. C. Smith, D. J. Muth, J. S. 
Lazuick, N. Karabatsos, W. L. Jakob and R. G. McLean. 1986. 
Distribution of bunyamwera serogroup viruses in North America, 1956-
1984. Am. J. Trop. Med. Hyg. 35: 429-43.
    Darsie, R. F., Jr., and R. A. Ward. 1981. Identification and 
geographic distribution of mosquitoes of North America, north of 
Mexico. Mosq. Syst. Suppl. 1: 1-313.
    Means, R. G. 1979. Mosquitoes of New York. Part I. The genus Aedes 
Meigen with identification keys to genera of Culicidae. N. Y. State 
Mus. Bull. 430a.
    Means, R. G. 1987. Mosquitos of New York. Part II. Genera of 
Culicidae other than Aedes occurring in New York. New York State Mus. 
Bull. 430b.
    Sexton, D. J., P. E. Rollin, E. B. Breitschwerdt, G. R. Corey, S. 
A. Myers, M.R. Dumais, M. D. Bowen, C. S. Goldsmith, S. R. Zaki, S. T. 
Nichol, C. J. Peters and T. G. Ksiazek. 1997. Brief Report.: Life-
threatening Cache Valley virus infection. New Eng. J. Med. 336: 547-
549.
    Tesb, R. B., J. Lubroth, and H. Guzman. 1992. Simulation of 
arbovirus overwintering: survival of Toscana virus (Bunyaviridae: 
Phlebovins) in its natural sand fly vector Phlebotomus perniciosus. Am. 
J. Trop. Med. Hyg. 47: 574-581.
    Zamparo, J. M., T. G. Andreadis, R. E., Shope, and S. J. Tirrell. 
1997. Serological evidence of Jamestown Canyon virus infection in 
white-tailed deer populations in Connecticut. J. Wildlife Dis. 33:623-
627.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Statement of Robert G. McLean, Director and Supervisory Biologist, 
  National Wildlife Health Center, U.S. Geological Survey, Madison, WI
    Thank you for inviting me to provide information on the involvement 
of wildlife species and the impact on wildlife populations related to 
the emergence of West Nile virus in the United States. I will also 
provide information on the activities and efforts of the U.S. 
Geological Survey National Wildlife Health Center to investigate the 
wildlife aspects of this virus which has been recently identified in 
the United States.
Background Information
    I am the Director of the USGS National Wildlife Health Center in 
Madison, Wisconsin, which provides Federal and state resource 
management agencies across the nation with information, technical 
assistance, and research on national and international wildlife disease 
and health issues. Our Center monitors disease and assesses the impact 
of disease on wildlife populations; defines ecological relationships 
leading to the occurrence of disease in free ranging wildlife; provides 
on site investigation and control for wildlife disease emergencies; and 
provides guidance, training, and technical information for reducing 
wildlife losses when outbreaks occur. Current investigations include 
the causes of deformities and disease in amphibians; tumors in green 
sea turtles; the mysterious eagle mortality in Arkansas and elsewhere; 
and management strategies to control avian botulism and avian cholera 
in migratory waterfowl. Major studies are underway at the Salton Sea in 
California.
    The staff provides technical support, knowledgeable guidance, and 
timely intervention to wildlife managers who are regularly confronted 
with sick and dead wild animals, frequently on a large scale. Due to 
the mobility of wildlife and the potential for the spread of disease, 
timely and accurate determination of the causes of wildlife illness and 
death is a prerequisite to achieving effective disease control and 
prevention. The expertise and resources of our disease diagnostic 
laboratory are crucial in providing this rapid response to wildlife 
mortality events.
West Nile Virus Background
    The West Nile virus (WNV) is a mosquito-borne virus belonging to 
the Flavivirus taxonomic group that also includes St. Louis 
encephalitis virus, Kunjin virus, Murray Valley encephalitis virus, and 
others. These viruses are structurally and genetically similar making 
them difficult to separate by traditional virological and serological 
procedures. West Nile virus was first isolated in the West Nile 
district of Uganda in 1937 and subsequently isolated in Egypt in the 
early 1950's. The normal distribution of West Nile virus is Africa, the 
Middle East, western Asia, and Europe. In September, investigators 
discovered West Nile virus in the New York City area. This is the first 
known occurrence of this virus in the Western Hemisphere.
    West Nile Virus can infect a wide variety of vertebrate animals, 
but birds are the primary natural hosts for this virus. It can be 
transmitted from birds to other birds and animals, including humans, 
through the bite of mosquitoes. Human epidemics were first recorded in 
Israel during 1950-1954 and later in parts of Africa and Europe. An 
epidemic occurred in Volgograd, Russia, during the summer of 1999. The 
virus usually produces either asymptomatic infection or mild fever in 
humans, but WNV has not been documented to cause epizootics (epidemics) 
in birds throughout its known geographic range. Natural antibody to WNV 
was commonly found in crows and other birds in Africa and Israel 
suggesting asymptomatic or mild infection usually occurs in those 
regions. St. Louis encephalitis virus in the United States commonly 
infects wild birds which can become reservoirs for the virus, but are 
normally not harmed by it. Therefore, the disease in birds in the New 
York area producing high mortality in crows and other bird species is 
unusual for these viruses suggesting that this introduced West Nile 
virus is more virulent to the native bird species or represents a new 
virulent strain of the virus. Resident and migratory birds may play an 
important role in natural transmission cycles of this virus and in 
maintaining the virus in the United States. Migratory birds could also 
disseminate the virus to new states outside of the New York City area. 
Enhanced monitoring through surveillance for early and rapid detection 
of WNV in those states outside of the affected area will be important 
to guide prevention measures.
Current Status of West Nile Virus in the United States
    West Nile virus infection has been detected in humans in the New 
York City area only; in mosquitoes in New York, Connecticut, and New 
Jersey; and in birds (mostly crows) in New York, Connecticut, New 
Jersey, and one crow in Baltimore, Maryland. Birds testing positive for 
the virus have been reported almost entirely from within about a 50-
mile radius of the initial affected area in New York City except for 
one crow from upstate New York, one from southern New Jersey, and the 
crow from Maryland. As of November 5, 1999, 392 birds have been tested 
for WNV by the Centers for Disease Control and Prevention (CDC) and 192 
were positive. The virus has infected 18 species of birds, including 
exotic and native birds at zoos, and about four species of mosquitoes. 
Mortality from the virus has been predominantly in American and fish 
crows. Bird mortality has been reported in multiple states in the 
region and may represent thousands of birds. The finding of the 
infected crow in Maryland extends the affected area a considerable 
distance southward. It is unknown if this crow was infected in the New 
York City area and moved to Baltimore before it died or if it was 
infected locally in Maryland. USGS and CDC have increased sampling of 
wildlife in that area in cooperation with the Maryland and Delaware 
wildlife agencies to determine if local transmission has occurred. 
Enhance wildlife surveillance for detection of West Nile virus by USGS, 
CDC, U.S. Department of Agriculture (USDA), and other agencies is 
continuing and will expand to other Atlantic and Gulf Coast states. 
These agencies are continuing to collaborate on enhanced surveillance 
and what specific surveillance methods are needed for each region.
    Efforts are underway by CDC to determine the source of the virus by 
conducting molecular comparisons with known strains from other 
continents. Several Federal and state agencies and private groups, 
including USGS are searching for stored human and animal specimens to 
test for West Nile virus or antibody to determine if the virus was 
present before 1999.
    Results from these investigations should provide more insight into 
how, where, and when the virus was introduced.
Additional Research Needed for Wildlife
    Additional wildlife research is needed to determine the principal 
wildlife host species of West Nile virus in the U.S., and to determine 
if wildlife species can maintain the virus in New York and other states 
and serve as an overwintering source for resurgence next summer. We 
need to determine the best wildlife species to be used as sentinels for 
detection of West Nile virus activity in surveillance programs. We need 
to determine the current distribution of the virus in bird populations 
in the eastern U.S., and if the virus distribution has been expanded by 
migratory birds. We want to know the impact of West Nile virus on bird 
populations, particularly for the American and fish crow species and to 
determine the susceptibility of other native wildlife species to this 
virus. Finally, we need to determine if threatened and endangered 
species and zoo animals can be protected from exposure and infection.
USGS Collaboration and Interaction with Other Agencies
    USGS regularly interacts with other Federal and state agencies in 
providing diagnostic assistance and consultations on wildlife diseases 
nationwide. That interaction brought our lab into the West Nile virus 
investigation when we were asked to provide diagnostic assistance on 
crow mortality to the New York State Department of Environmental 
Conservation. I was personally contacted early in the outbreak for 
information and advice because of my expertise in avian mosquito-borne 
diseases, specifically St. Louis encephalitis. I also have experience 
from working with three of the Federal agencies involved in the 
investigation. USGS and CDC quickly established collaborative efforts 
to investigate the avian aspects of West Nile virus in the New York 
City area. This effort led to increased collaboration with CDC on 
multi-state surveillance for detection of the virus in birds. USGS 
later established further surveillance efforts with USDA's Wildlife 
Services and Veterinary Services. We increased our cooperative 
interactions with state agencies. We are using their staff to assist 
with bird sample collections. We are providing increased diagnostic 
support and an avian pathologist to assist at the New York state 
laboratory.
    USGS was successful in establishing and maintaining these 
collaborations and cooperative efforts with the Federal and state 
agencies and they are working well. The combined expertise and 
resources of each agency are complementary to each other. This combined 
investigation by three Federal agencies will far exceed any effort that 
could have been accomplished alone by any one of the agencies. This 
completes my statement. I will be pleased to answer any questions you 
may have.
                               __________
Statement of Jane K. Stahl, Deputy Commissioner, Connecticut Department 
                      of Environmental Protection
    Good morning. My name is Jane Stahl and I am the Deputy 
Commissioner of Environmental Protection here in Connecticut. I'd like 
to thank the Committee for this opportunity to discuss the State's 
mosquito management program and its interest in this issue.
    The mosquito issue in Connecticut has generally had two components: 
one the nuisance factor and, two, the thankfully never realized human 
health issues associated with mosquito-borne disease. Until this past 
season, the disease of concern has been Eastern Equine Encephalitis 
(EEE); and as we are here today to recognize, we now need to be 
similarly concerned about West Nile or a West Nile-like Encephalitis 
(WNV). Recent findings notwithstanding, it is still fair to say that 
the risk of EEE or WNV transmission to humans is low. However, we need 
to review our understanding of that risk, evaluate our approach to 
comprehensive mosquito surveillance and control, and adjust our program 
as necessary.
    Organized mosquito control in Connecticut began in 1902 in response 
to hundreds of malaria cases reported from many coastal communities. 
The program was part of the Connecticut Agricultural Experiment Station 
(CAES) in New Haven. Operational control of mosquitoes consisted of 
hand ditching of tidal wetlands for drainage and application of 
pesticides and oils to kill mosquito larvae. Systematic ``grid-
ditching'' climaxed in the early 1930's with the formation of the 
Civilian Conservation Corps. Some 90 percent of original Atlantic coast 
tidal wetlands from Maine to Virginia were altered in this fashion.
    The virus that causes Eastern Equine Encephalitis (EEE) was first 
identified in 1938 in Massachusetts, although horse and human deaths in 
the region symptomatic of this disease had occurred prior to the 
isolation of this virus. Outbreaks of EEE have occurred sporadically 
among horses and domestic pheasants in Connecticut since 1938 but no 
human cases nave ever been confirmed. In 1949, the mosquito control 
responsibilities were transferred to the Department of Public Health 
(DPH) primarily to maintain the tidal grid ditch network. With the 
advent of environmental awareness in the 1970's and 1980's, mosquito 
control evolved into a more natural resource oriented, 
interdisciplinary program coordinated with wetland and watercourse 
management. Because of this progressive approach to mosquito 
management, when in 1993 the Mosquito and Vector Control Section was 
eliminated from the DPH due to budgetary constraints, it was 
transferred to the Department of Environmental Protection (DEP) to 
function as a wetlands restoration unit. In 1996,with the 
identification of high incidence of EEE in human-biting mosquitoes in 
southeastern Connecticut, the DEP along with the Connecticut 
Agricultural Experiment Station (CAES) and DPH responded on an 
emergency basis. The following legislative session under the leadership 
of Governor Rowland and then Commissioner Holbrook, state funds were 
appropriated to institute and support the current Mosquito Management 
Program.
Connecticut's Approach to Mosquito Management
    The state's Mosquito Management Plan is a public health-based 
monitoring and management collaboration involving the DEP, the CAES, 
and the DPH, which includes the systematic monitoring of mosquito 
breeding populations; monitoring the prevalence of disease within those 
populations; application of pesticides to control populations; 
communication and provision of technical assistance to municipalities 
regarding mosquito control. The program is coordinated by the DEP which 
is responsible for the systematic identification and monitoring of 
mosquito breeding sites, the provision of technical assistance to 
municipalities and private property owners regarding mosquito control, 
and the collection and communication of information and data. Long term 
mosquito breeding site management occurs through DEP's wetland 
restoration program.
    The CAES, in consultation with DEP, identifies the locations for 
traps, conducts the trapping, identifies mosquitoes by species and 
conducts arbovirus testing. Trapping has been conducted in areas known 
or suspected to support mosquito populations which have historically 
tested positive for EEE, are capable of supporting such populations, or 
are proximate to locations where EEE-related horse deaths have 
occurred. Additional trap sites were established this past season in 
response to the identification of WNV and will inform the 
identification of additional trap sites this coming season.
    The DPH reviews all mosquito test data and consults with the DEP 
and CAES regarding the epidemiological significance of such results. 
Based upon its evaluation of the potential human health risks, DPH 
advises as to appropriate personal, municipal, and state actions to 
reduce such risks. DPH also maintains direct communication with local 
health directors and the state veterinarian as necessary to evaluate 
and advise on mosquito borne disease issues. This season, DPH played an 
active and invaluable role as the State's liaison with neighboring 
state's health departments as well as the CDC.
Increased efforts in response to West Nile virus
    This summer when human cases of West Nile virus were detected in 
New York City, the Mosquito Management team immediately responded. 
Working together and guided by our Eastern Equine Encephalitis 
Contingency Plan, with ad hoc modifications based upon the breaking 
revelations of the new virus, this team

    <bullet>  identified and implemented the strategic deployment of 
additional mosquito traps to augment existing traps and track the 
existence of this mosquito borne virus in lower Fairfield County;
    <bullet>  determined appropriate locations and methods of spraying 
adulticide and applying larvicide to control mosquito populations while 
minimizing any adverse impacts of pesticide application;
    <bullet>  conducted the spraying of a low toxicity, narrow band 
pesticide specifically targeted to mosquitoes and sprayed to maximize 
reduction of potential reservoirs of virus;
    <bullet>  established an effective communications system with all 
local officials simultaneously to advise and consult on all actions 
affecting their communities and to effectuate communication with the 
public;
    <bullet>  maintained continuous communication with the Federal 
Centers for Disease Control (CDC) and neighboring state officials;
    <bullet>  established a protocol for the collection and sampling of 
dead birds associated with the virus

    It is important to note that because we had an existing monitoring 
and surveillance program already in place, we were able to be 
responsive rather than reactive. We relied on the data provided by the 
additional population monitoring to guide our decision as to where to 
conduct spray operations to provide the most control with the least 
risk to human health. Moreover, because of the scientific data 
available, we were able to make the decision to ground spray vs. aerial 
spray, further reducing the potential exposure of humans to pesticides.
Looking towards the Future
    Towns in lower Fairfield and New Haven counties have expressed deep 
concern about West Nile virus and would like to see continued and 
additional efforts made to prevent any public health threat. 
Traditionally, the southwestern corner of Connecticut has had little 
arbovirus activity because it is highly urbanized. However, West Nile 
virus appears to be an urban disease; the primary vector (Culex 
pipiens) is an urban mosquito and both have been found in the most 
densely populated area of the state.
    At a recent conference, the CDC indicated that an intensive 
monitoring program for WNV should be undertaken in this upcoming year 
and should include monitoring of the crow population (as a sentinel), 
monitoring of the human population and increased monitoring of the 
mosquito population. Also, monitoring of larval mosquito populations 
and preventative control through education, source reduction and the 
use of larvicides would reduce the adult mosquito vector population and 
potentially reduce the need for and extent of adulticides. 
Connecticut's team of experts is reviewing these recommendations and 
evaluating the efficacy of their implementation. The DEP has and will 
continue to provide technical assistance to towns and can increase 
operational mosquito control efforts in southwest Fairfield County. We 
are also aware of the concerns regarding increased pesticide use and 
are committed to continue our practice of a reasoned, measured response 
to the mosquito borne disease issue as well as a continued evaluation 
of pesticide usage.
    All this must be done while maintaining the program of mosquito 
trapping and testing throughout the state. EEE remains a concern in our 
region and we cannot forsake this effort.
    There is the potential for Federal action in two areas. First, we 
look for the continued support and encouragement of the CDC and the 
National Wildlife Disease Center. The continued participation of the 
CDC in evaluating the health risks associated with mosquito-borne 
viruses and its assistance in public information and outreach regarding 
those risks provides a voice of expertise and credibility beyond that 
which individual states may be able to provide alone. Second, here in 
Connecticut we rely on wetland and habitat management as a natural 
mosquito management tool. Additional Federal resources and support of 
our wetland restoration program would also be most welcome and could 
provide direct benefits to coastal communities beyond those associated 
solely with reduced mosquito populations.
                               __________
 Statement of Paul R. Epstein, M.D., M.P.H., Center for Health and the 
               Global Environment, Harvard Medical School
Encephalitis: can we prevent the next outbreak?
    The means by which the virus causing mosquito-borne encephalitis 
entered the New York region in the fall of 1999 are not known. But the 
climatic conditions favoring diseases that cycle among birds, urban 
mosquitoes and humans are well understood, and there are important 
lessons to be drawn from this emerging disease and its association with 
climate variability and change.
    Overall, we are in the midst of an emergence of new diseases and a 
resurgence and redistribution of old diseases occurring on a global 
scale. Since the mid-1970's the World Health Organization records the 
emergence of over 30 infectious diseases, including Legionella, HIV/
AIDS, Hantavirus Pulmonary Syndrome, Ebola, toxic E. coli (0157:H7), a 
new strain of cholera, and a host of antibiotic-resistant organisms. In 
this decade malaria cases have quadrupled and local transmission has 
reappeared in northern US States, Canada and Europe. The issue of 
emerging infectious diseases is receiving serious attention from the 
Institutes of Medicine, the Centers for Disease Control and Prevention 
and the U.S. State Department.
    In the New York area, the mosquito population explosion ushering in 
West Nile-like viral encephalitis came as a ``surprise.'' But mild 
winters and summer dry spells favor breeding of city-dwelling 
mosquitoes (Culex pipiens), while extended droughts kill off their 
predators. The prolonged July heat wave may have amplified the virus 
maturation and circulation among mosquitoes and congregating birds, 
while late August rains unleashed a new crop of Aedes mosquitoes, that 
may have acted as an additional ``bridge'' vector to humans.
    West Nile virus may have recently evolved in strength, as it has 
not previously killed birds in such numbers. Meanwhile ``generalist'' 
urban birds--crows, Canada Geese and gulls--are out-competing the more 
sensitive ``specialists,'' that are losing their more restricted 
ecological niches. The generalists--with wide ranging diets--may, in 
general, be more tolerant to disease agents, thus more apt to maintain 
blood levels that favor disease transmission.
    Warm winters are associated with climate change. A warming 
atmosphere holds more moisture, and the increase in clouds blocks 
nighttime and winter cooling. More precipitation in winter falling as 
rain, rather than snow, reduces snowpack, spring runoff, exacerbating 
spring droughts projected for the Northeast region of the United 
States. Enhanced evaporation from warming seas also raises humidity and 
heat indices, fuels hurricanes and reinforces greenhouse warming.
    With an increase in the hydrological (water) cycle, protracted 
droughts, heat waves and intense, tropical-like downpours are also 
associated with warming of the atmosphere and the world's ocean.
    This decade, the International Federation of Red Crosses reports 
that extreme weather events have been especially punishing for poor 
nations, often spawning ``clusters'' of mosquito-, water-, and rodent-
borne diseases in their wake. Severe weather has also been costly. The 
Munich Reinsurance Company calculates that weather-related losses 
(increasingly intense weather compounded by development patterns) 
exceeded $90 billion in 1998, eclipsing the $55 billion for all of the 
1980's.
    This summer New York suffered acutely from extreme weather. The 
July heat wave strained the distributive capacity of the energy grid, 
and the loss of key medical research at Columbia highlighted the need 
for reliable generators, such as fuel cells. On August 26 an intense 
downpour carried farm waste into the underground aquifer supplying the 
Washington County Fair, resulting in 1061 cases of toxic E. coli 
infection and several deaths. Encephalitis, with its economic and 
psychological sequelae, was the final assault.
    There are important lessons to be gleaned from this outbreak:

    <bullet>  Basic disease and sentinel species surveillance must be 
strengthened.
    <bullet>  Collaboration between wildlife ecologists and human 
health investigators must be forged, for many emerging diseases are 
transferred from animals.
    <bullet>  Forests and wetlands must be preserved, for these 
habitats maintain the biodiversity that provides primary prevention 
against pest and pathogen proliferation, and buffer against climate 
extremes.
    <bullet>  Health early warning systems based upon knowledge and 
projections of conditions conducive to disease outbreaks can help 
target surveillance.

    Early warnings can facilitate timely, environmentally friendly 
public health interventions, such as selective treatment of mosquito 
breeding sites, in lieu of wide-scale dissemination of pesticides.
    <bullet>  This outbreak also serves warning that diseases emerging 
and evolving elsewhere--chiefly from poverty and environmental 
degradation (e.g., deforestation)--can come home to haunt us.
    <bullet>  And finally we have learned that the US is also 
vulnerable to extreme weather that can trigger epidemics. An 
increasingly unstable climate, with wide swings from norms, provides 
conditions favorable to disease emergence and spread.
    While this epidemic has raised the necessity of strengthening 
surveillance and laboratory capability in order to prepare for the 
potential of biological terrorism, we must confront the enemy we know: 
the growing ecological and climatic vulnerabilities encouraging the 
reemergence of infectious disease. This resurgence, in the final 
quarter of the 20th Century, may be viewed as a symptom of global 
change--social, ecological and climatic. And sadly, we must prepare for 
more surprises.
    Environmental cleanup, ecological restoration, clean energy sources 
and energy efficiency can become guiding principles. Clean energy 
sources (fuel cells, solar, wind and hybrids) can power transport, 
industry and housing, and can pump, purify and desalinate water. Such 
enterprises can become the engine of economic growth in the coming 
decades.
    Ultimately we must shed inherited economic obstacles (perverse 
subsidies and unpayable debts) and adopt new incentives and new funds 
to create a ``win-win'' for the environment and the economy. Only then 
we will reverse the environmental assaults on public health and achieve 
clean, equitable and healthy development in the century before us.
                               __________
         Department of Public Health, State of Connecticut,
                                                 December 23, 1999.

The Honorable Joseph Lieberman,
Senate Hart Office Building,
Washington, DC 20510.

Dear Senator Lieberman: I am writing to submit formal testimony from 
the Connecticut Department of Public Health (DPH) to the United States 
Subcommittee on Environment and Public Works Regarding the West Nile 
Virus. This testimony is being submitted in conjunction with the 
Committee hearing held at Fairfield University on December 14, 1999.
    Two Connecticut State agencies with which the Department of Public 
Health closely works on vector-borne illnesses presented oral and 
written testimony at the hearing on December 14. They are the 
Department of Environmental Protection and the Connecticut Agricultural 
Experiment Station. I will not reiterate their testimony. Rather, I 
will provide the Connecticut public health perspective on preparedness 
for and resources used in the initial response to the threat to human 
health posed by the presence of West Nile virus, and a perspective on 
what will be necessary to monitor for and respond to its likely re-
emergence.
    I am the Director of the Infectious Diseases Division at DPH and in 
that capacity am the designated State Epidemiologist. Connecticut is 
one of eight States that currently receives specie' Federal funding to 
conduct surveillance for emerging infections and has received Federal 
funding for bioterrorism preparedness. I am the project director for 
Connecticut for both of these Federal cooperative agreements.
Preparedness for and Response to West Nile virus in Connecticut, 1999
    As the Committee has already heard, Connecticut had a state-funded 
surveillance system for mosquito-borne viruses and a capacity and plan 
to respond to their presence that was already in place when it became 
apparent that West Nile virus was in the greater New York area. In 
fact, the Connecticut system contributed directly to the rapid 
recognition that the crow die-offs and outbreak of what was thought to 
be Saint Louis Encephalitis (SLE) were related and due not to SLE 
virus, but to West Nile virus. Having this pre-existing system made it 
possible to quickly direct some of those resources to the parts of 
Connecticut likely to be initially affected, to rapidly determine the 
potential risk to humans and to have an information-directed response. 
Without this information, it is likely that our response would have 
been filled with extreme anxiety and highly conducive to over-
reaction--and we would not have the kind of information that will help 
with future assessment of risk from the presence of West Nile virus.
    However, several additional critical capacities were also mobilized 
and integral to the Connecticut ability to respond to West Nile virus: 
capacities fostered by regional bioterrorism preparedness and by 
federally supported emerging infections capacity. Functional regional 
communication systems had already been established as part of 
bioterrorism preparedness: e-mail networks between State 
epidemiologists, mass conference call capacity and, in New York, a 
confidential electronic health alert network. Connecticut was informed 
immediately by New York City and New York State as soon as it became 
clear that there was an outbreak of mosquito-borne disease in New York 
City. Beginning in early September, New York organized daily regional 
conference calls including affected States, counties and the Centers 
for Disease Control to discuss the breaking situation. Everything that 
was being learned about the situation was shared. Because of the 
incredible communication, we were able to intelligently communicate 
with hospitals, local health departments and the public and to rapidly 
establish intensive surveillance for human illness. We were able to use 
our own developing in-state systems to rapidly share information with 
local health departments and hospitals. If we had not begun to 
establish such communication systems, the mobilization would not have 
been as quick, the response not as coordinated and we would still be 
groping for unpublished information that was shared during this time. 
The communications aspects of the response to West Nile virus in 1999 
are a real success story. I think Congress can be proud that they have 
recognized a need to support development of national and state-based 
communications systems as part of the preparedness to respond to 
bioterrorism--and that these communication systems can be used 
effectively in a variety of situations.
    Connecticut's Emerging Infections Program was also very involved in 
the response to West Nile virus. Among other things, we used hospital-
based networks established for surveillance of unexplained deaths and 
life threatening illness to conduct more active surveillance for people 
admitted with possible encephalitis. In addition, the professional and 
public demand for accurate information was insatiable. Because we had 
emerging infections ``surge'' capacity, we were able to devote 5 full 
time equivalent professional staff for 6 weeks to answering telephone 
calls from hospitals, physicians and local health departments to 
provide them with more detailed answers to questions they had. Emerging 
infections surveillance and response capacity is invaluable and enables 
us to respond in much more depth to such situations.
Monitoring for and Responding to West Nile Virus in 2000
    There is a high probability of West Nile virus becoming established 
in the Western Hemisphere. Dr. Robert McLean from the USGS National 
Wildlife Health Center testified on December 14 as to the possible 
scenarios for the emergence of West Nile virus in 2000. It is critical 
that we monitor for the re-emergence of West Nile virus in a variety of 
ways that anticipate each of these scenarios. If we have information 
about West Nile virus (or any other mosquito-borne threat to human 
health) early, before the virus cycle in birds and mosquitoes builds up 
to levels that threaten human health, we can take action to prevent the 
kind of outbreak that occurred in New York City this past fall.
    Early detection of the re-emergence or re-introduction of West Nile 
virus will require special surveillance efforts, even in States like 
Connecticut that already have a significant capacity to conduct 
surveillance for arboviruses. Surveillance for West Nile virus will 
require an extra component that is different than that used for any 
other kind of mosquito-borne disease surveillance system--namely, 
surveillance for dead crows. Such a system will be resource intensive: 
staffing is needed to monitor crow deaths, to collect crows and to test 
them for West Nile virus. If West Nile virus is found, intensive local 
mosquito trapping and surveillance for human and horse illness will 
then be needed. At this stage, there will be a huge public demand for 
information similar to what we had this past fall in Connecticut. Thus, 
each State in the eastern half of the United States where West Nile 
virus is most likely to re-emerge or be reintroduced, needs to have 
resources dedicated to early detection of West Nile virus. For States 
without arboviral surveillance programs and without significant 
epidemiologic and laboratory surge capacity, this will be a formidable 
challenge. Even for those with such capacity, it will be a challenge to 
implement and maintain such a system for the 6-7 months during which 
there is mosquito activity each year. Given that this is an emerging 
challenge affecting a large number of States, Federal support may be 
needed to enable a widespread surveillance network for this critical 
next year.
    Thank you for the providing an opportunity to comment on the West 
Nile virus situation. If you have any questions, I can be reached at 
the Department of Public Health at: 860-509-7995.
            Sincerely,
               James L. Hadler, M.D., State Epidemiologist,
    Infectious Diseases Division, Connecticut Department of Public 
                                                            Health.
                               __________
            College of Agriculture and Natural Resources,  
                                 University of Connecticut,
                                     Storrs, CT, December 27, 1999.

Senator Joseph Lieberman,
Hart Senate Office Building,
Washington, DC 20510.

Dear Senator Lieberman: I recently attended your December 14 hearing on 
the occurrence of West Nile virus in Connecticut during the fall of 
1999. I write today with additional information that you may find 
meaningful.
    During his testimony Dr. Andreadis of the Connecticut Agricultural 
Experiment Station spoke of three State agencies that collaborated 
during the surveillance. We, at the University of Connecticut, 
represent the fourth agency, the pathologists who received over 300 
birds for necropsy and diagnosis, and who selected brain tissues for 
attempts at virus isolation. The now famous ``Westport crow'' was 
collect at our request after an alert from a New York colleague, and 
tissues were later forwarded to Ted Andreadis consistent with a pre-
arranged liaison within the mosquito surveillance program. During the 
bird die-off, Drs. Wakem, French, Garmendia and I did the dissections 
on the submitted birds, four fifths of them crows, but including hawks, 
owls, and a great variety of backyard birds.
    We continue to do microscopic, virologic and electron microscopic 
studies in an attempt to wrap up this extensive case material. One of 
the difficulties we have encountered is the lack of funds to 
immediately and effectively deal with these great numbers of cases 
within an epidemic. We have an immediate and continuing need to pay a 
full-time technician to enter data into a spreadsheet, to process 
tissues for microscopy and to aid with new accessions, that continue to 
come to us even in December. Further, there is an immediate need for us 
to upgrade an existing laboratory from biohazard level 2 to biohazard 
level 3. At our present rate we will not complete our case studies for 
another 10-12 months, meaning that the data fail to be timely, for 
everyone's purposes.
    I have been a member of the mosquito surveillance team for 3 years 
and I have participated in USDA-sponsored symposia that plan 
preparedness. At these sessions money is never set aside for rapid 
response. During the 1999 episode three of us worked day and night to 
deal with the birds. We had to come away from our other research, which 
we didn't mind, however there was inadequate technical support to make 
our chores easier, less time-consuming, and more efficient. We 
repeatedly had to borrow graduate students to help, a half-day here, a 
half-day there. I write not to say that we or they minded helping, but 
rather to ask now for funds to finish the work and to be properly 
prepared for the spring recurrence, in whatever form that might be. In 
a general sense then, I write to suggest that moneys need to be placed 
in escrow to deal with new and emerging diseases, and in a specific 
sense to ask for immediate moneys for the winter 2000 effort--to finish 
the epidemic of 1999. We have evidence that West Nile fever extended 
beyond Fairfield and New Haven counties and certainly beyond the 
artificial cutoff for submission of birds (Nov.S) initiated by the 
Department of Public Health and the DEP.
    Thank you for your consideration.
            Sincerely,
                  H. J. Van Kruiningen, D.V.M., Ph.D., M.D.
      Director, Northeastern Research Center for Wildlife Diseases.
                               __________
                       Donald R. Maranell, First Selectman,
                      Stonington, CT 06378-0352, December 22, 1999.

Senator Joseph Lieberman,

Subject: Public Clearing Comments for Encephalitis diseases borne by 
Mosquitoes

    Attached is my testimony of January 31, 1997 to the members of the 
Connecticut Environmental Committee in support of bills that enacted 
the State of Connecticut's Mosquito happing and testing program after 
an outbreak of BEE in the mosquito population in Rhode island ``d 
Connecticut in the summer and fall of 1996.
    It is appropriate to educate the public and I support your efforts 
but we also need to do more. If not for Rhode Island's in place program 
in 1996, our first indication of trouble could have been tragic. This 
year, we were able to identify the cause of a health emergency due to 
the program enacted as a result of our 1996 experience. We, as 
Americans, should not have to depend on the actions of others to make 
us aware of health threats that are caused by insects and birds that 
ignore town, county and State boundaries. This is a national issue and 
interest. I support public awareness but urge you to investigate the 
creation of a national standard and a program that monitors, informs 
and controls diseases such as encephalitis in any of its deadly forms.
    Thank you for your interest. The Town of Stonington and I stand by 
to assist your efforts In any way we can.
                               __________
    Statement of Donald R. Maranell, First Selectman, Stonington, CT
     support of senate bills 175/179/583 and house bills 5192/5822
    I stand here today in support of Senate Bills 175/179/583 and House 
Bills 5192/5822. As I am sure you are all aware, the Town of Stonington 
was the first Connecticut community to deal with the mosquito-borne 
Eastern Equine Encephalitis situation in September 1996. During this 
time, our residents were subject to restricted outdoor activity, the 
wearing of long sleeves/pants, altered school schedules, sprays, the 
onslaught of the press and the negative effects this type of news has 
on children, families and tourism-type businesses.
    On September 24, 1996 Governor Rowland announced his intention to 
propose a $850,000 mosquito control program to the Southeastem 
Connecticut Council of Governments at Stonington Town Hall. It is my 
understanding this program was to include larvaecide and adulticide 
mosquito control, monitoring and wetlands restoration. I hope today is 
step one of fulfilling that promise to the residents of Connecticut.
    These bills are not only a human health issue but, also an economic 
health issue. Southeastern Connecticut is mayor tourist attraction In 
fact, over 60 percent of all Connecticut tourists stop in Mystic (a 
section of the Town of Stonington). We cannot afford to allow our 
residents to tolerate this health-threatening problem and cannot allow 
the economy to suffer from inaction.
    We were lucky. Commissioners Sidney Holbrook (DEP), Steve Harriman 
(DPH) and our talented and dedicated State employees were up to the 
task. They should be commended for their efforts. I know I will always 
be grateful for the support we received from them.
    I hope the final program you support includes preventive measures 
and monitoring, not just monitoring and reaction. As a society we have 
chosen to preserve the environment. That comes with responsibilities. 
Not only to society but, to the Earth. Wetlands restoration funding is 
probably one of the key issue in this program. If Barn Island (a State 
Preserve in Stonington) and other protected areas are allowed to become 
or remain the ``mosquito farms'' they are when stagnate water is 
allowed to exist, this program will be very expensive to maintain. We 
must invest in our wetlands. Many of our older residents remember when 
the State would dig trenches to encourage water flow in the Barn Island 
and salt marsh areas. Please don't stop short, we must commit to a 
comprehensive program that protects our residents, removes fear from 
our population, protects the environment, and assists in the economic 
health of our State.
                               __________
 Statement of Nancy Alderman, President, Environment and Human Health, 
                       Inc. \1\, North Haven, CT
---------------------------------------------------------------------------
    \1\ Environment and Human Health Inc. is a nonprofit organization 
made up of doctors, public health professionals and policy experts, 
committed to protecting the public from environmental harms through 
research, education, and the promotion of sound public policy.
---------------------------------------------------------------------------
    The presence of the West Nile Encephalitis virus this fall in the 
tri-State area raised several concerns for the future. As winter 
approaches and the health hazard subsides, it is important to take 
advantage of this time to gain a broad-based understanding of the 
disease, and find the safest way to prepare for a re-emergence of the 
virus.
    There are both serious health and ecological concerns to be 
understood. The Senate hearing that was held in Connecticut this past 
December showed clearly that preparation by the local communities as 
well as the States is essential if we are to avoid a major public 
health and environmental crisis next spring.
    There are dangers from under- as well as over-reaction. Connecticut 
was fortunate in that there already was an infrastructure in place to 
deal with insect-borne diseases due to the past occurrences of Equine 
Encephalitis that had occurred in both Connecticut and Rhode Island.
    However, next spring we must be prepared for a more serious 
outbreak of insect borne diseases, and therefore we need to plan now 
with our neighboring States. We also need to encourage public health 
officials to make their decisions in a transparent way. The 
transparency of decisions is needed in order to promote public trust.
    It is vitally important for those that are in charge of managing 
the West Nile Virus be aware that State health agencies over the last 
decade have been ``down-sized'' due to economic constraints, and this 
``downsizing'' has left the environmental and public health agencies 
with limited experienced staff and resources. These resources are 
needed to address a crisis of this magnitude.
                    a: coordination and credibility
    1. Co-ordination among neighboring States.
    a. Co-ordination with NY, NJ, RI and CT is vital. All States should 
use the least toxic pesticide possible and should disperse that 
chemical in the least harmful way. Risk of disease and risk of 
pesticide must be weighed carefully.
    b. Precautions for pesticides are different for different 
pesticides. There is potential for the public to become confused about 
advice given if this advice is not coordinated.
    c. Because the media often covers more than one State, it is 
essential that information is coordinated, especially if different 
management approaches are taken. It will be important to communicate 
why and how the States' approaches are different.
    2. Credibility needs to be ensured by the political and health 
entities at the Local, State and Federal level. If there are 
conflicting messages it will reduce the public's confidence and 
support.
    a. An infrastructure is needed to address problems such as the West 
Nile Virus. Local experts from both the environmental fields and the 
public health arenas can add perspective to the issue. Health care 
providers need to be aware of potential health problems that can arise 
from both the virus and also from the use of pesticides. Communities 
and grassroots organizations can be important outreach mechanisms. With 
proper funding and access to resources, they can help to get the word 
out to the public.
    b. A technically expert support group is needed at the regional 
level to address the redundancy of effort at the local levels and to 
enhance the distribution of information and interaction of local 
staffs.
    The regional EPA's relationships with State and local governments 
is one model that can be looked to.
                             b: ecological
    1. Pesticide applications.
    a. Recordkeeping of pesticide use must be kept. The information of 
how, where, and how much materials are applied is necessary in order to 
address the ecological impacts.
    b. Standards need to be set for selecting those companies and staff 
who are hired to spray pesticides.
    c. We must evaluate and document the effects on the ecology of the 
region when widespread use of pesticides has been undertaken.
                            c: public health
    1. Adequacy of information.
    a. Information should be geared toward the most sensitive of 
populations as opposed to the general population.
    b. Because we are a multi-cultural population, information should 
be prepared in additional languages.
    c. The public needs to have an honest evaluation of the relative 
health risks of decisions made, as well as complete advice on what 
precautions to take for the protection of themselves and their 
families.
    2. Misuse of the mosquito repellent, DEET
    a. There is a great potential for parents and care givers to misuse 
DEET. DEET is a neuro-toxin and should be used carefully and never on 
children under 2 years of age. Coordination and expansion of good 
information about DEET is needed in order to reach a wider audience 
that includes children and their care givers.
    b. In a crisis such a vector-borne disease, there is the potential 
for the public to misuse other pesticides as well as DEET. Sound advice 
with pesticide use health implications needs to be made available.
    While the Senate Committee focuses on the environmental impact of 
the disease and spraying, those managing the problem cannot divorce 
themselves from the public health implications associated with its 
environmental management.
                               __________
  Statement of Andrea L. Boissevain, M.P.H., Health Risk Consultants, 
                             Fairfield, CT
Ecological and Public Health
    This Fall's West Nile Encephalitis virus presence in the tri-State 
area raises several concerns. As winter approaches and the health 
hazard subsides, it is important that a broad-based understanding of 
the issues be sought.
    The health and environmental agencies of Connecticut, New York, and 
New Jersey are to be commended in their response to the potential 
health crises. However, this coming spring, when the mosquitoes and 
other vectors again become active, the region should be prepared on 
both the public health and the environment fronts.
    Environmental and public health responses need to be coordinated. 
There are both serious health and ecological concerns. We raise but a 
few of them here today:
                             a. ecological
    1) Pesticide application.
    a) Is there record keeping in place of how, where, and how much 
material was applied? This will be necessary in order to address 
ecological impact.
    b) What are the criteria in selecting those who spray?
    c) We will need to evaluate the widespread use of pesticide and its 
effect on the ecology of the region.
    2) Coordination among three States (CT/NY/NJ).
    a) Precautions are different if malathion is used versus 
resmethrin. There is the potential for the public to become confused.
    b) Because the media is tri-State, it is essential that information 
is coordinated especially if different management approaches are taken. 
It will be important to communicate why and how the approaches are 
different.
    3) Study Issues.
    a) Recommend an ``expert'' panel to assess effect of outdoor 
pesticide application (e.g. lawn grooming) and how that may affect 
biological balance of mosquito growth cycles.
                            b. public health
    1) Adequacy of information campaign--especially next spring.
    a) Equity in information and in dissemination. Information should 
be prepared in additional languages because we are a multi-cultural 
population.
    b) Clear warnings not just for the general population. Information 
should be geared toward sensitive populations as well (e.g. potential 
for anti-cholinergic drug interactions is of greatest concern such as 
some medications used to treat glaucoma).
    c) The public needs a perspective on health risks as well as what 
precautions to take for their children and themselves.
    2) Misuse of the mosquito repellent, DEET.
    a) There is a great potential for parents and caregivers to misuse 
DEET--another aspect of adequate information campaign. This is the most 
immediate health hazard. There are health education programs in CT and 
NY that are designed to inform regarding the use of DEET in the 
prevention of ticks and tick-borne diseases. There needs to be 
coordination and/or expansion of these programs with mosquito-focused 
campaigns in order to reach the wider audience that includes children 
and their caregivers.
    While this committee focuses on the environmental impact of the 
disease and spraying, those managing the problem cannot divorce 
themselves from the public health implications associated with the 
environmental management. Furthermore, it is imperative that health 
information be provided by health agencies, not only the Department of 
Environmental Protection.
    An infrastructure needs to be created to address problems like this 
one where we could benefit from hearing from local experts from both 
environmental and public health perspectives. Communities and 
grassroots organizations can be a great outreach mechanism. With proper 
funding and access to resources, they could really help to get the word 
out.
                               __________
Statement of Thomas R. Baptist, National Audubon Society, Greenwich, CT
    Thank you for your interest and leadership regarding insecticide 
spraying to control mosquito-borne illnesses, such as the West Nile 
Virus that occurred in Connecticut and New York this summer and fall. I 
appreciate the opportunity to provide comments relating to this 
important matter.
    As you are aware, this is a complicated issue, and one that goes 
far beyond the short-term goal of eradicating the infected mosquitoes 
and preventing the spread of a potentially fatal disease. On the one 
hand, it seemed clear that pesticide spraying was the only known short-
term response to limit the spread of disease when it was discovered 
this summer and fall. On the other hand, the widespread spraying raises 
serious questions about the long-term implications of insecticides in 
the environment.
    The impact on our natural systems received little attention during 
the course of the field hearing in Fairfield last week. It is critical 
that ecological and environmental health issues be carefully 
considered, in addition to the public health conccms, as we move 
forward to establish a comprehensive mosquito management program.
    Here in Connecticut, our State officials deserve praise for their 
cautious approach in developing a response to the presence of the West 
Nile Virus in mosquito and bird populations. State health and 
environmental officials sought input from scientists, evaluated what 
our neighbors to the west were doing in the face of similar threats, 
and came up with a reasonable and effective approach. After careful 
research and evaluation, Connecticut's response included ground 
spraying of Scourge, with the principal ingredient of Resmethrin rather 
than aerial spraying of Malathion--the approach used in New York.
    Ground spraying allows better control, allowing the spray to be 
more effectively targeted at problem areas. Resmethrin is known for its 
low toxicity and short persistence in the environment. It is intended 
to control adult mosquitoes, midges and black flies. In humans, it is 
harmful if absorbed through the skin or if swallowed. However, for 
humans and house pets, it is fairly simple to avoid exposure by staying 
indoors while spraying is occurring, closing doors and windows, turning 
off air conditioners and fans, and preventing children and pets from 
playing in areas that are still wet from spraying. For all other fish 
and wildlife, the answers are not so simple.
    According to the manufacturer's information, Scourge is highly 
toxic to fish. If large fish kills were to occur, the effects would be 
felt all the way up the food chain, with possible implications for the 
overall health of the environment in our communities.
    Like the canary in the coal none, birds sounded the early warning 
of the presence of the enchephalitis threat. The death of crows, which 
apparently host the virus that causes the disease, early this summer 
served as a biological indicator that something was amiss. This 
underscores the important role that native bird populations and other 
fish and wildlife species play as indicators of environmental and human 
health, and provides a rationale for continued close monitoring of bird 
populations.
    With the advent of the cold weather, the mosquito populations have 
diminished, and the immediate threat appears to be over. But, as Dr. 
Fish pointed out, it is quite likely that the threat will resurface 
next year and we will again find ourselves facing a crisis situation. 
Whatever the actual level of risk, there will undoubtedly be huge 
public demands for continued mosquito control next year.
    What should we be doing between now and then to ensure long-term 
public and environmental health protection?
    Federal, State and local agencies should institute active 
monitoring programs, similar to that which is in place here in 
Connecticut, to assess the level of threat. The existing mosquito 
control program in Connecticut should be enhanced to allow officials to 
carefully focus insecticides on problem areas, rather than employing 
more handful broadcast spraying. However, in all cases, spraying of 
pesticides should be the method of last resort to control mosquito-
borne illnesses. Adequate resources should be provided for Federal, 
State local agencies to identify and carefully examine mosquito problem 
areas, and specific action plans should be developed to correct 
hydrologic conditions that are causing infestations.
    In many cases, mosquito problems are the result of human impacts on 
our wetland systems, and restoring wetlands and waterways to a more 
natural condition can help restore Nature's own mosquito control 
processes. For example in a healthy tidal wetland system, fish eat 
large numbers of mosquitoes and their larvae, helping to control insect 
populations. Wherever tidal flow has been restricted or wetlands have 
been dammed, ditched, filled or otherwise impacted, this natural 
balance may be disrupted.
    Over the past decade, the Connecticut Department of Environmental 
Protection has been working to restore key wetlands. The agency has 
restored approximately 1,800 acres of salt marsh along the Connecticut 
coast, including wetlands at Barn Island in Stonington, the Last River 
in Guilford and Madison and Sliver Sands State Park in Milford. This 
common sense approach--which protects human health, our feathered 
friends and all other fish and wildlife--should be expanded, and 
consistently applied as the most effective long-term solution to our 
mosquito ills. In addition, adequate funding is needed for research lo 
help identify other means of preventing the threat of mosquito borne 
illness in this country.
    Again, thank you for the opportunity to provide comments in this 
important matter. My staff and I stand ready to assist in any way we 
can to prevent human illness from mosquito borne disease while 
protecting the health of our environment and precious natural 
resources.
                               __________
Statement of Lisa Santacroce, Environmental Affairs Office, Connecticut 
                            Audubon Society
    I attended your hearing last week in Connecticut on the West Nile 
virus and I am very pleased to see your attention to this issue, and 
particularly your foresight in trying to address this issue before it 
escalates into a crisis next summer. From the testimony presented, this 
is certainly an issue where being proactive can make a difference.
    The hearing was very helpful in learning more about this virus and 
the mosquitos that transmit it. Connecticut Audubon is concerned about 
the potential impact in native bird populations, but it is clearly too 
early to tell what those impacts might be. We are also concerned with 
large scale pesticide applications in terms of their impact on human 
health and the environment.
    We were very pleased to see, based on DEP Commissioner Stahl's 
testimony, that Connecticut exhibited a much more measured and 
deliberate response to the West Nile virus outbreak than New York. New 
York instituted broad aerial-spraying of malathion, which is a very 
toxic pesticide, without any knowledge of where the infected mosquitos 
were concentrated. Granted. they did have human fatalities due to this 
outbreak while Connecticut did not have a human case at all. Our 
response was ground spraying in the areas where infected mosquitos had 
been located (due to trapping).
    We are pleased that our State's experience with the EEE virus led 
to the development of an action plan to deal with mosquito-borne 
viruses and this plan will serve us well as these threats continue to 
develop. However, we would like more information about the actual 
pesticides being used and any toxic impacts they may have. We would 
also like to know exactly what the DEP's response hierarchy is in terms 
of how they make decisions about what pesticides to use and how and 
where they are applied. We think this kind of information should be 
readily available to the public and particularly elected officials. We 
were aware of chief elected officials in southwestern Connecticut who 
wanted aerial spraying and clearly did not feel that the DEP's efforts 
were adequate. We need to educate these officials and the public about 
exactly what the State's policies are and how they will be implemented. 
We believe this will go a long way to reduce the inevitable fear and 
anxiety that will surround this issue. Without this information we fear 
that the public will demand more radical solutions than are necessary 
and also detrimental to human health and the environment.
    Connecticut Audubon would also like to offer their support for any 
increase in funding for mosquito programs at the State and Federal 
level. Clearly, we could use increased funding for more trapping and 
testing of the mosquito population and to broadly disseminate 
information to the public on ways they can protect themselves and 
prevent the virus from spreading by controlling mosquito populations. 
We are also very supportive of the CT DEP's Open Water Marsh Management 
program as a natural method of mosquito control and would support 
increased funding for these efforts.
    We would also like to offer our services, and those of the birding 
community at large in Connecticut, to help locate and report incidences 
of dead crows or any other dead birds or animals. There is a large 
network of active birders in the State who are out in the field on a 
regular basis and we can educate them on what to look for and how to 
report it (birders tend to keep very good field notes!). We also 
participate in Federal bird banding activities in the spring and fall, 
mostly, along the shoreline. We could certainly take blood samples from 
the birds being banded and send them to the appropriate labs for 
analysis Connecticut Audubon and National Audubon plan to arrange a 
meeting with the DEP and Connecticut Agricultural Experiment Station to 
discuss ways we might be able to help monitor and track the virus 
through bird populations.
    Again, thank you for hosting a very informative session and 
providing a forum to learn more about this new health threat to 
Connecticut citizens. We appreciate your foresight in trying to develop 
a proactive solution before we see another crisis situation. We would 
be interested in more information about pesticide usage and seeing that 
information disseminated as widely as possible to the general public. 
And we are certainly eager to help, as stated above, in any way we can.
                               __________
    Statement of Diane Worden, The Nature Center for Environmental 
                     Activities, Inc., Westport, CT
    My concerns about the recent widespread application of pesticides 
are directly related to the work I am involved in at The Nature Center 
for Environmental Activities located Westport, Connecticut.
    I am sure you are aware of the time, energy and money that has been 
spent improving the water qaulity of the region's rivers and streams. 
More recently, the focus of funding sources has turned to habitat 
restoration projects for our local waterways.
    As a participant in the Norwalk River Watershed Initiative, I have 
seen the combined resources that the EPA, CT DEP, and local 
municipalities have brought together in this model project. The 
Initiative's Watershed Action Plan, being carried out in conjunction 
with local environmental organizations, has accelerated habitat 
restoration efforts in the Norwalk River basin, which includes 8 towns 
in central Fairfield County.
    As a monitor of migratory fish species in our local rivers, I am 
aware of the variety of life forms in the waterways. My own prior 
research into the downstream effects of pesticides on aquatic life 
brought the recent mosquito spraying to my attention.
    As you may know, the pesticide, Resmethrin, that was used in the 
Fairfield County ground spraying, is in a classification considered 
``Restricted Use'' by the EPA due to its toxic tendencies in the 
aquatic environment. The chemical, known as a pyrethroid, has a 
prolonged breakdown time in bodies of water, increasing its likelihood 
of causing problems, especially if repeated applications are made, as 
was done in Westchester County.
    While ground spraying from trucks along roadways provides for more 
controlled application of spray, it does not reach into the rear of 
large residential lots in towns like Westport with large lot zoning. If 
the point was to reach the majority of mosquitos, that did not happen.
    If aerial spraying was initiated for broader coverage, the smaller 
waterways and ponds could not have been avoided; and as the pesticide 
product label clearly states--application into water bodies should be 
avoided due to its toxicity. This was not a good scenario.
    An expanded monitoring program based on the CT DEP's existing 
mosquito management program for Eastern Equine Encephalitis with its 
emphasis on larval treatment will help prevent a repeat of this past 
season's situation.
                               __________
   Statement of Sue Reidman, Ecological Health Organization (ECHO), 
                               Hebron, CT
    I am writing on behalf of the Ecological Health Organization, a 
statewide support and advocacy group for people with Multiple Chemical 
Sensitivity. Like many others in our slate, we are concerned about the 
recent West Nile Encephalitis outbreak in nearby New York. We realize 
this is a serious public health concern, but we also feel that it is 
important to make sure the solution doesn't create a new set of health 
problems. There is a growing number of the population who are severely 
sensitive to chemicals, and an epidemic of asthma in this country, 
especially among children. It is very important that the needs of these 
individuals be considered when devoloping a mosquito abatement plan, 
and that the public be informed or any possible health effects of 
pesticide spraying. We were appalled at the massive aerial spraying of 
Malathion that took place in New York, as were many New Yorkers, and we 
feel it posed an unnecessary health risk to the citizens of New York 
since there were less toxic options available that were not used.
    We strongly urge that least toxic methods be used in the event of 
another encephalitis outbreak and that nontoxic preventive methods be 
used to reduce risk of future outbreaks. Connecticut has an IPM program 
in place and has been using a nontoxic product to kill mosquitoes in 
their larval state. We want to encourage more treatments of this kind 
and we urge that the DEP be given the funds it needs to aggressively 
fight mosquitos using least toxic methods. It makes much more sense to 
utilize safe methods to kill the mosquitos at the larval stage, than to 
spray an entire relation with a poison. While we know that the 
Resmethrin used here in Connecticut is a safer choice of pesticide, we 
still have many concerns about the handling of the mosquito control 
program in our State.
    We are upset by the misinformation about Resmethrin that was 
broadcast over the news. While it is considered a safer pesticide, 
Resmethrin can cause severe reactions in sensitive individuals. The 
news stations were reporting that Resmethrin, according to the DEP, was 
totally harmless to humans, while at the same time they were advising 
people to shut windows, bring their children and pets indoors, and to 
wash any vegetables they eat from their garden. This certainly was a 
mixed message. People were also told that the pesticides would the gone 
in 4 hours, and we have learned from an EPA approved resource, that the 
half life of Resmethrin is 30 days.
    We would like more information about the total formulation of the 
pesticide that was used. We know that the so-called inert ingredients 
in a pesticide can sometimes be more toxic then the active ingredient. 
We feel the public should be informed about all the ingredients in the 
pesticide that was used. We need to know if there have been EPA safety 
studies done on the formulation as whole, or are all the safety studies 
industry generated, and test only the active ingredient?
    We would like to know if there is any medical treatment, recourse, 
compensation, available to people who are injured by mosquito spraying? 
What assistance is available for people who might have to vacate their 
home for a period of time due to severe sensitivity to pesticides?
    Pesticide health effects should be monitored and treated. It is 
imperative that real experts with experience treating patients who have 
been chemically injured, be involved. While we hope that the need for 
future spraying can be averted by an aggressive IPM program, if any 
spraying is done in the future, we feel that there should be a hotline 
set up for people to report any health problems relating to the 
mosquito spraying and medical treatment should be made available. 
Resmethrin, for example, is known to trigger asthma attacks in 
sensitive people. Malathion is an organophosphate insecticide that 
functions by interfering with cholinesterase, an enzyme essential to 
normal nervous system function. Most doctors are not trained to 
recognize symptoms of chemical injury. It an injured individual calls 
his/her personal physician, there is strong likelihood the illness will 
not be properly diagnosed, and will go unreported.
    How effective is massive spraying in eradicating the disease? Does 
it even work? Resmethrin is toxic to fish. What happens to mosquito 
populations the next year if natural predators have been killed by the 
spraying? The spraying in our State took place a few days before we had 
our first freeze. Considering the time of years was the spraying 
warranted?
    We encourage the State to continue to broaden its IPM program for 
mosquito control that uses a nontoxic product to kill mosquitoes in the 
larva usage. It makes a lot more sense to kill mosquitoes in their 
larva (before they can spread disease) than it does to do a massive 
spraying at a later date. The State should be carefully monitoring 
mosquito populations, and if necessary least toxic pesticides should be 
used only in target areas, as opposed to a blanket spraying over large 
populated area. The State should also on educating the public on using 
least toxic methods to control mosquitos on their property, such as 
removal of breeding habitat by reducing standing water, and how to 
safely kill mosquitoes in the larva stage.
                               __________
 Statement of Pamela Clark, Fairfield County Citizens Concerned About 
                           Pesticides (FCAP)
    Fairfield County Citizens Concerned About Pesticides (FCAP) was 
active during the West Nile Fever (WNF) ``crisis'' earlier this year by 
providing an opportunity for public dialog. FCAP also took reports of 
Scourge exposure symptoms through a telephone ``Action Line.''
    The attached sheet outlines some of the problems associated with 
the handling of the WNF ``crisis.'' These problems and their 
recommended solutions were presented to representatives of the 
Department of Environmental Protection (DEP) and the Department of 
Public Health (DPH) in Hartford on November 22, 1999 by FCAP Chairman 
Pamela Clark.
    We request that this information, as well as the attached letter to 
Congressman Shays, be entered into testimony at the West Nile Fever 
hearing on December 14 at Fairfield University.
                                 ______
                                 
  FCAP's November 22, 1999 Meeting with the DEP and the DPH Regarding 
           1999 Pesticide Spraying for West Nile Fever (WNF)
Problem: Information given by local health departments was problematic, 
        i.e. not accurate, complete, or consistent.
    Example: Questions regarding the concentration level of Scourge 
(the pesticide compound used in Fairfield County), the full list of 
possible pesticide exposure symptoms, the spraying locations, etc. were 
often answered inaccurately and answers varied from town to town.
    Solution: Set up an interactive hotline in a central location with 
an 800# using trained staff to answer questions beyond press release 
statements.
Problem: Press releases overstated the dangers of West Nile Fever (WNF) 
        and underplayed the dangers of widespread pesticide spraying.
    Example Public officials stated that the concentration of Scourge 
sprayed was so low that it was ``harmless.'' In fact, the concentration 
of Resmethrin (the active pesticide in Scourge) vas sprayed at 0.00175 
pounds per acre, a concentration consistent with label application 
directions, label warnings, and EXTOXNET research data (see attached).
    Solution: Give equal time in news releases to the dangers of 
widespread pesticide spraying as is given to the dangers of WNF. 
Provide a full list of pesticide exposure symptoms in every press 
release. Identify at-risk groups for both pesticide exposure and WNF. 
Set up an action line to receive reports of pesticide exposure symptoms 
in humans and wildlife. Report all cases of pesticide exposure symptoms 
in humans to the locational Pesticide Telecommunications Network.
Problem; Spray zones were not adequately described and the public was 
        not properly notified.
    Example: Citizens did not know how to determine the spraying 
locations and schedules, callers to hotline numbers were given 
inaccurate or incomplete information, etc.
    Solution: Place flyers in all homes on spray route 24 8 hours prior 
to spraying.
Problem: Scourge was misapplied.
    Example: Scourge was sprayed on streets not listed in planned spray 
routes, Scourge was sprayed on river banks and near water sources 
despite warning labels to the contrary.
    Solution: Follow the DEP mosquito management plan. Place stricter 
controls on application. Provide documentation of concentration levels, 
application areas, etc.
                               __________
      Fairfield County Citizens Concerned About Pesticides 
                                                    (FCAP),
                              Westport, CT 06880, October 13, 1999.

The Honorable Christopher Shays,

Dear Congressman Shays: Thank you for your time last Friday at 
Fairfield University. FCAP members ask that you bring our concerns 
about the dangers of Scourge, the pesticide used in widespread ground 
spraying in Fairfield County recently, to the attention of the 
Connecticut Department of Environmental Protection (DEP) and the 
Connecticut Department of Health.
    DEP press releases and statements have misinformed the public by 
overstating the dangers of a viral strain which poses a slight threat 
to a small portion of the population and downplaying the dangers of 
widespread pesticide spraying.
    DEP assurances that pesticide spraying is completely safe have had 
horrifying repercussions. A mother in Westport was observed by one FCAP 
member spraying her child with ``Raid'' insecticide before soccer 
practice for mosquito protection.
The truth about pesticide dangers must be admitted and pesticide 
        spraying must stop
    Due to the human and environmental risks posed by Scourge and the 
fact that as of this writing there are no human cases of the disease in 
Connecticut, further spraying would be reckless.
Pesticide sensitive people are being ignored
    One point that has been not been adequately addressed by public 
officials is the negative health effects of pesticides on the very same 
human population that is most susceptible to the virus--the sick, the 
aged, the very young, and those with weak immune systems. Pesticide-
sensitive children and adults include those with asthma and other 
respiratory diseases.
Despite DEP rhetoric, it is clear that the concentration of Scourge 
        used is not low enough to void all warnings regarding this 
        chemical poison
    According to the DEP, Scourge was sprayed at a level which 
delivered 0.00175 pounds of Resmethrin (the active insecticide in 
Scourge) per acre. Because this concentration falls within the 
recommended spraying levels on the Scourge label, ail warnings apply.
Scourge is not harmless to humans at the level being sprayed
    The National Pesticide Telecommunications NetNork (NPTN) Pesticide 
Information Sheets on Resmethrin indicate that Resmethrin may cause 
adverse effects on the central nervous system. Symptoms of exposure to 
Resmethrin listed by the NPTN include incoordination, twitching, loss 
of bladder control, seizures, numbness, itching, burning, and tingling. 
This list has not been announced to the public.
    Residents have reported most of these symptoms to FCAP's Action 
Line after recent sprayings.
    Scourge contains Piperonyl Butoxide(PBO), which '`affects mammals 
by depressing liver function, thus lowering their ability to detoxify 
chemicals,'' according to the National Coalition Against the Misuse of 
Pesticides (NCAMP). PRO is a synergist which, when added to Resmethrin, 
increases Resmethrin's toxicity, according to the New York Coalition 
for Alternative to Pesticides (NYCAP).
    Scourge contains petroleum distillates which ``can cause allergic 
reactions and even a dangerous chemical pneumonia when inhaled,'' 
according to NYCAP.
Scourge is toxic to fish at the level being sprayed
    The Scourge label states, ``This pesticide is highly toxic to fish. 
Do not apply directly to water, to areas where surface water is present 
or to intertidal areas below the mean high water mark. Drip and runoff 
from treated sites may be hazardous to fish in adjacent waters. . . Do 
not contaminate waters by cleaning of equipment or disposal of 
equipment wash waters. . . Application of this product to any body of 
water is prohibited.''
    ``The spraying [of pesticides such as Scourge] kills off natural 
predators of insects . . . and results in insect resistance, which in 
turn leads to a larger problem in the future,'' according to NCAMP.
    FCAP members report spraying on the banks of the Saugatuck River in 
Westport! Pear Tree Point in Darien, and other Fairfield County 
waterways and runoff areas.
Scourge is toxic to bees and other insects at the level being sprayed
    According to NPTN, ``Resmethrin is highly toxic to bees'' and a 
lethal dose (LD50) of Resmethrin is a mere 0.063 micrograms per bee. 
Assuming uniform application, every square inch sprayed in Connecticut 
received two tinges that amount.
    Resmethrin is a poison. If not, it wouldn't be able to kill 
mosquitoes, bees, and fish.
Resmethrin does not disperse as quickly as has been indicated
    According to NCAMP, synthetic insecticides such as Resmethrin were 
developed to be stable in light, ``yielding longer residence tamest 
According to NPTN, it takes at least 1 month for just half of the 
Resmethrin that gets into water or soil to break down. Unfortunately, 
just because breakdown occurs, that does not mean toxic effects 
vanish--Resmethrin breakdown products are chemicals which have health 
and environmental risks of their own.
                                 ______
                                 
 EXTOXNET, Extension Toxicology Network, Pesticide Information Profiles
    Pesticide Information Project of Cooperative Extension Offices of 
Cornell University, Oregon State University, the University of Idaho, 
and the University of California at Davis and the Institute for 
Environmental Toxicology, Michigan State University. Major support and 
funding was provided by the USDA/Extension Service/National 
Agricultural Pesticide Impact Assessment Program.
    extoxnet primary files maintained and archived at oregon state 
                               university
                           revised june 1996
Resmethrin
    Trade and Other Names: Trade manes include Chryson, Crossfire, 
Derringer, FMC 17370, Isathrine, N DC 104, Pynosect, Raid Flying Insect 
Killer, Respond, Scourge, Sun-bugger #4, SPB-1382, Synthrin, Syntox, 
Vectun, and Whitmire PT-l 10.
    Regulatory Status: Resmethrin is a slightly toxic to practically 
non-toxic compound in EPA toxicity class III. Products containing 
resmethrin must bear the Signal Word CAUTION on the label. All products 
containing resmethrin for pest control at or near aquatic sites are 
classified as Restricted Use Pesticides (RUP) by the EPA because of 
potential fish toxicity. RUPs may be purchased and used only by 
certified applicators.
    Chemical Class: pyrethroid
    Introduction: Resmethrin is a synthetic pyrethroid used for control 
of flying and crawling insects in homes, greenhouses, indoor 
landscapes, mushroom houses, industrial sites, stored product insects 
and for mosquito control. It is also used for fabric protection, pet 
sprays and shampoos, and it is applied to horses or in horse stables. 
Technical resmethrin is a mixture of its two main isomers (molecules 
with the same chemical formula but slightly different configurations); 
a typical blend is 20 to 30 percent of the (1RS)-cis-isomer and 70 to 
80 percent of the (1RS)-trans-isomer.
Formulation
    Technical resmethrin is a mixture of its two main isomers 
(molecules with the same chemical formula but slightly different 
configurations); a typical blend is 20 to 30 percent of the (1RS)-cis-
isomer and 70 to 80 percent of Me (1RS)-trans-isomer.
Toxicological Effects
    Acute toxicity: Resmethrin is slightly to practically non-toxic by 
ingestion. The oral LD50 for technical resmethrin in rats is variously 
reported as greater than 2500 mg/kg or 1244 mg/kg [3,12]. Resmethrin is 
only slightly toxic through the dermal route as well. The reported 
dermal LD50's for technical resmethrin are: greater than 3000 mg/kg in 
rats, greater than 2500 mg/kg in rabbits, and greater than 5000 mg/kg 
in mice [3,12]. It is slightly toxic via inhalation, with a 4-hour 
inhalation LC50 for resmethrin of greater than 9.49 mg/L [3]. Symptoms 
of exposure by any route may include incoordination, twitching, loss of 
bladder control, and seizures [12]. Dermal exposure may lead to local 
numbness, itching, burning, and tingling sensations near the site of 
exposure. Resmethrin is reported to be nonirritating to the skin and 
eyes of test animals and not to cause skin sensitization in guinea pigs 
[3].
    Chronic toxicity: In a chronic feeding study with rats, 25 mg/kg/
day (the lowest dose tested) caused liver enlargement. At 125 mg/kg/
day, there were pathological liver changes in addition to increased 
liver weights. Doses of 250 mg/kg/day caused increased thyroid weight 
and thyroid cysts [3]. In another study over 90 days, doses of 150 mg/
kg/day did not produce any adverse effects in exposed rats [12]. 
Increased liver weights occurred in dogs fed 30 mg/kg/day for 180 days. 
No effects were observed in dogs in this study at dose rates of 10 mg/
kg/day [3]. In a 90-day inhalation study with rats, 0.1 mg/L, the 
lowest dose tested, produced behavioral changes, decreased blood 
glucose levels in males, and decreased body weights and increased serum 
urea levels in females [3]. Resmethrin was not neurotoxic to rats at 
doses of 62.5 mg/kg/day for 32 weeks, 250 mg/kg/day for 30 days, or 632 
mg/kg/day for 7 days [4]. It is unlikely that chronic effects will be 
seen in humans under normal circumstances.
    Reproductive effects: A three-generation study with rats showed a 
slight increase in premature stillbirths and a decrease in pup weight 
at 25 mg/kg, the lowest dose tested [4]. Since these doses are much 
higher than expected human exposures, it is unlikely such effects will 
occur in humans.
    Teratogenic effects: No birth defects were observed in the 
offspring of rabbits given doses as high as 100 mg/kg/day [4]. Skeletal 
aberrations were seen in the offspring of rats given doses higher than 
40 mg/kg/day [3]. No teratogenic effects were observed in mice at dose 
levels of 50 mg/kg/day over an unspecified period [12]. It is unlikely 
that teratogenic effects will be seen in humans under normal 
circumstances.
    Mutagenic effects: Resmethrin was not mutagenic in a test performed 
with the bacterium, Salmonella typhimurium [6].
    Carcinogenic effects: No evidence of tumor formation was observed 
in a 2-year rat feeding study with doses as high as 250 mg/kg/day, nor 
in an 85-week study with mice given doses as high as 50 mg/kg/day 
[3,4].
    Organ toxicity: Pyrethroids may cause adverse effects on the 
central nervous system. Long-term feeding studies have shown increased 
liver and kidney weights and adverse changes in liver tissues in test 
animals [12].
    Fate in humans and animals: Resmethrin is quickly eliminated by 
chickens. When oral doses of 10 mg/kg resmethrin were given to laying 
hens, 90 percent of the dose was eliminated in urine and feces within 
24 hours [46]. In another study with hens given the same treatment, 
residues were low in hens sacrificed 12 hours after the treatment, with 
the highest levels found in the liver and kidneys. Low levels were 
found in the hens' eggs, with levels peaking 1 day after treatment in 
the whites and 4 to 5 days after treatment in the yolks [47].
Ecological Effects
    Effects on birds: Resmethrin is practically nontoxic to birds. Its 
LD50 in California quail is greater than 2000 mg/kg [3]. In Japanese 
quail, the 5-day dietary LC50 is greater than 500C ppm [48].
    Effects on aquatic organisms: Resmethrin is very highly toxic to 
fish with 96-hour LC50 values generally at or below 1 ug/L (0.001 mg/L) 
for most species tested. The LC50 for resmethrin in mosquito fish is 7 
ug/L [49]. The LC50 for resmethrin synergized with piperonyl butoxide 
in red swamp crawfish, Procarnbarus clarkii, is 0.00082 ug/L [48]. The 
LC50 in bluegill sunfish is 0.75 to 2.6 ug/L, and 0.28 to 2.4 ug/L in 
rainbow trout [3]. Other reported 96-hour LC50's are 1.8 ug/L in coho 
salmon, 1.7 ug/L in lake trout, 3.0 ug/L in fathead minnow, 16.6 ug/L 
in channel catfish and 1.7 ug/L in bluegill sunfish [50]. Fish 
sensitivity to the pyrethroids may be explained by their relatively 
slow metabolism and elimination of these compounds. The half-lives for 
elimination of several pyrethroids by trout are all greater than 48 
hours, while elimination half-lives for birds and mammals range from 6 
to 12 hours [20]. Effects on other organisms: Resmethrin is highly 
toxic to bees, with an LD50 of 0.063 ug per bee [3].
Environmental Fate
    Breakdown in soil and groundwater: Resmethrin is of low to moderate 
persistence in the soil environment. Its half-life has been estimated 
at 30 days [51]. Observed half-lives will depend on many site-specific 
variables. In aerobic Kentucky loamy sand, the compound showed a half-
life of nearly 200 days. Degradation end-products reported for 
resmethrin are chrysanthemic acid, benzaldehyde, benzyl alcohol, 
benzoic acid, phenylacetic acid, and various esters [52]. Resmethrin is 
tightly bound to soil and would not be expected to be mobile or to 
contaminate groundwater, especially in light of its extremely low 
solubility in water [51]. Breakdown in water: Resmethrin may enter 
surface waters through particulate run-off or misapplication. In pond 
waters and in laboratory degradation studies, pyrethroid concentrations 
decrease rapidly due to sorption to sediment, suspended particles and 
plants. Microbial and photodegradation also occur [22]. The half-life 
in water is 36.5 days. . Breakdown in vegetation: No information was 
found.
Physical Properties
    Appearance: Resmethrin is a waxy, off-white to tan solid with an 
odor characteristic of chrysanthemums [12].
    Chemical Name: 5-benzyl-3-furylmethyl(1RS)-cis,trans-2,2-dimethyl-
3-(2-methylprop-1-enyl)cyclopropanecarboxylate [12].
    CAS Number: 10453-86-8.
    Molecular Weight: 338.45.
    Water Solubility: <1 mg/L at 30 C [12], insoluble in water.
    Solubility in Other Solvents: s. in hexane, kerosene, xylene, 
methylene chloride, isopropyl alcohol, and aromatic petroleum 
hydrocarbons; m.s. in methanol [12].
    Melting Point: 43-48 C [12].
    Vapor Pressure: 0.0015 mPa @ 30 C [12].
    Partition Coefficient: Not Available.
    Adsorption Coefficient: 100,000 [51].
Exposure Guidelines
    ADI: Not Available.
    MCL: Not Available.
    RfD: 0.03 mg/kg/day [30].
    PEL: Not Available.
    HA: Not Available.
    TLV: Not Available.
    Basic Manufacturer: Roussel Uclaf Coup., 95 Chestnut Ridge Road, 
Montvale, NJ 07645. Phone: 201-307-9700. Emergency: Not Available.
    References: References for the information in this PIP can be found 
in Reference List Number 2
                               __________
 DRAFT RESOLUTION FOR STAMFORD BOARD of REPRESENTATIVES REGARDING THE 
                      CITY SPRAYING OF PESTICIDES
    WHEREAS in response to an outbreak of a mosquito-borne, rarely 
life-threatening disease, called West Nile Fever, Mayor Malloy, in 
conjunction with the CT Department of Environmental Protection, had 
promoted and consequently undertaken a program of ground spraying south 
of I-95 and along the coastal areas of Stamford with the pesticide 
RESMETHRIN; but
    WHEREAS there are now grave and widespread concerns being raised by 
the scientific, medical and academic communities about the safety and 
long term impact of RESMETHRIN and other synthetic pyrethroids. All 
have side effects and all must be applied under the strictest and very 
specific guidelines to prevent contact with human-, animal- and aquatic 
habitats. These guidelines extend also to proper storage and 
concentrations of the pesticides.
    WHEREAS there has been mounting evidence about repeated and 
irresponsible disregard of the mandatory storage and application 
precautions by ground crews.
    WHEREAS Officials insist that these neurotoxins are applied 
properly and are completely harmless to the population and the 
environment. The Community education has neither been comprehensive, 
timely or accurate about the health hazards that adults and children 
who have been exposed to these pesticide sprays and their residue, can 
suffer.
    WHEREAS in addition to the spraying, the program has not undertaken 
to fully disclose extensive precautions necessary to prevent contact 
with the pesticides, incl. thorough wash-down of playground equipment 
after spraying, as well as the dangers from residue and extended 
periods of some dangerous breakdown chemicals on all contaminated 
surfaces. Scientific research clearly identifies the link of repeated 
pesticide exposure to life threatening forms of cancer, sterility, and 
immune deficiencies.
    WHEREAS more experienced jurisdictions, incl. LA County, Southern 
Florida, portions of Michigan, and Amherst, NY have come to rely on 
implementing more effective and ``least toxic'' measures with 
Integrated Pest Management (IPM). Integrated Pest Management being a 
process by which the use of preventative, non-toxic and least toxic 
alternatives with the latest technology and management techniques are 
prioritized. I.e. statistically valid surveillance, big-control with 
natural predators, source reduction of breeding sites, least toxic 
larvicides, combined with thorough public education.
    NOW THEREFORE BE IT RESOLVED that SAFE \1\ of Fairfield County 
urges the City of Stamford to immediately undertake a high priority 
study and educational process of all agencies involved about the full 
spectrum such as the small affect on adult mosquitoes but of all 
potentially harmful side effects and long term impact on the eco system 
from the spraying of pesticides versa the implementation of Integrated 
Pest Management.
---------------------------------------------------------------------------
    \1\ SAFE of Fairfield County is a supporting chapter of New York 
SAFE which stands for ``Seeking Alternatives For the Environment. SAFE 
is both a task force and a clearing house dedicated to working hand-in-
hand with government agencies to establish safe, non-toxic solutions to 
public health and/or environmental problems.
---------------------------------------------------------------------------
    BE IT FURTHER RESOLVED that SAFE of Fairfield County urges the 
Mayor and City Council to provide adequate funding and authorization to 
form a Review Panel comprised of government officials as well as of 
independent scientists specializing in entomology, toxicology and 
physicians to devise the most effective and least invasive alternative, 
safe method of mosquito management to protect the population and the 
environment responsibly. This approach must include adequate year round 
surface and followup blood sampling.
    AND BE IT FURTHER RESOLVED that the current emergency response 
system be reviewed by the H & S Committee to assure that appropriate, 
measured responses are triggered before declaring an emergency, and 
make this available for public review with full disclosure before the 
Spring of 2000.
    BE IT FURTHER RESOLVED that the City of Stamford work with the 
State of Connecticut Department of Environmental Protection, the 
Department of Health (DEP & DOH). and Fairfield County SAFE, to 
immediately adopt and implement IPM policies and programs.
    BE IT FINALLY RESOLVED that this review be undertaken immediately 
and be finally available by February 28. 2000, before the next 
emergence of the vector.
                               __________
                   New York Public Interest Research Group,
                                     Albany, NY, November 17, 1999.

The Honorable Joseph Lieberman,
U.S. Senate,
Hart Office Building,
Washington, DC 20510.

Dear Senator Lieberman: We understand you will be holding a public 
forum November 18 on the West Nile Virus outbreak this fall. As two of 
New York's leading nonprofit advocates for pesticide use reduction, 
Environmental Advocates and the New York Public Interest Research Group 
(NYPIRG) are very interested in helping ensure that our region's health 
agencies design and implement preventative, least toxic mosquito 
control programs as soon as possible in order to avoid future aerial 
spraying of pesticides.
    Enclosed is a copy of the testimony which our groups presented at a 
hearing last month before the New York City Council which lays out some 
of the key issues which need to be addressed. We are currently 
developing more detailed recommendations on mosquito monitoring and 
prevention programs to submit to State and local health departments. 
Although many of our recommendations are specifically directed at New 
York City, the questions we raise must also be evaluated at the Federal 
level. We therefore urge you to request that the General Accounting Of 
rice prepare an analysis of how State, local, and Federal authorities 
responded to the public health threat posed by the West Nile virus. We 
would be happy to discuss our recommendations further with you and your 
staff. Thank you for your investigation into this matter.
            Very truly yours,
       Laura Haight, Senior Environmental Associate, NYPIRG
   Audrey Thier, Pesticide Project Director, Environmental 
                                                 Advocates.
                                 ______
                                 
 Statement of NYPIRG Before the New York City Council, October 12, 1999
                pesticide spraying for mosquito control
Introduction
    The New York Public Interest Research Group and Environmental 
Advocates want to thank the New York City Council for holding these 
important hearings. In the midst of this crisis of competing health 
risks, it is essential to take a step back and view the broader picture 
of what this experience can teach and how to avoid a repeat of it. It 
is also a good opportunity to look more broadly at the city's pest 
problems, for there are many, and its routine pesticide use, which is 
prodigious, in order to devise strategies that deal with these in a 
comprehensive, preventative, and least-toxic manner.
    There is no foolproof means of preventing infectious disease 
outbreaks, and the risks of these will likely be exacerbated and entail 
more exotic illnesses as global warming and global travel increase 
microbe circulation. We will always be at risk. But, when faced with 
similar hazards, other communities across the country have found that 
it is possible to keep such hazards in check and preclude the need for 
the kind of wholesale pesticide exposure spawned by this current 
outbreak. In Houston, Los Angeles, St. Louis, and other areas where 
mosquito-borne diseases erupt repeatedly, widespread aerial spraying of 
mosquitoes with adulticides rarely if ever occurs. We have an example 
of a comprehensive mosquito control program closer to home in Suffolk 
County, but if the preventative measures it employs are not 
consistently followed regionwide, everyone remains at risk.
    It is essential to implement such preventative measures, not only 
because, ideally, outbreaks should be prevented, not contained after 
they have claimed lives, but also because the cure--pesticides--entails 
risks of its own. The following briefly summarizes the risks of the 
pesticides used in New York City.
Malathion
    Malathion is an organophosphate insecticide that functions by 
interfering with an enzyme, cholinesterase, essential to normal nervous 
system function in insects and humans alike. Although it is one of the 
less acutely poisonous of this family of pesticides, exposure to 
malathion nonetheless entails real toxicity concerns, including 
respiratory distress, headache, dizziness, and nausea. \1\ Like all 
organophosphates, at high doses it can cause more serious symptoms. \2\ 
For example, malathion was the second leading cause of hospitalization 
for occupational pesticide poisoning in the United States during the 
period 1977-1982. \3\
---------------------------------------------------------------------------
    \1\ Reigart, J.R. and J.R. Roberts. 1999. Recognition and 
Management of Pesticide Poisonings. United States Environmental 
Protection Agency. EPA 735-R-98-003.
    \1\ Ibid.
    \3\ Blondell, J. 1997. Epidemiology of Pesticide Poisonings in the 
United States, With Special Reference to Occupational Cases. 
Occupational Medicine: State of the Art Reviews. 12(2)209-221.
---------------------------------------------------------------------------
    Infants and children, whose immature nervous systems are more 
vulnerable to insult, and newborns, whose metabolisms are less capable 
of detoxifying malathion, are more susceptible than adults to its toxic 
effects. \4\ Organophosphate poisoning in children may also result in a 
different set of symptoms than adults commonly experience, including 
increased muscle tension and rigidity. \5\
---------------------------------------------------------------------------
    \4\ National Research Council. 1993. Pesticides in the Diets of 
Infants and Children. National Academy Press. Washington D.C.
    \5\ Lifshitz, M. et al. 1999. Carbamate and organophosphate 
poisoning in young children. Pediatric Emergency Care. 15(2):102-103. 
see also Wagner, S.L. and D.L. Orwick. 1994. Chronic Organophosphate 
Exposure Associated with Transient Hypertonia in an Infant. Pediatrics. 
94(1):94-97.
---------------------------------------------------------------------------
    Information on long-term, chronic effects is less abundant. 
Currently, malathion has not yet been classified by the United States 
Environmental Protection Agency (EPA) as to its carcinogenic potential, 
although a decision on its classification is pending. \6\ Over the 
years, reports in the epidemiological literature have indicated that 
malathion may compromise the immune system, \7\ cause reproductive 
harm, \8\ and cause genetic mutations or interfere with normal cell 
replication. \9\ Being a broad spectrum insecticide, malathion kills 
other insects as well as mosquitoes, including honeybees, to which it 
is highly toxic. It is also highly toxic to many aquatic organisms and 
the aquatic stages of amphibians. \10\
---------------------------------------------------------------------------
    \6\ Burnam. W.L. August 25, 1999 Memorandum. Office of Pesticide 
Programs List of Chemicals Evaluated for Carcinogenic Potential. United 
States Environmental Protection Agency.
    \7\ Fan, A. 1998. 1998 Malathion Literature Review. Memorandum from 
Anna M. Fan PhD, Chief, Pesticide And Environmental Toxicology Section 
to Richard Kreutzer, M.D. Chief Environmental Health Investigations 
Branch, Department of Health Services, California Environmental 
Protection Agency. June 26, 1998. see also State of California 
Department of Health Services. 1991. Health Risk Assessment of Aerial 
Application of Malathion-Bait. Berkeley, CA. Desi, I. et al. 1978. 
Studies on the Immunosuppressive Effect of Organochlorine and 
Organophosphoric Insecticides in Subacute Experiments. Journal of 
Hygiene, Epidemiology, Microbiology, and Immunology. 1:115-122.
    \8\ Contreras H.R. and E. Bustos-Obregon. 1999. Morphological 
alterations in mouse testis by a single dose of malathion. Journal of 
Experimental Zoology. 284(3):355-9. see also Balasubramanian, K. et al. 
1987. Effect of malathion on the testis of male albino rats. Medical 
Science Research. 15:229-230.
    \9\ See State of California and Fan note 7 above. See also Rupa, 
D.S. et al. 1991. Frequency of Sister-Chromatid Exchange in Peripheral 
Lymphocytes of Male Pesticide Applicators. Environmental and Molecular 
Mutagenesis. 18: 136-138. see also New Jersey Department of Health and 
Senior Services. 1997. Hazardous Substances Fact Sheet: Malathion. 
Trenton, New Jersey.
    \10\ Extension Toxicology Network. 1996. Pesticide Information 
Profile: Malathion. Oregon State University.
---------------------------------------------------------------------------
Resmethrin
    Resmethrin is a synthetic pyrethroid insecticide. Pyrethroids, like 
organophosphates, affect the nervous system, though they do not inhibit 
cholinesterase. They are of relatively low acute toxicity, although 
poisoning can occur and allergic responses have been reported. \11\ 
There are also reports of persistent symptoms when exposures occurred 
indoors. \12\
---------------------------------------------------------------------------
    \11\ See Reigart and Roberts note 1 above. See also Extension 
Toxicology Network note 10 above.
    \12\ Muller-Mohnssen, H. 1999. Chronic sequelae and irreversible 
injuries following acute pyrethroid intoxication. Toxicology Letters. 
197:161-175.
---------------------------------------------------------------------------
    Information on chronic effects is spotty. Resmethrin has not been 
classified with regard to carcinogenicity, although products that 
contain resmethrin often include the synergist piperonyl butoxide 
(PBO), which has been classified by the EPA as a possible human 
carcinogen, as have several other pyrethroid compounds. \13\ There are 
indications that pyrethroids may interfere with the immune \14\ and 
endocrine systems. \15\ Other adverse chronic effects, including 
effects on the liver and thyroid, have been reported in toxicology 
testing. \16\ Resmethrin is highly toxic to bees and fish. \17\
---------------------------------------------------------------------------
    \13\ See National Research Council note 4 above.
    \14\ Diel, F. et al. 1999. Pyrethroids and piperonyl-butoxide 
affect human T-lymphocytes in vitro. Toxicology Letters. 107:65-74. see 
also Stiller-Winkler, R. et al. 1999. Immunological parameters in 
humans exposed to pesticides in the agricultural environment. 
Toxicology Letters. 107:219-224.
    \15\ Eil, C. and B.C. Nisula. 1990. The Binding Properties of 
Pyrethroids to Human Skin Fibroblast Androgen Receptors and to Sex 
Hormone Binding Globulin. Journal of Steroid Biochemistry. 35(3/4):409-
414.
    \16\ Extension Toxicology Network. 1996. Pesticide Information 
Profile: Resmethrin. Oregon State University.
    \17\ Ibid.
---------------------------------------------------------------------------
    How these reports of possible chronic health problems of malathion 
and resmethrin may relate to the dose or frequency of exposure 
encountered in the current New York City spraying campaign is unknown. 
It is also impossible to say how they may interact with the other 
pesticides to which city residents are exposed. Data on such chemical 
interactions are virtually nonexistent.
Alternative mosquito control
    Clearly, avoiding the need for adulticides should be item one on 
the city s agenda. They are a strategy of last resort, when all other 
control possibilities have been exhausted and a public health emergency 
requires action. In addition to health concerns about pesticides, 
repeated use of these chemicals breeds resistance and reduces their 
effectiveness for times when they may be the only option.
    Effective preventative mosquito control relies on a combination of 
before-the-fact measures, including:
    <bullet>  Removal of breeding habitat by reducing standing water 
wherever possible. \18\
---------------------------------------------------------------------------
    \18\ Olkowski. W. et al. 1991. Common-Sense Pest Control. The 
Taunton Press. Newtown, Connecticut.
---------------------------------------------------------------------------
    <bullet>  The use of meteorologic data to identify weather patterns 
known to exacerbate specific vector-borne diseases and followup with 
enhanced monitoring when such conditions exist. \19\
---------------------------------------------------------------------------
    \19\ Moore, C.G. et al. 1993. Guidelines for Arbovirus Surveillance 
Programs in the United States. Centers for Disease Control.
---------------------------------------------------------------------------
    <bullet>  Control of mosquito populations when they are in the 
larval and pupal stages. There are a variety of non-toxic and least 
toxic methods of larval control, such as applying bacillus 
thuringiensis israelensis (BTI) bacteria to stagnant waters, bacillus 
sphaericus to storm sewers, and stocking isolated water bodies with 
mosquito-eating fish. Some of these products have effects on non-target 
species and thus each use should be evaluated from this perspective. 
\20\
---------------------------------------------------------------------------
    \20\ See Olkowski et al. note 18 above.
---------------------------------------------------------------------------
    <bullet>  Trapping and monitoring mosquitoes to detect the presence 
of mosquito-borne illnesses. Trapping not only indicates the presence 
or absence of disease, but can localize the source of infectious agent 
so that targeted responses with least-toxic insecticides can be 
implemented, instead of blanket spraying of wide areas. In addition to 
monitoring, new traps are on the market, using carbon dioxide as a 
lure, which are designed to control mosquito populations for areas of 
up to an acre.
    <bullet>  The use of sentinel birds to detect the presence of 
disease before it reaches humans. For instance, chickens are commonly 
used bird hosts for monitoring whether St. Louis encephalitis is 
present in the local bird population. Like trapping and monitoring of 
mosquitoes, sentinels detect the presence of disease before it reaches 
human populations and help to locate the areas where it must be 
controlled. \21\
---------------------------------------------------------------------------
    \21\ See Moore et al. note 19 above.
---------------------------------------------------------------------------
    <bullet>  Educating the public about how they can eradicate 
mosquito breeding habitat around their homes (such as removal of 
standing water) and measures they can take to avoid being bitten (such 
as installation of window and door screens).
    The benefits of preventive control and monitoring are myriad. They 
reduce the likelihood that a surprise outbreak will occur while 
minimizing the use of hazardous pesticides. Harris County (Houston), 
which has one of the most active St. Louis encephalitis programs in the 
country, has not conducted aerial spraying for years. Through effective 
monitoring, their program can identify infected areas a month before 
any human comes down with the virus, and thereby address potential 
outbreaks at the source. This approach not only saves human lives, but 
also reduces pesticide use and saves the county approximately one 
million dollars each year. \22\
---------------------------------------------------------------------------
    \22\ Interview with Dr. Ray Parsons. Harris County (Texas) Mosquito 
Control Division. September 11, 1999
---------------------------------------------------------------------------
Recommendations
    The city must now address a range of issues and report fully to the 
public on each:

    <bullet>  How the city handled advance warning of spray schedules 
and the quality and accuracy of pesticide health effects information 
dispensed to the public regarding the spraying. Reports of people 
caught directly in the spray due to lack of warning, inadequate advice 
from poison control centers and misrepresentations by public officials 
that the pesticides sprayed are harmless must all be documented and 
assessed.
    <bullet>  The observed adverse effects of spraying (from surveys of 
poison control centers, hotlines, citizen networks, emergency rooms and 
clinics), and the potential size and virulence of the West Nile 
epidemic had it not been checked (based on other epidemic sizes across 
the globe, mosquito population data and infection rate now being 
gathered by the CDC, local serological studies, and cataloguing of case 
outcomes). A complete accounting of all adverse -effects associated 
with this crisis, whether from the disease or the spraying, is 
essential in order to evaluate their relative risks.
    <bullet>  Develop a vector control plan to guide the city in 
responding to future arboviral disease outbreaks. These response 
guidelines should include different response recommendations for each 
potential arbovirus keyed to threshold levels of disease in sentinel 
birds and mosquitoes, mosquito activity, and human cases.
    <bullet>  The immediate implementation of preventative mosquito 
control strategies to fend off a similar outbreak next spring and in 
future years. Surveillance, larvaciding and breeding site elimination 
are still useful this season.
    <bullet>  Development of a long-term mosquito monitoring and 
controlplan, together with sufficient funding for implementation. When 
spring arrives, a comprehensive mosquito control policy must be in 
place--one which uses all of the various techniques outlined above and 
also investigates newer, non-toxic adult mosquito trapping technology 
for potential effectiveness. Regardless of whether the West Nile virus 
reemerges this spring, the City must maintain a constant vigilance for 
potential mosquito-borne disease outbreaks, including those of a far 
more serious nature, such as eastern equine encephalitis. Early 
detection and control is safer for humans and the environment, because 
it minimizes the use of pesticides and uses animal sentinels, not 
humans, as a surveillance tool. A preventive approach is far less 
expensive and more effective than the after-the-fact spraying that the 
City has resorted to this fall. Coordination among State and local 
public health officials in the tri-State New York City metropolitan 
region with regard to improved surveillance, control measures, and 
emergency response planning The City should work with neighboring 
counties, some of which have very effective mosquito control programs, 
to develop a regional plan for monitoring and preventing disease 
outbreaks, and to share information and resources in implementing such 
a plan.
    These actions will help evaluate the handling of the current crisis 
and ideally ward off a repeat next spring. But mosquito-borne disease 
is by no means the city's only pest problem. And aerial spraying, while 
dramatic, is by no means the only pesticide exposure the city must deal 
with. New York State's pesticide reporting data, the first year of 
which was available for 1997, demonstrated that New York City tops the 
State in the amount of pesticides used overall. Furthermore, the 
majority of the pesticides used are neurotoxic organophosphate and 
carbamate insecticides. The most heavily used pesticide in the city, 
chlorpyrifos, is, like malathion, an organophosphate insecticide, but 
substantially more acutely toxic and persistent, and with a host of 
adverse chronic and developmental health effects associated with its 
use. \23\
---------------------------------------------------------------------------
    \23\ Thier, A. et al. 1998. Plagued by Pesticides: An Analysis of 
New York State and New York City's 1997 Pesticide Use and Sales Data. 
Environmental Advocates and the New York Public Interest Research 
Group. Albany, NY.
---------------------------------------------------------------------------
    The city should regard this current crisis as a wake-up call to 
examine all of its pest problems and its pesticide use risks, and 
devise preventative, less hazardous methods of dealing with them. We 
recommend the establishment of a New York City Pest Management Board 
(such as the City of Buffalo has had for approximately a decade), that 
would include local residents, public health and environmental interest 
groups, physicians, scientists, and municipal leaders.
    We urge the City Council to establish the Board as a watchdog to 
solve pesticide and pest issues in the city, instead of the cu rent 
situation--lurching from crisis to crisis with incomplete information 
and no long-range planning and solutions.
                               __________
  Statement of William R. Opp, Director, Lee County Mosquito Control 
                        District, Fort Myers, FL
    Your public hearing on mosquito control is of concern to me as the 
director of the Lee County Mosquito Control District in Ft. Myers, 
Florida. This District uses many tools/materials to protect the public 
health of its citizens, as well as visitors to the area (which includes 
Sanibel/Captiva Islands). Without the proper tools and materials, the 
public health and welfare could be placed into question.
    Please support good mosquito control.
                               __________
Statement of Dominick Ninivaggi, Superintendent, Suffolk County Vector 
                          Control, Yaphank, NY
    I regret that I am unable to attend your hearing on West Nile Virus 
(WNV), but as Superintendent for New York's largest mosquito control 
program, I would like to comment. First, Connecticut is to be commended 
for its outstanding laboratory operation under Dr. Ted Andreatis. The 
excellent work done by this lab helped provide critical information 
about WNV. This information allowed Connecticut to respond in a 
measured and limited manner.
    Jurisdictions that lacked this information base in New York were 
forced to resort to ``broad-brush'' spraying, because they could not 
determine nature and the extent of the threat. Connecticut also has 
outstanding mosquito control professionals such as Paul Capotosto and 
Roger Wolfe in its DEP, and I urge you to listen their counsel. Here in 
Suffolk County, we have an integrated mosquito control program that 
uses laboratory surveillance to guide a full spectrum of physical, 
biological and, when necessary, chemical controls to prevent and limit 
mosquito problems before an epidemic is threatened. We were also able 
to limit the need for pesticide applications in residential areas. 
During the WNV outbreak, chemical control of adult mosquitoes was 
appropriate and necessary, and such measures may be needed again in the 
future.
    In the long term, however, an integrated program that includes 
surveillance and emphasizes prevention is the most effective and 
environmentally sound approach. I urge you to support and strengthen 
these programs in Connecticut and elsewhere. Please bear in mind that 
WNV is unlikely to be the last exotic mosquito-borne pathogen that we 
will have to deal with. Having good laboratory and mosquito control 
programs in place and running is the best means to insure that will be 
ready when (not if) that happens again. Please feel free to contact me 
if you would like further information on Suffolk's program.
                               __________
  Statement by E. Allen James, Executive Director, RISE (Responsible 
           Industry for a Sound Environments, Washington, DC
    RISE appreciates the opportunity to file the following statement 
for insertion in the Field Hearing Record held in Fairfield, CT, as 
noted above. RISE is the national association representing the 
manufacturers, formulators, distributors and other industry leaders 
involved with pesticide products used for public health protection as 
well as in turf, ornamental, pest control, aquatic and terrestrial 
vegetation management and other non-food/fiber applications.
    West Nile encephalitis, a deadly mosquito-borne virus, killed seven 
people and infected dozens of others in the New York metropolitan area 
this year. This situation is just one example of the grave consequences 
of reliance on emergency or ``catch-up'' pest control . . . or no pest 
management at all. Effective public health protection from disease-
carrying pests, such as mosquitoes and other insects and vermin, is 
dependent on a continuous pest management program.
    Regrettably, more and more communities are being pressured by anti-
pesticide groups to restrict use of pesticides in schools, homes and 
public buildings in the absence of any proven health or safety hazard. 
Successful efforts to reduce or eliminate pesticide use allow insect-
borne health threats, such as encephalitis, to continue to emerge as 
significant public health problems. Systematic, well-managed Integrated 
Pest Management (IPM) programs are the solution.
    As pointed out by expert witnesses during the Committee's field 
hearing December 14, 1999, a variety of measures is safe and 
effective--in combination--for control of such disease carriers as 
mosquitoes. Insect traps and identification, elimination of breeding 
sites, use of larvacides to kill larvae, ground and aerial applications 
of pesticides were mentioned. These methods are all part of IPM 
programs established in most States, many schools and communities.
    Integrated Pest Management (IPM), as defined by Federal law in the 
Food Quality Protection Act of 1996 (P.L. Law 104--August 3, 1996), is 
a ``sustainable approach to managing pests by combining biological, 
cultural, physical, and chemical tools in a way that minimizes 
economic, health and environmental risks.'' Federal agencies have been 
directed to use IPM techniques in carrying out pest management 
activities. RISE and its members not only support IPM, but actively 
promote development and implementation of such programs for pest 
control and public health protection.
    Children and adults deserve an environment free of carriers of 
filth and disease. Such carriers include cockroaches that contribute to 
asthma among inner-city children, ticks that carry Lyme and other 
diseases, rats that bear numerous dreaded diseases and mosquitoes that 
transmit encephalitis, dengue fever, malaria, and other human maladies.
    In reference to the current West Nile virus concern when testifying 
during this Committee's field hearing, Ms. Jane Stahl, deputy 
commissioner, Connecticut Department of Environmental Protection, 
warned ``We can't treat this [outbreak] as a fluke, like it's not going 
to happen again.'' Effective IPM programs provide the answer.
    Anti-pesticide activists are extremely vocal in their advocacy of 
``chemical-free'' pest control. Real-world evidence, however, shows 
that pests are the problem; pests cause public health threats, not the 
safe and responsible use of pesticides.
    Thank you for this opportunity to provide this statement for 
insertion into the record.
                               __________
                 Statement of Roger Kerr, Stamford, CT
    I understand you are cosponsoring hearings on the events 
surrounding the recent West Nile Virus outbreak in the New York area.
    I hope that you will fully explore the use of alternatives to 
pesticides, as from my research I am convinced that the pesticides used 
in both New York City and in Westchester County, NY and Fairfield 
County, CT (my home) are significantly more dangerous than the threat 
of the virus itself. There are more natural methods that can be used to 
control the mosquito population, and I believe they should be the 
foundation of a national (or regional, for that matter) program.
    I believe that if we continue the spraying of pesticides we will 
find other health problems emerging in future years. To me this risk is 
much greater than the risk from the virus itself.
    I hope during your hearings you require the various parties 
testifying to use real numbers from this year's experience and not some 
hypothetical or estimated set of numbers. We certainly had enough 
experience this year to use it as the base for decisionmaking. In 
addition please make sure they fully outline the real situation both 
before spraying began and after it started. If that is done I believe 
it will be obvious that the spraying not the prime factor in the 
reduction of the incidence of this disease as it was already decreasing 
before spraying began.
    Thank you for exploring this topic for us.
                               __________
                 Statement of Connie Eash, Cheshire, CT
    I understand that you will be holding a Senate hearing next week on 
the West Nile Virus Outbreak. I hope that several things are made clear 
during this hearing. I understand that the public is not invited, so I 
would like to give information that I have researched during the last 
few months. As a pharmacologist and a mother of a boy who was diagnosed 
with pesticide poisoning in 1993 and now is sensitive to pesticide 
exposures, I know that the effects of pesticides are not widely 
recognized, even by the ``experts'' and that often such knowledge is 
vehemently attacked by pro-chemical people who have certain interests 
in protecting the reputation of chemicals.
    During the coming hearing, I hope you will be sure the following 
things are done: 1) Real experts in pesticide poisoning are used in 
equal balance with the virologist experts. Pesticide health effects 
should be recognized, monitored and treated. 2) Real numbers should be 
used to compare the threat of WNV to other diseases. My source is CDC 
numbers. 3) Real information benefits of pesticide spraying. The lack 
of benefit is illustrated in the CDC report quoted below. Pesticide 
effects can be obtained from EXTOXNET, through the EPA. 4) Any National 
Policy should mandate that safer methods of mosquito control be used 
prior to spraying. Safer methods exist and were not employed during the 
New York incident.
    First, a sign that an ``expert'' is NOT an expert is when he says 
``pesticide spraying creates no or minimal risks to humans or the 
environment,'' or that he calls reactions to pesticides ``allergic''.
    Medical professionals who deal with pesticide poisonings should be 
used as experts. These are hard to find, however the American Academy 
of Environmental Medicine does have a list of medical experts in most 
States. William Rea, MD, of Texas is one of the foremost experts in 
actually treating pesticide and chemical poisoning. Risks of pesticide 
use should be considered, publicized and recognized. Just as there are 
efforts at monitoring and treatment of encephalitis, there should be 
monitoring and treatment available to those poisoned with the 
pesticides. Presently, the doctors involved are not trained in the 
recognition of pesticide poisoning or performing tests for pesticide 
poisoning. Health departments are not required to document cases of 
pesticide poisoning.
    Secondly, the Senators should be made aware of the low risk of West 
Nile virus. Presently, the opinions of DEP and CDC officials are that 
the West Nile strain is less virulent than than the St. Louis strain of 
virus. The CDC keeps records of deaths across the country from certain 
diseases, including four strains of encephalitis: Eastern equine, 
California, St. Louis and Western equine. According to the CDC 
``records of deaths from selected diseases, 1986-1995'' deaths from all 
four of the encephalitis strains during those years were 48. Please 
compare this to 948 deaths from chicken pox and 1006 deaths from acute 
rheumatic fever during the same time period. Outbreaks of chicken pox, 
in spite of it being highly contagious, are rarely a cause for panic. 
These facts, coupled with the lack of human evidence, lead us to 
believe that the panic occurring here is mostly due to an exaggerated 
sense of danger created by an imbalance in the information, which must 
be addressed in the coming hearing.
    Next, ask the question, ``have mosquito control methods had any 
effect on the progress of WNV?'' CDC's MMWR Weekly, October 22, 1999, 
shows a graph illustrating a decline in new cases of WN before the 
spraying even started. New cases in New York peaked the week of August 
22-28 at 17, then declined to 7 the following week of August 29-
September 4. The malathion spraying started September 5.
    Finally, they should have experts in alternative methods of 
mosquito control which may become necessary should a more virulent 
mosquito-borne virus ever appear. Such alternatives should strive to 
maintain the natural predators of mosquitos so that the mosquito 
population does not explode when its aquatic and other predators are 
killed due to pesticide spraying. Indeed, we should call for an 
investigation into the deaths of the lobsters and fish during the 
spraying. Were they tested for pesticide poisoning? Were their deaths 
consistent and fish kills due to pesticide poisoning? If less toxic 
mosquito control are not being utilized, why not?
    I am glad that the hearings will be held. I'm concerned because of 
the handling of the whole issue in the past few months, that 
information will again be twisted and suppressed.
    Thank you for your time and interest.
                               __________
                              Westport, CT 06880, November 16, 1999

Senator Joseph Lieberman,
Senate Office Building,
Washington, D C. 20510.

Dear Senator Lieberman: I was upset to find that the public hearing on 
the PESTICIDE ISSUE would not include time for public comments. I am a 
Connecticut resident who was dumbfounded by the way the mosquito issue 
was handled in the tri-State area this fall.
    It is imperative that local and national government officials 
consider the drawbacks as well as the benefits of pesticide use. I do 
not feel virologists should be the only health professionals consulted 
when the decision to spray is made. The possible short- and long-term 
effects of these chemicals on humans need to be weighed carefully. So 
do the effects on wildlife--including the natural predators of the 
targeted organism.
    In the case of the West Nile-like virus, new cases in New York City 
had peaked and begun to decline approximately 2 weeks before the city 
even began spraying. They sprayed us here in Connecticut when there 
were NO human cases. Worse still, they sprayed around dead crows, 
despite their known 50-1OO-mile vector. The decision to spray was not 
based on good science. Compare the death toll from West Nile to that of 
say, chicken pox. This was the classic mountain-out-of-a-molehill.
    Though the CDC got everyone riled up about the virus, even before 
they were sure which virus it was, the DEP downplayed the very real 
health effects of the pesticides. I have a letter from the Connecticut 
Governor's office telling me that Resmethrin comes from chrysanthemums. 
I have a memo from our local Board of Education saying that Resmethrin 
is safe for bees (which the label says it is not). Repeated calls to 
local and State officials to find out the truth about Resmethrin got me 
nowhere--I finally got what I needed (including the product label) off 
the Internet.
    Furthermore, the pesticides were sometimes misapplied. It says 
right there on the label that Resmethrin should not be sprayed on or 
around water. In Fairfield County they paid that caveat no heed. It was 
also applied on windy nights, and under cold conditions, conditions 
contrary to what is stated on the label.
    When people reported immediate effects of pesticide poisoning 
(including shortness of breath and numbness in the extremities), many 
were told they were just ``sensitive''. No agency kept track of 
poisonings as far as I know no one is monitoring the long-term effects 
on the area either. Since we've already been made unwitting guinea 
pigs, someone should pick a similar, nonsprayed community and do a 
statistical analysis over time for increased cancer and central nervous 
system problems.
    When it comes to insect-borne illness, education is the best 
defense. People need to be told that persona] prevention is the first 
and most effective line of defense--dressing appropriately, for 
example, and avoiding buggy times/areas. It's important that people 
know the symptoms of the disease in question so they can get treatment, 
especially since no amount of spraying will kill all the bugs. And most 
important, people need to know that a strong immune system is the best 
defense against disease, and that--pesticides depress the immune 
system.
    I would respectfully ask that, when considering the recent West 
Nile spraying fiasco and in making plans for the future:
    1) REAL experts in pesticide poisoning balance the virology 
experts. (Anyone who say ``pesticide spraying creates no or minimal 
risks to humans or the environment,'' or who maintains that a reaction 
to pesticide poisioning is ``allergic'' is NO expert.)
    2) REAL numbers are used in comparing the threat of an insect-borne 
pathogen, comparing it to that of other diseases.
    3) REAL numbers are used in analyzing the risks of pesticide 
spraying.
    4) Health effects of pesticide use be recognized, monitored, and 
treated.
    It is not the job of Government to pander to people's ignorance or 
convenience. Pesticide use to ``protect'' people in the short run 
cannot be justified if it comes without a full, public explanation of 
the potential immediate and long term problems it may cause.
            Sincerely,
                                              Stacy Prince.
                               __________
                             Fairfield, CT 06430, December 1, 1999.

Senator Joseph I. Lieberman,
Hart Senate Office Building,
Washington, DC 20510.

Dear Senator Lieberman: I am writing in regard to the upcoming meeting 
on the West Nile virus on December 14, 1999 at Fairfield University in 
Fairfield, CT. I would like to ask this committee to help promote and 
educate the public in successful non-pesticide methods of mosquito 
control that have been used elsewhere in the country.
    The use of pesticides should be a control method of last resort. 
Many of the natural predators of mosquitoes may be killed or negatively 
affected by the use of pesticides. Mosquitoes have also been reported 
to develop resistance to the pesticides.
    This fall, in Connecticut, pesticides became the method of first 
resort. Mosquitoes carrying the virus revere reported in only one town 
(Greenwich) which was on the New York State border. However, many towns 
chose to spray as a precaution with some calling for aerial spraying. 
Even the State elected to do ground spraying in the Sherwood Island 
State Park located in Westport!
Concerns
    My first concern involves the negative impact on human health and 
the environment from the use of pesticides to control mosquitoes. My 
second concern is with the overall lack of knowledge of non-pesticide 
methods and the lack of understanding of the importance of these 
methods by local officials and the media.
    Most of the spraying that was done in Connecticut occurred south of 
Interstate I-95. Many of the beaches, marshlands and rivers adjacent to 
Long Island Sound were subjected to pesticide drift and runoff. Scourge 
was the pesticide that was selected. The AgrEvo Material Safety Data 
Sheet, which I received from the Connecticut Department of 
Environmental Protection, states that this pesticide is toxic to fish 
and birds. Others reported that the pesticide was also toxic to bees, 
butterflies and other beneficial insects.
    While Connecticut may have selected the least toxic pesticide 
available, there were questions that this chemical does negatively 
impact human health. Special concerns were noted for those with upper 
respiratory illness such as asthma and emphysema. Also, some of the 
information suggested that the same two groups (the elderly and 
children) are susceptible to both the virus and the negative effects of 
the pesticides. Choosing not to spray to spray has been a very 
difficult decision for our local officials.
    Another problem has been the local media pressure ``to spray or 
else you're not taking any action to protect the public.'' This 
approach by the media only made a difficult decision more difficult. I 
saw only one article on Fairfield's restored salt marsh as well as a 
brief mention that town officials had been using BTI. The press did not 
seem to understand the importance of these non-chemical steps.
    With this in mind, I would like to ask your committee the following 
questions:

    1) Would this committee arrange to educate the media and State/
local officials about non-pesticide methods that have been used 
successfully in other parts of the country?
    2) Could you develop a team of individuals that specialize in non-
pesticide control methods that could go to any area and help design 
programs for towns suddenly faced with this type of an emergency?
    3) Can you provide funding for this training?
    4) Can you provide emergency funding for the State to set up 
additional mosquito trapping sites and testing? Faster turnaround time 
on test results is also needed.
    The State mosquito hotline reported only one permanent test site 
for Fairfield. Just before the Fairfield decision to spray was made, 
only few 1-day test sites were established. No mosquitoes had been 
found with the virus, however the decision was then made to go ahead 
and spray. Luckily, the temperature dropped and no spraying was done. 
Faster turnaround times on testing would have confirmed that there were 
no virus detections, which would have reduced the pressure to spray.
    5) The USGS website provides a link to the EPA's ``Pesticide 
Mosquito Control (10/6/99)'' report. Can your committee request that 
the EPA create a report on non-pesticide methods of control?

    I would like to thank you for having this hearing in Fairfield. 
Even though the public will not be allowed to speak at this hearing, I 
hope you will enter my letter into the record and look forward to any 
information the speakers can provide on non-pesticide methods of 
mosquito control.
            Sincerely,
                                         Krisann E. Benson.
                               __________
               Statement of Lynn Pritchard, Westport, CT
    On the evening of Tuesday, 28 September, at 10 p.m., family fed and 
baby in bed, my nice safe world was breached by a nightmare.
    I'm educated, I'm conscious and my decisions are based in careful 
consideration of information sought, gathered and sifted. I feed my 
family organic foods; I breast feed and stay at home with my son. I use 
cloth diapers and environmentally safe cleaning products. I raise my 
own organic herbs and vegetables and I preserve the surplus. I compost 
and I recycle. Basically I care.
    While watching the news on Wednesday, September 22, I saw there was 
to be spraying for the mosquitoes carrying the encephalitis virus. I 
felt uneasy, but I thought that if I couldn't stop it, I could prepare. 
I made a point to find out where and when they would spray our 
neighborhood and with no easy effort I gleaned the information 
piecemeal.
    The night I knew they were to spray, I covered my gardens, I taped 
my leaky windows, I covered the sandbox, locked in the cat, covered the 
neighbor's sandbox and toys (they were away), closed their windows and 
locked in their cat and then left town for 2 days (my husband returning 
the next morning for the cats). Basically, I played ball.
    A week later, with the local newspaper this time reporting there 
was to be spraying and where, I was able to calculate the risk of the 
spraying which was to be a half mile away. I thought that we'd stay 
home, close the windows and watch a movie. I made a point to tell the 
neighbors not to drive or walk in those areas. Again, I played ball; 
the town of Westport didn't.
    At 10 p.m. we heard the muffled, unintelligible sound of a 
bullhorn. We rushed to the window. It was the advance car with lights 
flashing. Five car lengths behind came the spray truck. Our home, 
situated on a corner close to the road, was coated. We saw the spray. 
The fog was everywhere I called my pregnant neighbor. She had just 
closed her windows because, her husband had arrived moments before. He 
had jogged through it. The advance car telling him, ``Oh, it can't hurt 
you.'' We went back to what we were doing. Fifteen minutes passed. I 
tasted metal in my mouth. My husband did as well. We doubted 
ourselves--but both of us? Our son coughed in his sleep. We moved him 
from his corner room into our bedroom with a more modern window. We 
stuffed towels under the door and sat there. My throat and sinuses 
became increasingly irritated. I could smell it. . . I could taste it. 
. . I could feel it. . . I couldn't do anything about it! It was a gas 
seeping into my body. . . into my child's body. . . but to leave was to 
walk into it. We waited an hour. A very long hour. We wrapped a towel 
around our sleeping son's head. We breathed into cloths. We fled our 
home in the middle of the night to my mother's home, a town away.
    I awoke the next morning completely hoarse. I called the Westport 
Health Department. I got an apology--that felt a little better. I felt 
sorry for the Health Department lady--she was under a lot of pressure. 
The day went on. . . By midday, I had lost feeling in the upper half of 
my face and the tips of my fingers. My vision and reactions were 
``fogged'' I watched my son play. I tried to calm myself. His eyes were 
ringed with red, as were mine. I called the family doctor. I left a 
message with the nurse around 2 p.m. I thought about how the Health 
Department lady had told me that it was ``the public crying out for 
spraying''. . . I called the newspaper so this couldn't happen again! I 
was dropping things. My hands, mostly my left, just weren't getting the 
information from my brain as fast as I was thinking it. How the hell 
could this happen? I called the doctor again. . . Again I spoke to the 
nurse. He wasn't in today. He'd call in the morning, OK? No. . . Not 
OK. I was poisoned, my family was poisoned. I had to say something. My 
Mama always said, ``Don't make a spectacle of yourself.'' But my God, I 
couldn't hold a cup! The tremors began around 6 p.m. There I was. I'd 
found a group holding a press conference about the spraying. . . but, I 
couldn't drive. My mother had to, so there she was, helping me make an 
spectacle of myself.
    How did I come from a place of being quietly conscious to being 
loudly poisoned? How was it that in the United States of America, I 
came to be gassed in my own home? Well, they were just clearing the 
spray from the trucks. You see, they park the trucks down the street. 
We were exposed to an untold concentration of the toxin--as were at 
least 20 small children, at least 2 pregnant woman, at least 10 elderly 
people, among 100 or so others. On a warm night, windows open, without 
our knowledge, against our will and if you ask me. . . against our 
constitutional rights.
    The lack of notification mixed with misinformation; the symptoms 
way beyond the bounds of the pesticide's application label; the fact 
that my family and the food we eat were exposed to a toxin against our 
will and without warning! Mad, yup I'm mad. I'm jaded and I want to 
move, but the fact is that there are people here: friends, relatives 
and neighbors that I care about and love. If I let them be poisoned 
without saying anything, it would be just as bad as doing it myself and 
I can't, in all good conscience, allow that to happen. But, I guess the 
question at hand is, ``Can you?''
                               __________
                Statement of Susan Fenley, New York, NY
    I understand you are holding a hearing on the W. Nile virus and 
spraying. First, I urge you to recommend safer ways to handle the 
mosquito population rather than spraying malathion randomly on people 
and their surroundings. There are safe ways to do this. If you like, 
I'll send them to you .
    Malathion is not safe, and few people believe it is. Just look on 
the label. It's not a mystery as to the lethalness of the pesticide. 
Second, the encephalitis outbreak was certainly not at epidemic 
proportion to warrant spraying to such a degree as was done last 
summer. I am afraid what will happen next year when they rematch. Are 
you going to spray randomly again? More and more people will protest 
and your constituency, in order to protect itself, may turn against 
those who support the spraying. Worse, they may suffer physical 
consequences from malathion exposure. Please take safe measures now to 
curb the mosquito population--but not lethal chemicals that will not 
only ineffectively destroy mosquitos, but kill their natural predators, 
harm people and that may bring about other, unforeseen future harmful 
effects. Please stop the malathion and dangerous chemical exposure to 
people.
    Thank you.
                               __________
              Statement of Marthe Schulwolf, Piermont, NY
    I am not a Connecticut resident, but am nonetheless taking the 
liberty of writing to you, as you are about to hold Senate hearings on 
an issue of vital importance to all of the residents of the tri-State 
region. I refer to the planned hearing on the handling of the West Nile 
virus. I am concerned that the dangers and side-effects of broadcast 
spraying of have received short shrift, in comparison to the dangers of 
the West Nile virus. I would not like to minimize the latter, but I 
feel that former have been largely ignored. It is crucial that true 
experts on the dangers of pesticides, the symptoms of pesticide 
poisoning, be involved in any cost/benefit analysis of pesticide use. 
Any national policy on mosquito-borne illness should mandate a true 
Integrated Pest Management approach, i.e., one that relies on accurate 
scientific monitoring of the pest species in question and on safer 
methods of mosquito control, specifically habitat control, water 
management, mosquito fish and other predators of mosquitoes, public 
education, and especially use of larvicides rather than the 
``adulticides'' (the types of insecticides that were sprayed last few 
months were ``adulticides,'' designed to kill adult mosquitoes and 
carry considerable risk to humans and other species. Larvicides, on the 
other hand, are far more biologically specific and are also generally 
applied in a more targeted fashion.
    I am aware of the fact that many ``experts'' minimize these 
dangers, and also refer to reactions to pesticide exposure as 
``allergic.'' In fact, such reactions are not allergic, but rather 
neurotoxic. Organophosphates such as malathion were originally 
developed as nerve poisons for purposes of warfare. They act upon the 
nervous system of humans and insects alike. Of course, some people are 
more sensitive to their effects than others. But the fact that some can 
easily tolerate exposure hardly justifies risking the health of those 
who are not able to tolerate it. Furthermore, long-term effects are far 
more difficult to assess than short-term effects, as are possible 
synergies with other products and medications. Furthermore, as most 
mosquito control experts will tell you, adulticide is not the most 
effective method of mosquito control, as mosquitoes develop tolerance 
and resistance to insecticides. This is a vicouis cycle which must be 
stopped. It is essential that our governmental bodies devote the funds 
necessary to proper forms for mosquito control, utilizing the newest 
and safest methods.
                               __________
         Statement of Britt D. Pastor Bolnick, Mohegan Lake, NY
    First and foremost, I would like to thank Senator Lieberman for 
holding this forum. As a resident of Westchester County, I feel that 
all the counties in this area must work together to ensure the safety 
of our human residents, our non-human residents, and the natural 
environment that supports us all. Decisions are being made which will 
have both known and unknown repercussions on all forms of life.
    Although I feel we are making great strides simply in holding and 
attending these forums, I was concerned with two main issues after 
hearing the panel speak.
    The first concerns the definition of a ``public health crisis''. I 
have heard this term used twice now, once in justifying Rockland 
County's $390,000 single application of aerial pesticides and then 
again today, especially in Dr. Fish's testimony. His use of phrases 
such as a ``public health threat unprecedented in modern times'' and 
comparison of the West Nile Virus to the introduction of yellow fever 
and bubonic plague I found to be extreme. Considering the fact that 
neither Fairfield County nor Rockland County saw a single human 
confirmed case of question whether or not this warrants such strong 
language.
    I also noticed that Dr. McLean omitted a sentence from his written 
testimony, one the important in terms of our reaction to this 
situation. The sentence that he omitted reads as follows: ``The virus 
usually produces either asymptomatic infection or mild fever in humans. 
. . '' Then he goes on to talk about the effect on the bird population.
    Now, given that in two counties that found it necessary to spray, 
not one person was affected, and given the information that for 
normally healthy humans this virus usually produces symptoms that are 
less severe than the common flu, my question is: What was the public 
health ``crisis'' that warranted the dumping of toxic chemicals over 
us? Who gets to define this? My issue is that I no longer trust local 
government, State government or the CDC to define a ``public health 
crisis'', since my concept and theirs obviously differ so extremely. 
The CDC even gives statistics that cite from the years 1986-1995, the 
total U.S. deaths from all four strains of encephalitis were 48. The 
total deaths from chicken pox were 948, and the total deaths from acute 
rheumatic fever were 1006.
    Another point that was not addressed sufficiently for me in this 
forum was the extreme danger of the chemicals used. If no one had this 
virus in Fairfield County, and people are so worried about all the bird 
deaths, why would spraying be a solution, even temporarily? Rachel 
Carson wrote about the dangers of pesticides and other chemicals on 
wildlife and the natural world back in the early 1960's (she even wrote 
on Malathion, which is still being used today). Have we learned 
nothing? I believe it was Dr. Andreadis with whom I was speaking 
briefly after the meeting, and I mentioned Carson's book, Silent 
Spring, and he thought that it was not Malathion that she wrote about, 
and that there isn't really conclusive evidence that all these 
pesticides are harmful. I urge you, Senator, to please pick up a copy 
of Silent Spring and find out for yourself what people knew almost 40 
years ago, because I am worried that some of the people on this panel 
weren't working with all the information they could have.
    In closing, I feel that the risks to human life do not warrant such 
extreme and irreversible reactions as the aerial spraying of 
pesticides. Please reconsider using this as a solution, even if you 
only plan minimal use. There is evidence that these chemicals can harm 
people with compromised immune systems (which I believe most of the 
people who died from the WNV had) so you can only expect more deaths 
and ill health by using aerial pesticide application as a solution.
    Thank you so much for hearing us.
                               __________
             Statement of Doreen Diorio, Staten Island, NY
    This is to support any efforts to protect our public health from 
the toxic use of Malathion (and other toxic spraying) and to urge your 
further efforts to promote safe alternatives in dealing with 
occurrences of West Nile disease.
    Where non-toxic sprays are available and where this disease has 
been, as is widely felt, overreacted to, I'm sure you'll agree that 
safer and saner alternatives must be endorsed. In addition, a program 
should be instituted which would prohibit such future hazardous 
spraying in cases such as these.
    Particularly where children and pregnant women are especially 
affected (not to mention the detrimental toll on our wildlife and 
overall ecology), our future health lies in the hands of responsible 
politicians like yourself.
    Thank you for your prompt attention to this matter.
                               __________
            Statement of Henry R. Rupp, North Brunswick, NJ
    We in New Jersey are delighted that a person of your caliber is 
holding a hearing on the West Nile virus outbreak and the means whereby 
the possibility of such a future event can be reduced. Those of us in 
New Jersey who have managed mosquito control agencies stand willing to 
offer you the benefit of our experiences in conducting surveillance, 
habitat management, the use of biological controls and larviciding. We 
would have hoped that your panel would have had someone with 
operational experience to address this very important part of mosquito 
control. Although we do not oppose the use of adulticides, we believe 
their use should be as a last resort when environmental conditions 
overwhelm us or when disease becomes apparent. Connecticut has a good 
mosquito man in the person of Paul Capotosto and we would welcome the 
opportunity to be of assistance to him. The West Nile virus outbreak 
might not have happened with surveillance, inspection and a larval 
control program, but if it did happen it would have been in spite of 
the efforts made not because of the lack of them. Best wishes in your 
search for information and in finding a reasonable approach to the 
resolution of this problem.

                                   - 

</pre></body></html>
